No. __________
IN THE

Supreme Court of the United States
LAWRENCE G. HUTCHINS III,
SERGEANT,
UNITED STATES MARINE CORPS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Armed Forces
PETITION FOR A WRIT OF CERTIORARI
S. BABU KAZA
CHRIS G. OPRISON
LtCol, USMCR
DLA Piper LLP (US)
THOMAS R. FRICTON
500 8th St, NW
Captain, USMC
Washington DC
Counsel of Record
Civilian Counsel for
U.S. Navy-Marine Corps
Petitioner
Appellate Defense Division 202-664-6543
1254 Charles Morris St, SE
Washington Navy Yard,
D.C. 20374
202-685-7291
Thomas.Fricton@navy.mil

i
QUESTION PRESENTED
In Ashe v. Swenson, 397 U.S. 436 (1970), this Court
held that the collateral estoppel aspect of the Double
Jeopardy Clause bars a prosecution that depends on a
fact necessarily decided in the defendant’s favor by an
earlier acquittal. Here, the Petitioner, Sergeant
Hutchins, successfully fought war crime charges at
his first trial which alleged that he had conspired with
his subordinate Marines to commit a killing of a
randomly selected Iraqi victim. The members panel
(jury) specifically found Sergeant Hutchins not guilty
of that aspect of the conspiracy charge, and of the
corresponding overt acts and substantive offenses.
The panel instead found Sergeant Hutchins guilty of
the lesser-included offense of conspiring to commit an
unlawful killing of a named suspected insurgent
leader, and found Sergeant Hutchins guilty of the
substantive crimes in furtherance of that specific
conspiracy.
After those convictions were later
reversed, Sergeant Hutchins was taken to a second
trial in 2015 where the Government once again
alleged that the charged conspiracy agreement was
for the killing of a randomly selected Iraqi victim, and
presented evidence of the overt acts and criminal
offenses for which Sergeant Hutchins had previously
been acquitted. Sergeant Hutchins was convicted of
the charges at the retrial.
The military appellate courts applied Ashe, and
held that the panel at the first trial acted rationally,
and had acquitted Sergeant Hutchins of the alleged
random victim conspiracy agreement and the related
overt acts and criminal offenses. But the Court of
Appeals for the Armed Forces (CAAF) found that even
if those same precluded ultimate facts were presented

ii
as essential elements of the charges at the retrial,
issue preclusion did not apply, as different facts which
were not similarly precluded were available as an
alternative basis for the same essential elements.
Therefore, the question presented is:
Whether the right under the Double
Jeopardy Clause to the issue preclusive
effect of an acquittal applies where
precluded and un-precluded facts are
alternative grounds for essential
elements of a criminal charge.

iii
TABLE OF CONTENTS
QUESTION PRESENTED .......................................... i
TABLE OF CONTENTS ............................................ iii
TABLE OF AUTHORITIES ....................................... v
PETITION FOR A WRIT OF CERTIORARI ............. 1
OPINIONS BELOW ................................................... 1
JURISDICTION.......................................................... 1
CONSTITUTIONAL PROVISION INVOLVED ........ 1
STATUTES INVOLVED ............................................ 2
STATEMENT OF THE CASE .................................... 2
I. Legal Background.............................................. 2
II. Factual and Procedural Background. .............. 3
A. Government Case ....................................... 5
B. Defense Case ............................................... 6
C. Instructions ................................................. 7
D. Findings ...................................................... 8
E. Retrial ......................................................... 8
F. Decision of the Navy-Marine Corps
Court of Criminal Appeals ......................... 12

iv
G. Decision of the United States Court of
Appeals for the Armed Forces .................. 13
REASONS TO GRANT REVIEW............................. 14
I.

This case is emblematic of a gap in double
jeopardy jurisprudence that can only be
resolved by this Court. ................................... 15

II.

The question presented is important. . ......... 19

III.

This case presents an ideal vehicle to address
the question presented. ……… .................. .…21

CONCLUSION.......................................................... 21
APPENDIX................................................................ 1a
Text of Articles 81, 128, 130, 134, UCMJ. ........... 1a
Published Opinion of the United States Court of
Appeals for the Armed Forces, Dated May 29, 2019.
............................................................................... 4a
Unpublished Opinion of the United States NavyMarine Corps Court of Criminal Appeals, Dated
January 29, 2018 ................................................ 23a

v
Table of Authorities
United States Constitution
U.S. CONST. amend. V ............................................ 1, 2
Supreme Court of the United States
Ashe v. Swenson, 397 U.S. 436 (1970)............. 2, 14-15
Arizona v. California, 460 U.S. 605 (1983) .............. 21
Braverman v. United States, 317 U.S. 49 (1942) ..... 19
Bravo-Fernandez v. United States, 137 S.Ct. 352
(2016) ..................................................................... 2, 15
Chapman v. California, 386 U.S. 18 (1967) ............. 18
Christianson v. Colt Industries Operating Corp., 486
U.S. 800 (1998) .......................................................... 21
Currier v. Virginia, 138 S. Ct. 2144 (2018) ........ 14, 17
Dowling v. United States, 493 U.S. 342 (1990) .... 2, 15
Iannelli v. United States, 420 U.S. 770 (1975) ........ 15
Miranda v. Arizona, 384 U.S. 436 (1966) ................ 18
Morris v. Matthews, 475 U.S. 237 (1986) ................. 19
Price v. Georgia, 398 U.S. 323 (1970) ....................... 18
Sanabria v. United States, 437 U.S. 54 (1977) ........ 20
United States v. Jimenez Recio, 537 U.S.270
(2003) ................................................................... 15
Yeager v. United States, 557 U.S. 110
(2009) .................................................... 2, 14-15, 17
United States Court of Appeals for the Armed
Forces
United States v. Hutchins, 78 M.J. 437 (C.A.A.F.
2019)..............................................................passim
United States Circuit Courts of Appeals
United States v. Carboni, 204 F.3d 39 (2d Cir.
2000)..................................................................... 16
United States v. Gonzalez, 110 F.3d 936 (2d Cir.
1997)..................................................................... 16

vi
United States v. Grimm, 738 F.3d 498 (2d Cir.
2013)..................................................................... 16
United States v. Parker, 553 F.3d 1309 (10th Cir.
2009)..................................................................... 16
United States v. Provenzano, 615 F.2d 37 (2d Cir.
1980)..................................................................... 16
United States v. Rosenblatt, 554 F.2d 36
(2d Cir. 1977) ....................................................... 16
United States v. Rubin, 844 F.2d 979
(2d Cir. 1988)……………………………………. .... 16
United States v. Salameh, 152 F.3d 88 (2d Cir.
1998)..................................................................... 16
United States v. Salmonese, 352 F.3d 608 (2d Cir.
2003)..................................................................... 16
United States v. Tanner, 629 F.2d 456 (7th Cir.
1980)..................................................................... 20
United States v. Tocco, 306 F.3d 279 (6th Cir.
2002)..................................................................... 20
Ward v. United States, 694 F.2d 654 (11th Cir.
1983) ........................................................................... 20
United States Navy-Marine Corps Court of
Criminal Appeals
United States v. Hutchins, No. 200800393, 2018 CCA
LEXIS 31 (N-M. Ct. Crim. App. Feb. 26,
2018).............................................................. passim
Statutes
10 U.S.C. § 881 ............................................................ 2
10 U.S.C. § 907 ............................................................ 2
10 U.S.C. § 918 ............................................................ 2
10 U.S.C. § 921 ............................................................ 2
10 U.S.C. § 928 ............................................................ 2
10 U.S.C. § 930 ............................................................ 2
10 U.S.C. § 934 ............................................................ 2
28 U.S.C. § 1259 .......................................................... 1

vii

Federal Rule of Evidence
Federal Rule of Evidence 404(b) .......................passim

1
PETITION FOR A WRIT OF CERTIORARI
Sergeant Lawrence G. Hutchins III, United States
Marine Corps, respectfully petitions this Court for a
writ of certiorari to review the decision of the United
States Court of Appeals for the Armed Forces.
OPINIONS BELOW
The published opinion of the United States Court
of Appeals for the Armed Forces appears at pages 4a
through 22a of the appendix to this petition. It is
reported at 78 M.J. 437. The unpublished opinion of
the United States Navy-Marine Corps Court of
Criminal Appeals appears at pages 23a through 204a
of the appendix. It is available at 2018 CCA LEXIS
31.
JURISDICTION
The United States Court of Appeals for the Armed
Forces issued its initial decision on May 29, 2019, and
denied a timely petition for reconsideration on July
16, 2019. Accordingly, this Court has jurisdiction
pursuant to 28 U.S.C. § 1259(3).
CONSTITUTIONAL PROVISION INVOLVED
The Fifth Amendment to the United States
Constitution provides in pertinent part: “[N]or shall
any person be subject for the same offence to be twice
put in jeopardy of life or limb[.]”1

1

U.S. CONST. amend V.

2
STATUTES INVOLVED
The text of Articles 81, 128, 130, 134 UCMJ, 10
U.S.C. §§ 881, 928, 930, 934 appear at pages 1a
through 3a of the appendix to this petition.
STATEMENT OF THE CASE
In this case a United States court of appeals has
decided an important question of federal law that
has not been, but should be, settled by this Court,
concerning the issue preclusion component of the
Double Jeopardy Clause.
I. Legal Background
The Double Jeopardy Clause of the Fifth
Amendment protects a person from being “twice put
in jeopardy of life or limb” for the same offense.2
The doctrine of issue preclusion is embedded in the
Double Jeopardy Clause, and dictates that where a
jury’s acquittal has necessarily decided an issue of
ultimate fact in the defendant’s favor, the
prosecution is barred “from trying to convince a
different jury of that very same fact in a second
trial.”3 Issue preclusion ensures individuals who are
acquitted cannot be forced to defend a second time
against functionally the same allegations.
A defendant bears the burden “to demonstrate
that the issue whose relitigation he seeks to foreclose

2
3

Id.
Bravo-Fernandez v. United States, 137 S. Ct. 352, 359 (2016).

3
was actually decided in the first proceeding”4 Courts
examine the record of the first trial to determine
“whether a rational jury could have grounded its
verdict upon an issue other than that which the
defendant seeks to foreclose from consideration.”5 In
addition, a defendant must establish that the issue
he seeks to foreclose forms essential elements of
charges at a later trial.6 Further, issue preclusion
will not apply where the foreclosed evidence is not an
essential element, and is instead offered under a
separate Rule of Evidence requiring a lower standard
of proof, such as Rule of Evidence 404(b).7 “[W]e
decline to extend Ashe v. Swenson and the collateralestoppel component of the Double Jeopardy Clause to
exclude in all circumstances . . . relevant and
probative evidence that is otherwise admissible
under the Rules of Evidence simply because it relates
to alleged criminal conduct for which a defendant
has been acquitted.”8
II. Factual and Procedural Background
In April 2006, Sergeant Hutchins was a squad
leader in a U.S. Marine Corps infantry unit which was
deployed to Hamdaniyah, Iraq to conduct
counterinsurgency operations.9 The insurgents in the
Hamdaniyah region elusively blended into the
Dowling v. United States, 493 U.S. 342, 350-51
(1990) (citations omitted).
5 Ashe, 397 U.S. at 444 (internal quotation marks omitted)
(citation omitted).
6 See Yeager v. United States, 557 U.S. 110 (2009).
7 Dowling, 493 U.S. at 348.
8 Id.
9 Prosecution Exhibit (“PE”) 1 (2007 trial).
4

4
population, and their primary means of attacking the
Marines was the use of improvised explosive devices
(IEDs).10
Intelligence reports indicated that
Hamdaniyah resident Saleh Gowad was a “High
Value Individual” (HVI) and “prince” of the local
insurgency, and was responsible for the employment
of IEDs which had killed American servicemembers.11
Sergeant Hutchins arrested Gowad as part of an
operation to capture insurgent leaders, but Gowad
was released from detention shortly thereafter due to
a lack of evidence.12
The Government alleged that on the night of April
25, 2006, Sergeant Hutchins and the members of his
squad were emplaced in a palm grove in Hamdaniyah
to conduct a counter-IED ambush, but instead
concocted a plan to kidnap and kill Saleh Gowad, or if
he could not be found, then any random Iraqi male.13
According to the Government, Sergeant Hutchins’s
plan required four of his squad members (the “snatch
team”), to leave the ambush position, steal an AK-47
rifle and shovel, patrol to Saleh Gowad’s house, and
then unlawfully enter the house and kidnap a
victim—either Saleh Gowad himself (“Plan A”), a
relative of Gowad (“Plan B”), or any random Iraqi
military-aged male from any nearby house (“Plan
C”).14 The snatch team would thereafter bind the
victim with zip ties and bring him to a hole by the
ambush position, where Sergeant Hutchins would
falsely report that the squad had identified a man
Id.
PE 1 (2007 trial).
12 Id.
13 2007 Record of Trial (“OR”) at 1009-22; 1721-34.
14 OR at 1009-22; 1721-34.
10
11

5
digging by the road who had fired upon them with an
AK-47.15 The squad would then shoot the man, while
two members of the squad would shoot the AK-47 in
the air and save the shell casings, to later be scattered
around his body.16 The squad would maintain the
false story in any after-action reports.17
A. Government Case
At trial in 2007, the Government presented
testimony from two squad members that during the
early morning hours of April 26, 2006, Sergeant
Hutchins’s plan was executed as intended. The
snatch team first stole the AK-47 rifle and shovel, and
then went to Saleh Gowad’s house.18 At Gowad’s
house they thought they were detected, so in
accordance with the plan they went to a nearby house
and seized a random victim.19 The random victim was
bound with zip ties, brought back to the ambush
position, and then killed by the squad.20 However,
three of the squad members testified that Saleh
Gowad was the only intended target, and they
believed Gowad was the individual who was seized
and killed that night.21 The identity of the individual
who was actually killed was never established in
court.

Id.
Id.
17 Id.
18 OR at 1324-1383; 1406-1449.
19 Id.
20 Id.
21 OR at 1152-53, 1181, 1184, 1265-66, 1282-84
15
16

6
B. Defense Case
At the first trial, the defense conceded the
individual killed had not been digging by the side of
the road, but was instead taken from his home by the
snatch team and unlawfully killed.22 However, the
defense disputed the conspiracy agreement included
plans to kill alternative victims (“Plan ABC”),
maintaining that Sergeant Hutchins, had only
intended to kill Saleh Gowad (“Plan A”).23 The
defense challenged the veracity of the testimony that
the snatch team departed from Saleh Gowad’s house
and seized an individual from another house.24
The defense highlighted that Sergeant Hutchins
was authorized to enter Gowad’s home and detain him
at any time, as Gowad was a designated HVI.25 Thus,
even if there was no authority to kill Gowad, it was
still not criminal to enter his home, place him in
restraints and detain him. The defense further
argued that “premeditation” could not be established
for the offense of “premeditated murder,” as the
combat environment had placed Sergeant Hutchins in
a constant heat of passion.26 But despite these
concessions, the defense nevertheless requested the
members return findings of “not guilty” to all charges,
essentially as a matter of nullification.

OR at 1741-47.
Id.
24 Id.
25 OR at 1273.
26 OR at 1753-54.
22
23

7
C. Instructions
The members panel was instructed on each of the
following charged violations of the Uniform Code of
Military Justice: Article 81 (Conspiracy), Article 107
(False Official Statement); Article 118 (Premeditated
Murder); Article 121 (Larceny); Article 128 (Assault);
Article 130 (Housebreaking); and two specifications of
Article 134 (Kidnapping and Obstruction of Justice).27
The panel was instructed that Assault required
proof beyond a reasonable doubt of bodily harm
through unlawful force.28 “Unlawful” was defined as
an act or force “without legal justification or excuse.” 29
For Housebreaking, the members were instructed
that proof beyond a reasonable doubt was required of
an “unlawful entry” into a dwelling with the intent to
commit the offense of “kidnapping” therein.30 The
members were instructed that Kidnapping required
proof beyond a reasonable doubt that the accused
“wrongfully” held another against that person’s will,
that is, “without justification or excuse.”31
The members were explicitly instructed that if
they found Sergeant Hutchins had an honest and
reasonable belief that the individual allegedly seized
and killed by his squad was Saleh Gowad, and that he
had authority to detain Saleh Gowad, then they were

See United States v. Hutchins, 78 M.J. 437, 442 (C.A.A.F
2019).
28 OR at 1765-90.
29 Id.
30 OR at 1789-90; AE CXXIII at 2-4 (2007 trial).
31 Id.
27

8
required to find him “not guilty” of Housebreaking
and Kidnapping.32
D. Findings
The members found Sergeant Hutchins guilty of
offenses related to Plan A (Conspiracy, False Official
Statement, Unpremeditated Murder, Larceny), but
acquitted him of all Plan ABC charges and language.33
Specifically, the members acquitted Sergeant
Hutchins of the substantive offenses of Assault,
Housebreaking
and
Kidnapping,
removed
Housebreaking and Kidnapping as predicate offenses
of the conspiracy charge, and struck all overt acts
related to Plan ABC.34 As summarized by the lower
court, the struck overt acts were: “(1) four squad
members walked from the HVI’s house and entered an
unknown Iraqi man’s home; and (2) two squad
members took an unknown Iraqi man from his home
against his will.”35
E. Retrial
The findings and sentence from the first trial were
later set aside by the lower court, due to the use of an
unconstitutionally obtained confession.36 Sergeant
Hutchins was brought to a retrial in 2015, where he
was charged with the same offenses of which he had
been convicted at the first trial.

Id.
See Hutchins, 78 M.J. at 442.
34 Id.
35 Id.
36 United States v. Hutchins, 72 M.J. 300 (C.A.A.F 2013).
32
33

9
The substantive offenses and conspiracy predicate
offenses/overt acts for which Sgt Hutchins had been
acquitted were struck from the charging documents.
The remaining conspiracy charge broadly alleged a
conspiracy to kill an unknown Iraqi man, with the
predicate offenses of murder, larceny, false
statements and obstruction of justice.
The defense at the retrial filed a motion in limine,
preemptively requesting any evidence of conspiracy to
commit Plan ABC and its overt acts be suppressed,
due to the acquittals from the first trial.37
Specifically, the defense requested the Government be
forbidden from presenting any evidence or argument
the conspiracy agreement included kidnapping and
housebreaking, as Sergeant Hutchins had been
acquitted of housebreaking and kidnapping as
substantive offenses and as conspiracy predicate
offenses. Because kidnapping and housebreaking
required entry into a home and seizure of a victim who
was not a lawful target for detention, the Government
was precluded from alleging the intended victim of the
conspiracy plan was an individual who could not be
lawfully detained, i.e., the Plan ABC alternative
victims to Saleh Gowad. Therefore, the defense
argued, the Government should only be allowed to
allege Plan A as the agreement element of the
conspiracy charge, and be precluded from alleging
Plan ABC.
The military judge orally denied the motion:
The motion to suppress is denied.
There is no requirement to speculate on
37

AE XCVIII

10
the rationale on the last panel of
members. In fact, it’s folly to try to do
that. The real risk of confusing them is
if we try to parse the facts as proposed
by the defense counsel. Misconduct can
violate more than one article of the
UCMJ and the conduct alleged in . . .
the defense motion [is] not mutually
exclusive to the charges of which the
accused was acquitted.38
The military judge did not provide any additional
findings of fact or conclusions of law.
During the merits portion of the retrial, the
military judge provided the following Military Rule of
Evidence 404(b) instruction for the use of acquitted
acts evidence to prove a plan or design, denying a
defense request for a more expansive limiting
instruction:39
[T]he accused was acquitted at a prior
proceeding
of
the
offenses
of
kidnapping, housebreaking, assault,
obstruction of justice, premeditated
murder, and false official statement on
or about 8 May, as well as conspiracy to
commit
kidnapping
and
housebreaking. You may therefore
consider evidence that the accused may
have been involved in plans or acts
involving entering the alleged victim’s
home, moving him to another location,
38
39

Record (“R.”) at 778.
R. at 1624-30; AE CLIV.

11
involvement in a shooting, and
providing a statement to NCIS on or
about 8 May for the limited purpose of
its tendency, if any, to prove a plan or
design of the accused to commit the
charged acts. You may not consider this
evidence for any other purpose, and you
may not conclude from this evidence
that the accused is a bad person or has
general criminal tendencies, and that
he therefore committed the offenses
charged.40
At the retrial, the prosecution’s opening statement
explicitly alleged a Plan ABC conspiracy agreement:
“And that's where the accused brought his Marines in,
and he briefed them on the plan: Plan A, get Gowad;
Plan B, get Gowad's brothers; and Plan C. . . They
went to this house to execute Plan C where they would
get any Iraqi man.”41 The defense, unlike at the first
trial, did not concede Plan A, but instead pursued a
general reasonable doubt challenge to the entire
government case based on the failures of the original
investigation. The Government could not admit
Sergeant Hutchins’s suppressed confession into
evidence, and the defense highlighted that all but one
of the members of Sergeant Hutchins squad had
recanted their prior testimony, and refused to testify
at the retrial.42 Without defense concessions, and in
the absence of full testimony from the squad and
Sergeant Hutchins’s confession, there was very
R. at 1662, 2285-86 (emphasis added).
R. at 1260-61.
42 See Hutchins, 2018 CCA LEXIS at *48-49.
40
41

12
limited evidence presented of a Plan A conspiracy.43
The defense effectively forced the members panel to
either convict Sergeant Hutchins under Plan ABC, or
provide a full acquittal. After deliberations, the
members convicted Sergeant Hutchins of conspiracy,
murder and larceny.
F. Decision of the United States Navy
-Marine Corps Court of Criminal
Appeals (NMCCA)
NMCCA conducted an Ashe analysis, and
determined that Sergeant Hutchins was acquitted at
his first trial of conspiring and committing crimes
under Plan ABC:
With regard to the appellant’s liability
for committing housebreaking and
kidnapping, “[t]he single rationally
conceivable issue in dispute before the
jury was whether” the appellant had
conspired to enter the home of [Saleh
Gowad] and seize him or to break into
the home of someone else to kidnap
someone other than [Saleh Gowad]. “And
the jury by its verdict found” that the
appellant had not conspired to break into
the home of anyone other than [Saleh
Gowad] or kidnap anyone other than
Id. The Government submitted into evidence portions of the
squad members’ testimony from the first trial. However, the
testimony which was read into the record did not include the
defense cross-examinations, and therefore the testimony which
most directly supported a Plan A-only conspiracy was not
presented.
43

13
[Saleh Gowad]. . . . Their decision to
acquit the appellant of housebreaking
and kidnapping demonstrates that the
members believed the mistake of fact
defense applied, and the conspiracy was
to get and kill [Saleh Gowad].44
Nevertheless, NMCCA held that the prosecution’s use
of Plan ABC as the conspiracy agreement underlying
the conspiracy charge was not a double jeopardy
violation, as whether the agreement element of the
conspiracy charge was Plan A or Plan ABC was not an
issue of ultimate fact at the retrial.45
G. Decision of the United States Court of
Appeals for the Armed Forces.
On August 27, 2018, the lower court granted
Sergeant Hutchins’ petition for review on the
following issue:
WHETHER THE MILITARY JUDGE
ERRED WHEN HE DENIED THE
DEFENSE MOTION TO SUPPRESS
EVIDENCE OF CONDUCT FOR
WHICH APPELLANT HAD BEEN
ACQUITTED AT HIS FIRST TRIAL.46
The lower court’s resulting decision did not adopt
NMCCA’s holding that the specific meeting of minds
for the conspiracy agreement was not an issue of
ultimate fact for a conspiracy charge. Instead the
Hutchins, 2018 CCA LEXIS at *29 -*30 (citing Ashe, 397 U.S.
at 445).
45 Id. at 11 (emphasis added).
46 United States v. Hutchins, 78 M.J. 437 (C.A.A.F. 2019).
44

14
lower court found that regardless of ultimate fact,
issue preclusion was not applicable as the
Government could prove the charged offenses without
necessarily relying on evidence of a Plan ABC
conspiracy agreement:
Appellant has failed to meet his burden
of demonstrating how any of the charges
of which he was convicted at the
rehearing required the Government to
prove this purported issue of ultimate
fact beyond a reasonable doubt. Stated
differently, at the rehearing the
Government could prove all of the
elements of the offenses of which
Appellant was convicted without having
to prove beyond a reasonable doubt that
Appellant committed any of the conduct
related to these offenses of which
Appellant was acquitted at the first
trial.47
REASONS TO GRANT REVIEW
The lower court addressed an issue not previously
considered by this Court, and created a novel
exception to issue preclusion doctrine with farreaching consequences. Issue preclusion is “an
extremely important principle in our adversary
system of justice.”48 This Court should continue its
recent clarification of the contours of the issue
Id at 446 (citing Currier v. Virginia, 138 S. Ct. 2144, 2150
(2018); Yeager, 557 U.S. at 123).
48 Ashe, 397 U.S. at 443.
47

15
preclusion doctrine,49 and grant certiorari to provide
an analytical framework to address issue preclusion
where precluded and un-precluded facts form
alternative bases for elements of criminal offenses.
I. This case is emblematic of a gap in double
jeopardy jurisprudence that can only be
resolved by this Court.
Under Ashe and Dowling, acquitted acts evidence
is admissible at a later criminal trial if two conditions
are met: (1) the evidence is not an essential element
of a charged offense, and (2) the evidence is offered
under a Rule of Evidence with a lower burden of
proof.50
Here the evidence in question was an essential
element of charged offenses, and it did not fit into the
rubric of a Rule of Evidence. First, it is beyond cavil
that the specific terms of a conspiracy agreement are
an essential element of a conspiracy charge.51
See Yeager 557 U.S. 110 (hung jury); Bravo-Fernandez 137 S.
Ct. 352 (vacated convictions); Currier v. Virginia 138 S. Ct.
2144 (consent to severance).
50 See Ashe 397 U.S. 436; Dowling, 493 U.S. 342.
51 The “meeting of minds” and “agreement” between coconspirators is the quintessential fact of a conspiracy charge.
“[T]he essence of conspiracy is an agreement, an agreement to
commit some act condemned by law either as a separate federal
offense or for purposes of the conspiracy statute.” United States
v. Jimenez Recio, 537 U.S.270, 274 (2003), citing Iannelli v.
United States, 420 U.S. 770, 777 (1975). “Unlawful agreement”
is “[t]he fundamental element of a conspiracy.” United States v.
Rubin, 844 F.2d 979, 983 (2d Cir. 1988). It “determines both
the duration of the conspiracy, and whether the act relied on as
an overt act may properly be regarded as in furtherance of the
49

16

Second, the proffered Rule of Evidence, Rule
404(b), does not apply to evidence which is intrinsic to
charged offenses. “[E]vidence of uncharged criminal
activity is not considered other crimes evidence under
Fed. R. Evid. 404(b) if it arose out of the same
transaction or series of transactions as the charged
offense, if it is inextricably intertwined with the
evidence regarding the charged offense, or if it is
necessary to complete the story of the crime on trial.”52
“Because Rule 404(b) only limits evidence of ‘other’
crimes—those extrinsic to the charged crime—
evidence of acts or events that are part of the crime
itself, or evidence essential to the context of the crime,
does not fall under the other crimes limitations of Rule
404(b).”53
As further illustration, the 404(b)
instruction provided to the members at the retrial
permitted them to use the precluded evidence to
determine “plan or design,” a determination which

conspiracy.” United States v. Grimm, 738 F.3d 498, 502 (2d Cir.
2013) (quoting United States v. Salmonese, 352 F.3d 608, 614
(2d Cir. 2003) (internal quotation marks omitted)). In order to
prove an agreement to break the law, the government may not
rely upon evidence of “a vague agreement to do something
wrong.’” United States v. Salameh, 152 F.3d 88, 151 (2d Cir.
1998) (quoting United States v. Provenzano, 615 F.2d 37, 44 (2d
Cir. 1980)). The law, instead, requires not just “a general
agreement to engage in unspecified criminal conduct,” but an
agreement “as to the ‘object’ of the conspiracy.” United States v.
Rosenblatt, 554 F.2d 36, 38-39 (2d Cir. 1977).
52 United States v. Carboni, 204 F.3d 39, 44 (2d Cir. 2000)(citing
United States v. Gonzalez, 110 F.3d 936, 942 (2d Cir. 1997);
53 United States v. Parker, 553 F.3d 1309, 1314-1315 (10th Cir.
2009).

17
was functionally indistinguishable from
agreement element of the charged conspiracy.54

the

As the traditional prohibitions to issue preclusion
were not present in this case, they were not invoked
by the lower court.
Instead, the lower court
extrapolated from language in Currier and Yeager to
promulgate a new analytical framework for issue
preclusion.55
Under the framework, even if a
precluded issue forms an essential element of a charge
at a second trial, issue preclusion will not apply if
additional un-precluded evidence is available as an
alternate basis for the same element.56
Issue
preclusion will only apply where a charge must
“hinge” on the precluded evidence.57 Thus, under the
lower court’s new framework, the protections of issue
preclusion would be short-circuited if alternative
evidence was available to serve as a fig leaf.
The portions of Currier and Yeager relied upon by
the lower court, while open to interpretation, do not
provide strong support for the promulgated
framework. Yeager clarifies that issue preclusion
applies “for any charge for which [the precluded issue]
is an essential element.”58 Currier similarly defines
the threshold both as “a fact essential to a conviction
in the second [trial],” and also as an issue for which
the prosecution “must prevail” to secure a
conviction.59

R. at 1662, 2285-86
Hutchins, 78 M.J. at 446-447.
56 Id.
57 Id. at 446 (citing Currier, 138 S. Ct. at 2150).
58 Yeager, 557 U.S. at 123.
59 Currier, 138 S. Ct. at 2150
54
55

18
A plain reading of the language in Yeager and
Currier indicates that the standard is whether the
precluded evidence is an element of a charged offense,
not whether it is the sole basis for an element. This
plain reading is consistent with the protections of the
Double Jeopardy Clause. Otherwise, a jury could in
fact find a defendant guilty by relying on precluded
facts for an essential element, but as long as the
prosecution presented additional facts, however weak,
there would be no double jeopardy protection.
The lower court’s approach is in contrast to
analysis of other Fifth Amendment violations, such as
involuntary confessions, where the error is perfected
once the confession is admitted into evidence.60 The
impact of the confession on the outcome of the trial is
a separate question of harmless error pursuant to
Chapman v. California.61
Further, in circumstances where a defendant faces
a charge barred by double jeopardy, but is acquitted
of the charge, or the charge is reduced on appeal to a
lesser included unbarred offense, there is still error.62
The error was perfected once the defendant was
required to defend himself against charges for which
he was previously acquitted.63 “The Double Jeopardy
Clause, as we have noted, is cast in terms of the risk
or hazard of trial and conviction, not of the ultimate
legal consequences of the verdict.”64 The harmless
error analysis only requires a defendant to
See, e.g., Miranda v. Arizona, 384 U.S. 436 (1966).
See Chapman v. California, 386 U.S. 18 (1967)
62 See Price v. Georgia, 398 U.S. 323 (1970)
63 Id.
64 Id at 331.
60
61

19
demonstrate a reasonable probability that the
jeopardy-barred charge may have caused the
convictions for the nonjeopardy-barred charges.65
Hence, the lower court’s analytical framework is
unsupported by this Court’s precedent, and stands in
stark contrast to the review of other Fifth Amendment
violations.
II. The question presented is important.
Whether the Double Jeopardy Clause’s issue
preclusion component applies in the circumstances
presented here is a frequently recurring issue that has
significant implications for the criminal justice
system.
Specifically, the lower court’s opinion
effectively eliminates issue preclusion protection for
defendants facing conspiracy charges.
It has long been settled law that alleging
conspiracy to commit several crimes in a single
conspiracy count is not duplicitous.66 As this Court
explained, “[t]he single agreement is the prohibited
conspiracy, and however diverse its objects it violates
but a single statute.”67 Taking this guidance one step
further, federal courts have routinely observed
charging a single conspiracy, based on a single
agreement, must be charged in a single count and that
charging a conspiracy in separate counts results in
“multiplicitous” counts that violate the Double

See Morris v. Matthews, 475 U.S. 237, 246-47 (1986).
See Braverman v. United States, 317 U.S. 49, 54 (1942).
67 Id.
65
66

20
Jeopardy Clause.68 Similarly, this Court has observed
that if an indictment had alleged “each ‘theory of
liability’ in a separate count, the indictment would
have been subject to objection on grounds of
multiplicity, the charging of a single offense in
separate counts.”69
Because conspiracy must be placed within one
charge, if a jury elects to acquit on certain aspects of
a multi-object conspiracy agreement, the jury would
be unable to provide a single acquittal to an individual
charge. Instead, at best the jury could strike through
language which it rejected.
However, under the lower court’s framework, the
Government would not be restricted from recycling
any previously rejected conspiracy agreements, object
offenses and overt acts, as long as there was at least
one aspect of its charge which had not been previously
rejected. Hence, when a jury makes clear findings of
fact and refutes an object or agreement that would
have amounted to an acquittal had it been a
substantive or stand-alone count, in order to
effectuate the jury’s findings and to prevent against a
double jeopardy violation, issue preclusion is
necessary.

See United States v. Tocco, 306 F.3d 279, 289 n.12 (6th Cir.
2002); Ward v. United States, 694 F.2d 654, 660-61 (11th Cir.
1983); United States v. Tanner, 629 F.2d 456, 461 (7th Cir.
1980).
69 Sanabria v. United States, 437 U.S. 54, 65 n.19 (1977).
68

21
III. This case presents an ideal vehicle to
address the question presented.
This case comes to the Court in the best posture for
resolving the question presented. Petitioner raised
his double jeopardy argument at every stage of the
proceedings, and each court squarely addressed it.
First, NMCCA conducted an Ashe analysis, and
determined that the members panel at the original
trial acted rationally, and found that the conspiracy
agreement was only a Plan A agreement. NMCCA’s
Ashe findings were not appealed by the Government
to the lower court, thereby rendering those findings
the binding law of the case.70 Second, the lower court
limited its opinion to the applicability of issue
preclusion where barred and unbarred evidence are
alternative bases for essential elements of a criminal
charge. Accordingly, the question presented in this
petition is preserved and starkly defined for this
Court’s review.
Finally, the answer to the question presented
determines the outcome of petitioner’s case. If issue
preclusion applies, petitioner’s convictions must be
reversed.
CONCLUSION
For these reasons, Sergeant Hutchins respectfully
requests that this Court grant certiorari, reverse the
decision of the lower court, and hold that the Double
Jeopardy protections of issue preclusion apply where
See Arizona v. California, 460 U.S. 605, 618 (1983);
Christianson v. Colt Industries Operating Corp., 486 U.S. 800,
817 (1998)
70

22
the Government uses barred and unbarred evidence
for essential elements of criminal charges.
Respectfully submitted,

S. BABU KAZA
LtCol, USMCR
THOMAS R. FRICTON
Captain, USMC
Counsel of Record
U.S. Navy-Marine Corps
Appellate Defense Division
1254 Charles Morris St, SE
Washington Navy Yard,
D.C. 20374
202-685-7291
Thomas.Fricton@navy.mil

CHRIS G. OPRISON
DLA Piper LLP (US)
500 8th St, NW
Washington DC
Civilian Counsel for
Petitioner
202-664-6543

1a
Relevant Punitive Articles of the Uniform Code
of Military Justice
10 U.S.C.§ 881
Art. 81. Conspiracy
(a) Any person subject to this chapter who
conspires with any other person to commit an offense
under this chapter shall, if one or more of the
conspirators does an act to effect the object of the
conspiracy, be punished as a court-martial may direct.
(b) Any person subject to this chapter who
conspires with any other person to commit an offense
under the law of war, and who knowingly performs an
overt act to effect the object of the conspiracy, shall be
punished, if death results to one or more of the
victims, by death or such other punishment as a
court– martial or military commission may direct ,
and, if death does not result to any of the victims, by
such punishment, other than death, as a court-martial
or military commission may direct.
10 U.S.C.§ 928
Art. 128. Assault
(a) Any person subject to this chapter who
attempts or offers with unlawful force or violence to
do bodily harm to another person, whether or not the
attempt or offer is consummated, is guilty of assault
and shall be punished as a court-martial may direct.
(b) Any person subject to this chapter who—

2a
(1) commits an assault with a dangerous
weapon or other means or force likely to produce death
or grievous bodily harm; or
(2) commits an assault and intentionally
inflicts grievous bodily harm with or without a
weapon;
is guilty of aggravated assault and shall be punished
as a court-martial may direct.
10 U.S.C.§ 930
Art. 130. Housebreaking
Any person subject to this chapter who unlawfully
enters the building or structure of another with intent
to commit a criminal offense therein is guilty of
housebreaking and shall be punished as a courtmartial may direct.
10 U.S.C.§ 934
Art. 134. General Article: Kidnapping
a. Text of statute
Though not specifically mentioned in this chapter,
all disorders and neglects to the prejudice of good
order and discipline in the armed forces, all conduct of
a nature to bring discredit upon the armed forces, and
crimes and offenses not capital, of which persons
subject to this chapter may be guilty, shall be taken
cognizance of by a general, special, or summary courtmartial, according to the nature and degree of the

3a
offense, and shall be punished at the discretion of that
court.
b. Elements
(1) That the accused seized, confined, inveigled,
decoyed, or carried away a certain person;
(2) That the accused then held such person against
that person’s will;
(3) That the accused did so willfully and
wrongfully; and
(4) That, under the circumstances, the conduct of
the accused was to the prejudice of good order and
discipline in the armed forces or was of a nature to
bring discredit upon the armed forces.

4a
UNITED STATES,
Appellee
v.
Lawrence G. HUTCHINS III, Sergeant
United States Marine Corps,
Appellant
United States Court of Appeals for the Armed Forces
January 23, 2019, Argued;
May 29, 2019, Decided
No. 18-0234
Prior History: Crim. App. No. 200800393. Military
Judges: Michael B. Richardson (arraignment at
rehearing) and A. H. Henderson (rehearing).
United States v. Hutchins, 2018 CCA LEXIS 31 (NM.C.C.A., Jan. 29, 2018.
For Appellant: Lieutenant Colonel S. Babu Kaza,
USMCR (argued); Captain Thomas R. Fricton,
USMC, and Christopher Oprison, Esq. (on brief);
Lieutenant Doug Ottenwess, JAGC, USN.
For Appellee: Lieutenant Kimberly Rios, JAGC,
USN (argued); Colonel Mark K. Jamison, USMC,
Major Kelli A. O'Neil, USMC, and Brian K. Keller,
Esq. (on brief)
.Judges: Judge OHLSON delivered the opinion of
the Court, in which Chief Judge STUCKY, and
Judges RYAN, SPARKS, and MAGGS, joined
Opinion by: Judge OHLSON

5a
Court.

Judge OHLSON delivered the opinion of the

At a 2007 general court-martial, a panel
convicted Appellant of a number of offenses related to
the 2006 unlawful killing of an unknown Iraqi man in
the Hamdaniyah area of Iraq. However, the panel also
acquitted Appellant of a number of other offenses
related to this same incident. Upon appellate review
in 2013, this Court set aside the findings and sentence
and authorized a rehearing. United States v.
Hutchins, 72 M.J. 294, 300 (C.A.A.F. 2013). At the
2015 rehearing, Appellant was charged only with
those offenses of which he was convicted at the first
trial, and he was convicted of most of these charged
offenses. The issue now before us is whether at the
rehearing the military judge erred when he denied a
defense motion to suppress evidence related to
offenses of which Appellant had been acquitted at his
first trial. We hold that the military judge did not err
because the doctrine of issue preclusion does not apply
in this case, and therefore the military judge was
permitted to examine whether the evidence was
admissible under the Military Rules of Evidence
(M.R.E.).
I. Factual and Procedural Overview
A. The First Trial
The following evidence was introduced at the
2007 court-martial:
The appellant was assigned as squad
leader for 1st Squad, 2nd Platoon, Kilo
Company, 3rd Battalion, 5th Marines,
assigned to Task Force Chromite,

6a
conducting
counter-insurgency
operations in the Hamdaniyah area of
Iraq in April 2006. In the evening hours
of 25 April 2006, the appellant led a
combat patrol to conduct a deliberate
ambush
aimed
at
interdicting
insurgent emplacement of improvised
explosive devices (IEDs). The courtmartial received testimony from
several members of the squad that
indicated the intended ambush mission
morphed into a conspiracy to
deliberately capture and kill [an Iraqi
insurgent who was] a high value
individual (HVI), believed to be a
leader of the insurgency. The witnesses
gave varying testimony as to the depth
of their understanding of alternative
targets, such as family members of the
HVI or another random military-aged
Iraqi male.
Considerable effort and preparation
went into the execution of this
conspiracy. Tasks were accomplished
by various Marines and their
corpsman, including the theft of a
shovel and AK-47 from an Iraqi
dwelling to be used as props to
manufacture a scene where it appeared
that an armed insurgent was digging to
emplace an IED. Some squad members
advanced to the ambush site while
others captured an unknown Iraqi
man, bound and gagged him, and

7a
brought him to the would-be IED
emplacement.
The stage set, the squad informed
higher headquarters by radio that they
had come upon an insurgent planting
an IED and received approval to
engage. The squad opened fire,
mortally wounding the man. The
appellant approached the victim and
fired multiple rifle rounds into the
man's face at point blank range.
The scene was then manipulated to
appear
consistent
with
the
insurgent/IED story. The squad
removed the bindings from the victim's
hands and feet and positioned the
victim's body with the shovel and AK47 rifle they had stolen from local
Iraqis. To simulate that the victim fired
on the squad, the Marines fired the AK47 rifle into the air and collected the
discharged casings. When questioned
about the action, the appellant, like
other members of the squad, made false
official statements, describing the
situation as a legitimate ambush and a
"good shoot." The death was brought to
the appellant's battalion commander's
attention by a local sheikh and the
ensuing investigation led to the case
before us.
Hutchins, 72 M.J. at 296 (citation omitted).

8a
At trial, the Government proceeded under the
theory that Appellant and his squad developed three
alternative plans to "murder[] [a] man in cold blood"
for the purpose of sending a message to the local Iraqi
population. Plan A involved forcing the HVI from his
house in the middle of the night, taking him to a
previously created IED hole, killing him, and staging
the scene to make it appear as if the HVI had been
planting an IED. Plan B involved taking and killing
one of the HVI's brothers if the HVI was not home.
Plan C involved murdering any adult Iraqi man if the
squad could not execute plan A or plan B. Trial
counsel explained that the squad ultimately executed
plan C. The defense, however, took the position that
the command directed Appellant and his squad to
"get" the HVI, that Appellant interpreted this
directive to mean that his mission was to capture or
kill the HVI, and that Appellant believed at the time
that his squad had lawfully killed the correct person.
The members' general verdict convicted
Appellant of four offenses: one specification of
conspiracy to commit offenses under the UCMJ
(larceny, false official statements, murder, and
obstruction of justice), one specification of making a
false official statement, one specification of
unpremeditated murder of an unknown Iraqi man,
and one specification of larceny, in violation of Articles
81, 107, 118, and 121, Uniform Code of Military
Justice (UCMJ), 10 U.S.C. §§ 881, 907, 918, 921
(2006). The members found a number of overt acts to
be part of the conspiracy, including: (1) four squad
members took an unknown Iraqi man to the IED hole;
(2) three of these squad members forced the unknown
Iraqi man to the ground and bound his hands and feet;
and (3) after the squad members left the IED hole, five

9a
squad members, including Appellant, fired their
weapons toward the unknown Iraqi man resulting in
his death.
The members acquitted Appellant of seven
other offenses: one specification of making false
official statements, the greater offense of
premeditated murder of an unknown Iraqi man, one
specification of assault on an unknown Iraqi man by
unlawfully forcing him to the ground and binding his
hands and feet, one specification of housebreaking
involving the dwelling of an unknown Iraqi man, one
specification of kidnapping an unknown Iraqi man,
and two specifications of obstruction of justice,1 in
violation of Articles 107, 118, 128, 130, and 134,
UCMJ, 10 U.S.C. §§ 907, 918, 928, 930, 934 (2006).
Additionally, for the conspiracy specification the
members excepted "housebreaking" and "kidnapping"
from the list of UCMJ offenses that were part of the
conspiracy agreement, and they also excepted four
charged overt acts including that: (1) four squad
members walked from the HVI's house and entered an
unknown Iraqi man's home; and (2) two squad
members took an unknown Iraqi man from his home
against his will.2
In accordance with the military judge’s instructions, (the
members acquitted Appellant of the obstruction of justice
specifications because they convicted him of the same conduct
as part of the conspiracy.
2 The other two overt acts excepted from the conspiracy
specification were that: (1) Appellant made a false statement to
a staff sergeant on April 26, 2006, relating to the circumstances
of the unknown Iraqi man’s death; and (2) Appellant made a
false statement to the Naval Criminal Investigative Service
(NCIS) about the unknown Iraqi man’s death on May 8, 2006.
These two overt acts do not play a direct role in this appeal.
1

10a
Based on the convictions, the members
sentenced Appellant to a dishonorable discharge,
confinement for fifteen years, a reprimand, and a
reduction to E-1. The convening authority approved
only so much of the sentence as provided for a
dishonorable discharge, confinement for eleven years,
and a reduction to E-1. In 2013 after extended
appellate proceedings,3 we set aside the findings of
guilty due to a violation of Appellant's Fifth
Amendment right against self-incrimination and we
authorized a rehearing. Hutchins, 72 M.J. at 299-300.
B. The Rehearing
Upon receipt of the record, the convening
authority referred to a general court-martial for
rehearing only those charges of which Appellant was
convicted at the 2007 trial. None of the acquitted
charges and none of the language excepted from the
conspiracy specification at the first trial was referred
to the rehearing.
The defense filed a motion to suppress "all
evidence, allegations and inferences of conduct subject
to 'not guilty' findings" at the first trial, arguing that
the admission of this evidence violated the issue
preclusion component of the Fifth Amendment's
Double Jeopardy Clause. The military judge denied
Following the convening authority’s action, Appellant’s case
proceeded as follows: (1) the United States Navy-Marine Corps
Court of Criminal Appeals (CCA) ordered a fact-finding hearing
in 2009; (2) the CCA set aside the findings and sentence in 2010
be-cause of an improper severance of the attorney-client
relationship; (3) this Court reversed the CCA’s decision and
remanded for fur-ther review in 2011; and (4) the CCA affirmed
the findings and sentence in 2012.
3

11a
this motion at an Article 39(a), UCMJ, 10 U.S.C. §
839(a) (2012), session by concluding:
There is no requirement to speculate on the
rationale [of] the last panel of members. In fact, it's
folly to try to do that. The real risk of confusing [the
current panel members will arise] if we try to parse
the facts as proposed by the defense counsel.
Misconduct can violate more than one article of the
UCMJ and the conduct [that the defense has sought
to have suppressed is] not mutually exclusive to the
charges of which the accused was acquitted.
Following this ruling, the Government relied on
the same theory at the rehearing that it had used at
the first trial, and it also relied on similar evidence.
Specifically, trial counsel asserted that Appellant was
the "mastermind" of "a perfect plan to commit a
murder and send a message," which "his squad
executed." Trial counsel went on to describe the
"three-tiered plan": (1) plan A—capture and kill the
Iraqi HVI; (2) plan B—capture and kill the HVI's
brother; or (3) plan C—kill any Iraqi male they could
find. Trial counsel explained that the squad
abandoned plans A and B and instead executed plan
C by grabbing an unknown Iraqi man who was
sleeping in his house, dragging him to a nearby IED
crater, and murdering him.
At the conclusion of the parties' presentation of
evidence, the military judge instructed the members
that:
The burden is on the prosecution to
prove each and every element of each
offense beyond a reasonable doubt.

12a
Proof of one offense carries with it no
inference that the accused is guilty of
any other offense. I remind you again
that the accused was acquitted at a prior
proceeding of the offenses of kidnapping,
housebreaking, assault, obstruction of
justice, premeditated murder, and false
official statement on or about 8 May, as
well
as
conspiracy
to
commit
kidnapping and housebreaking. You
may therefore consider evidence that the
accused may have been involved in
plans or acts involving entering the
alleged victim's home, moving him to
another location, involvement in a
shooting, and providing a statement to
NCIS on or about 8 May for the limited
purpose of its tendency, if any, to prove a
plan or design of the accused to commit
the charged acts .... [Y]ou may not
conclude from this evidence that the
accused is a bad person or has general
criminal tendencies, and that he
therefore committed the offenses
charged.
(Emphases added.) The members returned a
mixed verdict by acquitting Appellant of the sole
specification of making a false official statement,
excepting two overt acts from the conspiracy
specification,4 and convicting Appellant of the
conspiracy, unpremeditated murder, and larceny
The two excepted overt acts alleged that Appellant submitted
a false written report about the unknown Iraqi man’s death on
April 28, 2006, and that a squad member made a false
statement to NCIS about the unknown Iraqi man’s death.
4

13a
specifications. The members sentenced Appellant to a
bad-conduct discharge and 2,627 days of confinement,
and the convening authority approved the adjudged
sentence.
C. CCA Opinion
Appellant presented thirteen assignments of
error to the CCA, including whether the military
judge erred in denying the motion to suppress
evidence relating to conduct of which he was
acquitted. United States v. Hutchins, No. NMCCA
200800393, 2018 CCA LEXIS 31, at *2-3, 2018 WL
580178, at *1 (N-M. Ct. Crim. App. Jan. 29, 2018)
(unpublished). The CCA concluded that the issue
preclusion component of the Double Jeopardy Clause
did not apply in this case because the evidence
Appellant wanted excluded—i.e., evidence regarding
the conspiracy to murder the HVI's brother or a
random Iraqi male—did not constitute an issue of
ultimate fact. Id. 2018 CCA LEXIS 31, at *19-20, 2018
WL 580178 at *7. The CCA further concluded that the
military judge did not abuse his discretion in
admitting evidence involving "issue[s] of less than
ultimate fact" of which Appellant had been acquitted
at the first trial because this evidence was probative
under M.R.E. 401 and M.R.E. 404(b) and was not
unfairly prejudicial under M.R.E. 403. Hutchins, 2018
CCA LEXIS 31, at *20, *35-43, 2018 WL 580178, at
*7, *12-14. Following a thorough review of the
remaining issues, the CCA affirmed the findings and
sentence. Id. 2018 CCA LEXIS 31, at *202, 2018 WL
580178, at *68.
D. Order Granting Review

14a
issue:

We granted review to resolve the following
Whether the military judge erred when
he denied the defense motion to
suppress evidence of conduct for which
Appellant had been acquitted at his first
trial.

United States v. Hutchins, 78 M.J. 111 (C.A.A.F. 2018)
(order granting review).
II. Standard of Review
We review a military judge's ruling to admit or
suppress evidence for an abuse of discretion. United
States v. Jerkins, 77 M.J. 225, 228 (C.A.A.F. 2018)
(admission of evidence); United States v. Eppes, 77
M.J. 339, 344 (C.A.A.F. 2018) (suppression of
evidence). An abuse of discretion occurs when the
military judge's factual findings are clearly erroneous,
view of the law is erroneous, or decision is outside of
the range of reasonable choices. United States v. Bess,
75 M.J. 70, 73 (C.A.A.F. 2016). The questions of
"[w]hether a prosecution violates the Double Jeopardy
Clause or [the doctrine of issue preclusion] are issues
of law." United States v. Brown, 571 F.3d 492, 497 (5th
Cir. 2009); see also Schiro v. Farley, 510 U.S. 222, 232,
114 S. Ct. 783, 127 L. Ed. 2d 47 (1994) (stating that
"[t]he preclusive effect of the jury's verdict ... is a
question of law"). We review these issues of law de
novo. See United States v. Paul, 73 M.J. 274, 277
(C.A.A.F. 2014); United States v. Cessa, 861 F.3d 121,
140 (5th Cir. 2017).
III. Legal Principles

15a
The Double Jeopardy Clause of the Fifth
Amendment states that no person shall "be subject for
the same offence to be twice put in jeopardy of life or
limb." U.S. Const. amend. V. In Ashe v. Swenson, the
Supreme Court held that this clause "embodie[s]" the
"extremely important principle" of issue preclusion.5
397 U.S. 436, 442-43, 90 S. Ct. 1189, 25 L. Ed. 2d 469
(1970).
Issue preclusion "means simply that when an
issue of ultimate fact has once been determined by a
valid and final judgment, that issue cannot again be
litigated between the same parties in any future
lawsuit."6 Id. at 443. An issue of ultimate fact is an
issue that was "necessary to the [initial] judgment."
Bobby v. Bies, 556 U.S. 825, 835, 129 S. Ct. 2145, 173
L. Ed. 2d 1173 (2009) (internal quotation marks
omitted) (citation omitted). A "determination ranks as
necessary ... only when the final outcome hinge[d] on
it." Id.

The Ashe opinion uses the term “collateral estoppel,” but in
“modern usage” this term is now referred to as “issue
preclusion.” Schiro, 510 U.S. at 232; see also Bravo-Fernandez
v. United States, 137 S. Ct. 352, 356 n.1 (2016) (describing issue
preclusion as “the more descriptive term”). This opinion follows
the modern usage.
6 Issue preclusion is recognized under Rule for Courts-Martial
(R.C.M.) 905(g). See United States v. Harris, 67 M.J. 611, 614
(A.F. Ct. Crim. App. 2009); Manual for Courts-Martial, United
States, Analysis of Rules for Courts-Martial app. 21 at A21-53
(2016 ed.). Appellant appears to take the position that the right
in R.C.M. 905(g) is no different than the issue preclusion
component of the Double Jeopardy Clause. This opinion
similarly treats the issue preclusion rule in R.C.M. 905(g) the
same as the issue preclusion rule of the Fifth Amendment.
5

16a
An appellant bears the burden "to demonstrate
that the issue whose relitigation he seeks to foreclose
was actually decided in the first proceeding." Dowling
v. United States, 493 U.S. 342, 350-51, 110 S. Ct. 668,
107 L. Ed. 2d 708 (1990) (citations omitted). Courts
examine "all the circumstances of" the first trial,
including "the pleadings, evidence, charge, and other
relevant matter," to determine "whether a rational
[fact-finder] could have grounded its verdict upon an
issue other than that which the [accused] seeks to
foreclose from consideration." Ashe, 397 U.S. at 444
(internal quotation marks omitted) (citation omitted).
In Currier v. Virginia, the Supreme Court
stated: "Ashe forbids a second trial only if to secure a
conviction the prosecution must prevail on an issue
the jury necessarily resolved in the defendant's favor
in the first trial." 138 S. Ct. 2144, 2150, 201 L. Ed. 2d
650 (2018). Thus, an appellant can prevail under the
doctrine of issue preclusion only if he can satisfy both
prongs of the following test: (1) the appellant first
must demonstrate from evidence in the record that
the panel's acquittal at the first court-martial
necessarily determined an issue of ultimate [*445]
fact in his favor; and (2) the appellant then must
demonstrate that in order to obtain a conviction at the
second court-martial, the government was required to
prove beyond a reasonable doubt the existence of that
same issue of ultimate fact. See id.; Yeager v. United
States, 557 U.S. 110, 123, 129 S. Ct. 2360, 174 L. Ed.
2d 78 (2009).
The Ashe test "is a demanding one." Currier,
138 S. Ct. at 2150. The Supreme Court therefore has
limited its application by, for instance, declining to
extend "the [issue preclusion] component of the

17a
Double Jeopardy Clause to exclude in all
circumstances ... relevant and probative evidence that
is otherwise admissible under the Rules of Evidence
simply because it relates to alleged criminal conduct
for which a defendant has been acquitted." Dowling,
493 U.S. at 348.
Consistent with Supreme Court precedent, we
have held that a military judge may admit "otherwise
admissible evidence even though it was previously
introduced on charges of which an accused has been
acquitted" as long as "the evidence is relevant" and
"the probative value of the proffered evidence is [not]
outweighed by its prejudicial effect." United States v.
Cuellar, 27 M.J. 50, 54 (C.M.A. 1988) (internal
quotation marks omitted) (quoting United States v.
Hicks, 24 M.J. 3, 8 (C.M.A. 1987)). As the Supreme
Court held in Dowling, "[A]n acquittal in a criminal
case does not preclude the Government from
relitigating an issue when it is presented in a
subsequent action governed by a lower standard of
proof" such as in an M.R.E. 404(b) context. 493 U.S. at
349; see also Hicks, 24 M.J. at 9. "The fact of the prior
acquittal may diminish the probative value of the
evidence, however, and should be considered by the
military judge when" conducting the M.R.E. 403
analysis. Hicks, 24 M.J. at 9.
IV. Analysis
A. Issue Preclusion
Appellant argues that issue preclusion barred
the Government at the rehearing from presenting the

18a
"narrative"7 that he conspired to murder a random
Iraqi male at the rehearing. As noted above, in order
to prevail Appellant must meet both prongs of the
issue preclusion test. Specifically, Appellant first
must demonstrate from evidence in the record that
the panel's acquittals at the first court-martial
necessarily determined a specific issue of ultimate fact
in his favor, and then he must demonstrate that in
order to obtain a conviction at the rehearing the
Government was required to prove beyond a
reasonable doubt the existence of that same issue of
ultimate fact.
There are two instances where Appellant has
failed to meet his burden under the first prong of the
issue preclusion test. First, Appellant's acquittals
regarding the obstruction of justice specifications did
not determine any issue of ultimate fact. The military
judge instructed the members that they were required
to acquit Appellant of these offenses if they convicted
him of the conspiracy involving obstruction of justice.
Thus, no issue of ultimate fact can be deduced from
these acquittals because the panel members were
compelled to comply with the military judge's legal
instructions.

We note that issue preclusion is concerned with issues of
ultimate fact, not impressions, generalizations or, as Appellant
characterizes it in his brief, a “narrative” of the underlying
crime which is drawn from those facts. Brief for Appellant at
25, United States v. Hutchins, No. 18-0234 (C.A.A.F. Oct. 10,
2018); see Cessa, 861 F.3d at 140 (“The doctrine of [issue
preclusion] as delineated in Ashe … deals with facts not
theories.” (alteration in original) (internal quotation marks
omitted) (citation omitted)).
7

19a
Second, in regard to Appellant's acquittal for
assault, there is an inconsistency between the
members' not guilty finding for this substantive
offense and the members' guilty finding for the
conspiracy offense that involved overt acts that
formed the basis for this same substantive offense.
Given this inconsistency, no issue of ultimate fact can
be identified. Bravo-Fernandez, 137 S. Ct. at 356-57
(explaining that where "verdicts are rationally
irreconcilable, the acquittal gains no preclusive effect"
(citing United States v. Powell, 469 U.S. 57, 68, 105 S.
Ct. 471, 83 L. Ed. 2d 461 (1984))).
Even if we were to assume arguendo that in
certain instances Appellant has met the first prong of
the issue preclusion test because he can identify
issues of ultimate fact resolved in his favor arising
from other acquittals at his first trial, he still cannot
meet his burden under the second prong of the test.
To begin with, Appellant has not cited, and we
cannot discern, any nexus between an issue of
ultimate fact resulting from Appellant's acquittal on
the false official statement specification at the first
trial and any charges at the rehearing.
Next, the issue of ultimate fact that Appellant
asserts was resolved in his favor at the first trial—
that he was not involved in a conspiracy to murder a
random Iraqi man—did not preclude the Government
from proving at the rehearing the conspiracy,
unpremeditated murder, and larceny offenses. It is
important to note that Appellant was convicted of
these three offenses at the first trial, thereby
demonstrating that the Government's success at the
rehearing did not hinge on the purported ultimate fact

20a
now cited by Appellant. See United States v. Citron,
853 F.2d 1055, 1059 (2d Cir. 1988) ("[A]n acquittal
accompanied by a conviction on the count sought to be
retried does not have a similar preclusive effect; the
conviction casts doubt on whatever factual findings
might otherwise be inferred from the related
acquittal." (citations omitted)); see also BravoFernandez, 137 S. Ct. at 366 & n.8 ("The split verdict
does not impede the Government from renewing the
prosecution."). Moreover, this purported ultimate fact
did not prevent the Government from obtaining
convictions on the conspiracy, unpremeditated
murder, and larceny offenses at the rehearing because
no element of the offenses of conviction at the
rehearing hinged on Appellant's involvement in a
conspiracy to kill a random Iraqi male.8 See Currier,
138 S. Ct. at 2150.
In regard to the 2007 acquittals for
housebreaking, kidnapping, and conspiracy to commit
housebreaking and kidnapping, Appellant appears to
argue broadly that the issue of ultimate fact from
these acquittals is that he had nothing to do
whatsoever with any conduct related to these offenses,
and therefore no evidence related to this conduct was
admissible at the rehearing. However, we first note
that these particular offenses were not charged at the
rehearing. Moreover, we further note that Appellant
has failed to meet his burden of demonstrating how
any of the charges of which he was convicted at the
rehearing required the Government to prove this
The conspiracy to commit murder charge did not specify the
identity of the victim. Therefore, Appellant was not necessarily
charged with a conspiracy to murder any random Iraqi male at
the first trial. No issue of ultimate fact can be discerned under
these circumstances.
8

21a
purported issue of ultimate fact beyond a reasonable
doubt. Stated differently, at the rehearing the
Government could prove all of the elements of the
offenses of [**18] which Appellant was convicted
without having to prove beyond a reasonable doubt
that Appellant committed any of the conduct related
to these offenses of which Appellant was acquitted at
the first trial. Currier, 138 S. Ct. at 2150; Yeager, 557
U.S. at 123.
And finally, Appellant's acquittal for
premeditated murder of an unknown Iraqi man at the
first trial did not preclude the Government from
proving unpremeditated murder of an unknown Iraqi
man at the rehearing. To begin with, we underscore
the point that Appellant was actually convicted of
unpremeditated murder of an unknown Iraqi man at
the first trial. See Citron, 853 F.2d at 1059; see also
Bravo-Fernandez, 137 S. Ct. at 366. Further, the
acquittal for premeditated murder of an unknown
Iraqi man at the first trial at most established that
Appellant did not act with premeditation in killing the
unknown Iraqi man.9 This fact was not necessary for
proving the charged conspiracy to murder at the
rehearing because Appellant's agreement to murder
the HVI, and overt acts in furtherance of this
agreement, would suffice to establish the conspiracy.
See United States v. Simpson, 77 M.J. 279, 284
(C.A.A.F. 2018) (noting that a conspiracy only
requires an agreement to commit an offense and an
overt act).
Based on the foregoing analysis, we conclude
that the issue preclusion component of the Fifth
Amendment's Double Jeopardy Clause does not apply
in this case.

22a
B. Admissibility of Evidence
Because issue preclusion is inapplicable in this
case, the military judge properly examined whether
the evidence related to the acquitted offenses was
admissible at trial under M.R.E. 403 and M.R.E.
404(b). As noted above, the Supreme Court stated in
Dowling that the holding in Ashe is not intended "to
exclude in all circumstances ... relevant and probative
evidence that is otherwise admissible under the Rules
of Evidence simply because it relates to alleged
criminal conduct for which a defendant has been
acquitted." 493 U.S. at 348. Rather, the proper way to
decide this issue is to factor in the prior acquittal as
part of the balancing test under M.R.E. 403. See
Hicks, 24 M.J. at 9. Therefore, the evidence offered by
the Government at the rehearing in the instant case
was not barred as a matter of issue preclusion under
Ashe. Accordingly, the military judge was correct
when he determined that the admissibility of the
Government's evidence should be decided using the
framework of M.R.E. 404(b) and M.R.E. 403. Because
Appellant does not meaningfully contest the military
judge's application of those rules on their own terms,
we need not address the military judge's specific
analysis of those rules.
V. Conclusion
We affirm the judgment of the United States
Navy-Marine Corps Court of Criminal Appeals.

23a
U NITED S TATES N AVY –M ARINE C ORPS
C OURT OF C RIMINAL A PPEALS
_________________________
No. 200800393
_________________________
UNITED STATES OF AMERICA
Appellee
v.
LAWRENCE G. HUTCHINS III
Sergeant (E-5), U.S. Marine Corps
Appellant
_________________________
Appeal from the United States Navy -Marine Corps
Trial Judiciary
Military Judge: Captain A.H. Henderson, JAGC, USN.
Convening Authority: Commander, U.S. Marine Corps
Forces Central Command, MacDill Air Force Base, FL.
Staff Judge Advocate’s Recommenda tion: Colonel John
R. Woodworth, USMC.
For Appellant: Christopher Oprison, Esq.; Lieutenant
Colonel S. Babu Kaza, USMCR; Lieutenant Doug
Ottenwess, JAGC, USN.
For Appellee: Major Cory A. Carver, USMC; Lieutenant
James M. Belforti, JAGC, USN.
_________________________
Decided 29 January 2018
_________________________
Before G LASER -A LLEN , M ARKS , and H UTCHISON ,
Appellate Military Judges
_________________________

24a
This opinion does not serve as binding precedent but may
be cited as persuasive authority under NMCCA Rule of
Practice and Procedure 18.2.
_________________________

MARKS, Senior Judge:
A general court-martial comprised of members
with enlisted representation convicted the appellant,
contrary to his pleas, of one specification each of
conspiracy,1 unpremeditated murder, and larceny in
violation of Articles 81, 118, and 121, Uniform Code of
Military Justice (UCMJ), 10 U.S.C. §§ 881, 918, and
921 (2005).2 The members sentenced the appellant to
2,627 days’ confinement3 and a bad-conduct
The sole specification of conspiracy alleged that the appellant
conspired with the seven junior members of his squad to commit
larceny, false official statements, murder, and obstruction of
justice and enumerated 17 overt acts in support of the
conspiracy. The members excepted two of the 17 overt acts:
m. The said Sergeant Hutchins did, on or about
28 April 2006, at or near Patrol Base Bushido,
Iraq, submit a false written report regarding the
facts and circumstances related to the unknown
Iraqi man’s death;
....
o. The said Private First Class Jodka did, on or
about 9 May 2006, at or near Hamdaniyah, Iraq,
make a false statement to Special Agents [J.C.]
and [S.L.], Naval Criminal Investigative Service,
regarding the facts and circumstances related to
the unknown Iraqi man’s death;
Charge Sheet; Appellate Exhibit (AE) CXCIII at 3;
Record at 2358.
2 The members also acquitted the appellant of a single
specification of making a false official statement.
3 The adjudged confinement amounted to time the appellant had
served pursuant to a sentence awarded at a prior court-martial
for the same allegations.
1

25a
discharge. The convening authority (CA) approved the
sentence as adjudged and, except for the punitive
discharge, ordered the sentence executed.
The appellant raises 13 assignments of error
(AOE): (1) the military judge’s denial of the defense
motion to suppress evidence of conduct for which the
appellant was acquitted at his first trial; (2) admission
of former testimony where the declarants were not
unavailable and there was no similar motive for crossexamination; (3) unlawful command influence (UCI)
from the Secretary of the Navy; (4) the military judge’s
finding that apparent UCI stemming from the
prosecution’s search of defense counsel’s office in
another case was harmless beyond a reasonable
doubt; (5) denial of the defense motion for recusal; (6)
denial of the defense request to abate proceedings
until the appellant’s attorney-client relationship was
restored; (7) denial of the defense motion to dismiss
based on the government’s violation of the appellant’s
Article 13, UCMJ, rights; (8) denial of the defense
request for a site visit; (9) admission of an exhibit
founded on hearsay; (10) denial of the defense request
for a mistrial after the members heard a government
witness testify that the appellant asserted his right to
remain silent; (11) the impact of the significant
accumulation of errors on the outcome of the case; (12)
the appellant’s excessive and disproportionate
sentence to roughly six years’ confinement in light of
companion cases; and (13) the legal and factual
insufficiency of the findings.
After carefully considering the pleadings, oral
arguments, and the record of trial, we find no error
materially prejudicial to the substantial rights of the

26a
appellant and affirm the findings and sentence. Arts.
59(a) and 66(c), UCMJ.
I. BACKGROUND
First, a procedural orientation may be helpful.
The appellant was originally convicted in August 2007
for his role in the shooting death of an unknown Iraqi
man in Hamdaniyah, Iraq, the morning of 26 April
2006. This court set aside the findings and sentence
for an improper severance of attorney-client
relationship in April 2010. United States v. Hutchins,
68 M.J. 623, 631 (N-M. Ct. Crim. App. 2010) (Hutchins
I). The Court of Appeals for the Armed Forces (CAAF)
reversed that decision and remanded the case to this
court to complete its review under Article 66, UCMJ,
in January 2011. United States v. Hutchins, 69 M.J.
282, 293 (C.A.A.F. 2011) (Hutchins II). This court
completed that review and affirmed the findings and
sentence of the first court-martial in March 2012.
United States v. Hutchins, No. 200800393, 2012 CCA
LEXIS 93, *32, unpublished op. (N-M. Ct. Crim. App.
20 Mar 2012) (Hutchins III). Finding a violation of the
appellant’s Fifth Amendment rights against selfincrimination, the CAAF reversed our 2012 decision,
set aside the findings and sentence of the 2007 courtmartial, and remanded the case with authorization for
a rehearing. United States v. Hutchins, 72 M.J. 294,
301 (C.A.A.F. 2013) (Hutchins IV). The results of that
rehearing are before us here.
As for the events of the night and early morning
of 25-26 April 2006, we revisit our summary from

27a
Hutchins III, which the CAAF republished in
Hutchins IV:
The appellant was assigned as squad
leader for 1st Squad, 2nd Platoon, Kilo
Company, 3rd Battalion, 5th Marines,
assigned to Task Force Chromite,
conducting
counter-insurgency
operations in the Hamdaniyah area of
Iraq in April 2006. In the evening hours
of 25 April 2006, the appellant led a
combat patrol to conduct a deliberate
ambush aimed at interdicting insurgent
emplacement of improvised explosive
devices (IEDs). The court-martial
received
testimony
from
several
members of the squad that indicated the
intended ambush mission morphed into
a conspiracy to deliberately capture and
kill a high value individual (HVI),
believed to be a leader of the insurgency.
The witnesses gave varying testimony as
to the depth of their understanding of
alternative targets, such as family
members of the HVI or another random
military-aged Iraqi male.
Considerable effort and preparation
went into the execution of this
conspiracy. Tasks were accomplished by
various Marines and their corpsman,
including the theft of a shovel and AK-47
from an Iraqi dwelling to be used as
props to manufacture a scene where it
appeared that an armed insurgent was

28a
digging to emplace an IED. Some squad
members advanced to the ambush site
while others captured an unknown Iraqi
man, bound and gagged him, and
brought him to the would-be IED
emplacement.
The stage set, the squad informed higher
headquarters by radio that they had
come upon an insurgent planting an IED
and received approval to engage. The
squad opened fire, mortally wounding
the man. The appellant approached the
victim and fired multiple rifle rounds
into the man's face at point blank range.
The scene was then manipulated to
appear
consistent
with
the
insurgent/IED story. The squad removed
the bindings from the victim's hands and
feet and positioned the victim’s body
with the shovel and AK-47 rifle they had
stolen from local Iraqis. To simulate that
the victim fired on the squad, the
Marines fired the AK-47 rifle into the air
and collected the discharged casings.
When questioned about the action, the
appellant, like other members of the
squad, made false official statements,
describing the situation as a legitimate
ambush and a “good shoot.” The death
was brought to the appellant’s battalion
commander’s attention by a local sheikh
and the ensuing investigation led to the
case before us.

29a
Hutchins IV, 72 M.J. at 296 (quoting Hutchins III,
2012 CCA LEXIS 93 at *4-6).
For ease of understanding the hierarchy within
the appellant’s squad, his squad members and coconspirators will be identified by the ranks they held
on 26 April 2006. They were Corporal (Cpl)
Magincalda, Cpl Thomas, Lance Corporal (LCpl)
Jackson, LCpl Pennington, LCpl Shumate, Private
First Class (PFC) Jodka, and Navy corpsman,
Hospitalman Third Class (HM3) Bacos. Other
witnesses will also be identified by ranks they held in
2006.
We will incorporate additional facts as we
address the AOEs.
II. DISCUSSION
A. Admissibility
preclusion

of

evidence

and

issue

In his first AOE, the appellant avers that the
military judge erred in admitting evidence of conduct
of which the appellant had been acquitted at his first
trial. Specifically, the evidence of acquitted
misconduct included “evidence of ‘housebreaking,’
‘kidnapping,’ the alternate plan to seize a random
Iraqi, and the alleged seizure of a random Iraqi by the
snatch team.”4
We review a military judge’s ruling on a motion
to suppress evidence for an abuse of discretion. United
States v. Harrell, 75 M.J. 359, 362 (C.A.A.F. 2016).
The military judge’s findings of fact are reviewed for
4

Appellant’s Brief of 28 Jun 2016 at 30-31 (citation omitted).

30a
clear error; conclusions of law are reviewed de novo.
Id. “If the military judge fails to place his findings and
analysis on the record, less deference will be
accorded.” United States v. Flesher, 73 M.J. 303, 312
(C.A.A.F. 2014).
Intertwined with the appellant’s AOE
regarding the admission of evidence are two related
issues—collateral estoppel (also known as issue
preclusion) and the appellant’s purported acquittal of
conspiring to kill anyone other than high value
individual and suspected insurgency leader, S.G.5 We
must address these two issues and their relationships
to admissibility of evidence before reviewing the
military judge’s ruling. It is helpful to keep in mind
that the case before us is a rehearing.
1. Collateral estoppel / issue preclusion
When, as here, the government retries a
criminal case, findings of not guilty from the first trial
establish precedents limiting all future prosecutions
of the same matter. Once acquitted of an offense, an
accused need never “‘run the gantlet’” again with
regard to that specific offense. Ashe v. Swenson, 397
U.S. 436, 446 (1970) (quoting Green v. United States,
355 U.S. 184, 190 (1957)). The Double Jeopardy clause
of the Fifth Amendment to the Constitution protects
the accused from being “subject, for the same offence,
to be twice put in jeopardy of life or limb[.]” U.S.
CONST., amend. V. Courts have long recognized the
S.G. was a suspected Iraqi insurgency leader and an HVI in the
Hamdaniyah area, believed to be responsible for a number of IED
attacks on American forces. He was also the intended target of
the conspiracy and killing at issue in this case.
5

31a
civil litigation concept of collateral estoppel. See Hoag
v. New Jersey, 356 U.S. 464, 470 (1958) (“‘[W]here a
question of fact essential to the judgment is actually
litigated and determined by a valid and final
judgment, the determination is conclusive between
the parties in a subsequent action on a different cause
of action.’”) (quoting RESTATEMENT, JUDGMENTS, §
68(1) (1942)). In Ashe, the Supreme Court held that
criminal collateral estoppel was embodied in the Fifth
Amendment’s guarantee against double jeopardy. 397
U.S. at 445. After the incorporation of criminal
collateral estoppel into double jeopardy protection in
Ashe, courts began to refer to it as issue preclusion.
See Schiro v. Farley, 510 U.S. 222, 232 (1994).
The Ashe Court concluded that when a final
and valid verdict resolved an issue of ultimate fact,
the government could not litigate it again in a
subsequent prosecution. Ashe, 397 U.S. at 446. An
issue of fact is ultimate when it is critical to the
verdict. “Issue preclusion bars successive litigation of
‘an issue of fact or law’ that ‘is actually litigated and
determined by a valid and final judgment, and . . . is
essential to the judgment.’” Bobby v. Bies, 556 U.S.
825, 834 (2009) (citation omitted) (emphasis added).
The issue of ultimate fact in Ashe’s case was
whether he was among the band of robbers who broke
into a poker game in a private home and stole money
and a car from the six players around the table. Id. at
437. Ashe had been arrested in connection with the
robbery and charged with robbing one of the players.
Id. at 437-38. There was no question that the poker
player had been robbed; the only issue in dispute was
whether Ashe was one of the robbers. Id. at 438-39.

32a
Despite a jury’s acquittal at this first trial, Ashe was
later charged and convicted of robbing a different
player at the same game. Id. at 439-440. On a petition
for habeas corpus, the Ashe Court honed in on the
“issue in dispute,” finding:
[T]he record is utterly devoid of any
indication that the first jury could
rationally have found that an armed
robbery had not occurred, or that [the
victim in the first trial] had not been a
victim of that robbery. The single
rationally conceivable issue in dispute
before the jury was whether the
petitioner had been one of the robbers.
And the jury by its verdict found that he
had not. The federal rule of law,
therefore, would make a second
prosecution for the robbery of [the victim
in
the
second
trial]
wholly
impermissible.
Id. at 445 (emphasis added). The issue in dispute,
Ashe’s presence at the robbery, was an issue of
ultimate fact as it was essential to charges of robbery
at his first and second trials. With reasonable doubt
as to this essential ultimate fact, the government
could not proceed with it at a second trial that also
depended on it. Id. at 446. See also Dowling v. United
States, 493 U.S. 342, 348 (1990) (rejecting the claim of
collateral estoppel because “the prior acquittal did not
determine an ultimate issue in the present case”); see
also id. at 356 (Brennan, J., dissenting) (“Thus, in
addition to being protected against retrial for the
‘same offense,’ the defendant is protected against

33a
prosecution for an offense that requires proof of a fact
found in his favor in a prior proceeding.” (emphasis
added)).
The burden is on the accused to proffer that a
previous set of not guilty findings resolved an issue of
ultimate fact and move for dismissal of subsequent
charges also dependent on that same issue. The
accused must identify the issue in dispute,
demonstrate that the verdict in the previous trial
definitively resolved the proffered issue, and pray that
it be foreclosed from further dispute in court. Dowling,
493 U.S. at 350. Once the accused proffers an issue of
ultimate fact, the court must then test the accused’s
proffer. Ashe, 397 U.S. at 444. The Ashe Court charged
trial courts testing for issue preclusion with delving
back into prior findings:
[T]he rule of collateral estoppel in
criminal cases is not to be applied with
the hypertechnical and archaic approach
of a 19th century pleading book, but with
realism and rationality. Where a
previous judgment of acquittal was
based upon a general verdict, as is
usually the case, this approach requires
a court to “examine the record of [the]
prior proceeding, taking into account the
pleadings, evidence, charge, and other
relevant matter, and conclude whether a
rational jury could have grounded its
verdict on an issue other than that which
the defendant seeks to foreclose from
consideration.”

34a
Id. (citations omitted). See also Bravo-Fernandez v.
United States, 580 U.S. __, 137 S. Ct. 352, 359 (2016)
(noting that “[t]o identify what a jury in a previous
trial necessarily decided . . . a court ‘must examine the
record of a prior proceeding, taking into account the
pleadings, evidence, charge, and other relevant
matter’” (quoting Ashe, 397 U.S. at 444)). Cf Dowling,
493 U.S. at 352 (finding “any number of possible
explanations for the jury’s acquittal verdict at
Dowling’s first trial[,]” the Court concluded that “the
petitioner has failed to satisfy his burden of
demonstrating” the proffered issue had been resolved
in his favor). Having established that issue preclusion
protects an issue of ultimate fact that is essential to
both prior trial and trial at hand, we now consider
issues of less than ultimate fact—relevant but not
essential to pending charges.
2. Extension
suppression

of

issue

preclusion

to

evidence

When an issue of fact is not essential to both
verdicts and thus not ultimate in both cases,
preclusion is not automatic. The government need not
prove the acquitted issue beyond a reasonable doubt
to secure a new conviction, so it can proceed with the
new prosecution. But can the government present
evidence of that acquitted issue at a pending trial?
With varying degrees of success, criminal defendants
have invoked issue preclusion to suppress evidence
from a prior acquittal in a subsequent trial. See
Dowling, 493 U.S. at 348 (declining to extend Ashe’s
bar on relitigation “to exclude in all circumstances . . .
relevant and probative evidence that is otherwise
admissible under the Rules of Evidence simply

35a
because it relates to alleged criminal conduct for
which a defendant has been acquitted”); see also
United States v. Hicks, 24 M.J. 3, 8 (C.M.A. 1987)
(noting “disagreement among the courts about the
extent of the application of the doctrine of collateral
estoppel to the evidentiary use of prior acts of which
an accused has been acquitted.”)
The appellant urges us to follow case precedent
from the Second and Fifth Circuits and extend issue
preclusion beyond issues of ultimate fact to evidence
of prior bad acts subject to acquittal. See United States
v. Mespoulede, 597 F.2d 329, 334 (2d Cir. 1979)
(challenging the notion that collateral estoppel only
applies to facts essential to conviction); Wingate v.
Wainwright, 464 F.2d 209, 213 (5th Cir. 1972) (finding
no “meaningful difference in the quality of ‘jeopardy’
to which a defendant is again subjected when the state
attempts to prove his guilt by relitigating a settled
fact issue which depends upon whether the relitigated
issue is one of ‘ultimate’ fact or merely an ‘evidentiary’
fact in the second prosecution”).
In Hicks, our superior court explicitly rejected
what it characterized as the minority approach of
allowing
collateral
estoppel
“to
determine
admissibility of evidence which resulted in acquittal
at a prior trial.” 24 M.J. at 8.6 Opting for the majority
approach, the court declared that, “otherwise
admissible evidence” was still admissible, “even
Citing E. Imwinkelried, Uncharged Misconduct Evidence §§
10:03 through 10:07 (1984); Annot., 25 A.L.R. 4th 934 (1983); 2
Weinstein's Evidence, ¶ 404[10] at 404-58 (1982); 22 Wright and
Graham, Federal Practice and Procedure: Evidence § 5249 at
535-56 (1978).
6

36a
though it was previously introduced on charges of
which an accused has been acquitted.” Id. (citations
omitted). As the court succinctly stated in an opinion
nearly thirty years later, “the admissibility of other
acts evidence is governed by the Military Rules of
Evidence . . . , and not by the members’ verdict.”
United States v. Washington, 63 M.J. 418, 422
(C.A.A.F. 2006). See also United States v. Miller, 46
M.J. 63, 66 (C.A.A.F. 1997) (affirming a military
judge’s application of Military Rule of Evidence
404(b), SUPPLEMENT TO MANUAL FOR COURTSMARTIAL, UNITED STATES (2012 ed.) (MIL. R. EVID.)
and the Reynolds test7 in admitting evidence of prior
misconduct for which the appellant was acquitted).
In Hicks, trial defense counsel (TDC) sought to
suppress the testimony of four women who would
describe Sergeant (Sergeant) Hicks extorting them. 24
M.J. at 6-7. Sergeant Hicks was charged with
demanding sex from a woman in return for not
reporting her boyfriend’s misconduct. Id. at 5. The
trial court found the evidence of uncharged
misconduct “highly probative of a certain method or
scheme employed by appellant to use his position of
authority ‘to orchestrate events’ to obtain sexual or
monetary favors from vulnerable females.” Id. at 7
(citation omitted). Hicks argued that collateral
estoppel should prevent two of the women from
testifying because he had been acquitted of their
allegations at courts-martial. Id. In rejecting Hicks’
argument to apply collateral estoppel and suppress
some of the evidence in his case, the Court of Military
7

United States v. Reynolds, 25 M.J. 105, 109 (C.M.A. 1989).

37a
Appeals distinguished his case from Ashe. “In Ashe v.
Swenson, . . . the fact underlying the issue of
identity—that is, whether the accused was present at
the robbery—was an ultimate fact and essential for
conviction in both proceedings. On the other hand, the
other-acts evidence here was totally separate from the
instant offenses in time and place; was used for a
limited evidentiary point; did not require proof beyond
a reasonable doubt; and, although probative, was
unnecessary to support a conviction of the instant
charges.” Id. at 8-9.
3. Admissibility of evidence from an acquittal at
court-martial
Instead of issue preclusion, three Military
Rules of Evidence govern the relevance and
admissibility of evidence of conduct already litigated
in a prior court-martial. Miller, 46 M.J. at 66; Hicks,
24 M.J. at 8. First, “[e]vidence is relevant if: (a) it has
any tendency to make a fact more or less probable
than it would be without the evidence; and (b) the fact
is of consequence in determining the action.” MIL. R.
EVID. 401. “The military judge may exclude relevant
evidence if its probative value is substantially
outweighed by a danger of one or more of the
following: unfair prejudice, confusing the issues,
misleading the members, undue delay, wasting time,
or needlessly presenting cumulative evidence.” MIL.
R. EVID. 403. “Evidence of a crime, wrong, or other act
is not admissible to prove a person’s character in order
to show that on a particular occasion the person acted
in accordance with the character.” MIL. R. EVID.
404(b)(1). But “[t]his evidence may be admissible for
another purpose, such as proving motive, opportunity,

38a
intent, preparation, plan, knowledge, identity,
absence of mistake, or lack of accident” MIL. R. EVID.
404(b)(2).
In United States v. Reynolds, 29 M.J. 105
(C.M.A. 1989), the Court of Military Appeals
articulated a three-part test for the admissibility of
uncharged misconduct, including prior misconduct of
which the accused was acquitted:
1. Does the evidence reasonably support
a finding by the court members that
appellant committed prior crimes,
wrongs, or acts?
2. What “fact . . . of consequence” is made
“more” or “less probable” by the existence
of this evidence?
3. Is the “probative value . . .
substantially outweighed by the danger
of unfair prejudice”?
Id. at 109 (internal citations omitted, alterations in
original).
Although the Military Rules of Evidence and
the Reynolds test, not issue preclusion, govern the
admissibility of uncharged misconduct, the fact of an
acquittal is still a factor in the analysis. When an
accused has been acquitted of conduct the government
seeks to present as evidence in a subsequent case, that
acquittal is a factor in the test for admissibility. “The
fact of the prior acquittal may diminish the probative
value of the evidence, however, and should be
considered by the military judge when determining
whether ‘probative value is substantially outweighed

39a
by the danger of unfair prejudice, confusion of the
issues, or misleading the members, or by
considerations of undue delay, waste of time, or
needless presentation of cumulative evidence.’” Hicks,
24 M.J. at 9 (quoting MIL. R. EVID. 403). An accused
also has the right to prove that he or she was
previously acquitted of the acts admitted into
evidence under MIL. R. EVID. 404(b). United States v.
Cuellar, 27 M.J. 50, 56 (C.M.A. 1988). While issue
preclusion is not a sword at the appellant’s disposal in
this case, does he nonetheless deserve the benefit of
his purported acquittal of an issue of ultimate fact at
his first court-martial? Our superior court has not
prohibited us from querying whether we can
extrapolate an acquittal from prior findings. To begin
to answer whether that purported acquittal affects
the admissibility of related evidence, we must
consider the proffered acquittal.
4. Proffered acquittal of conspiring to kill anyone
other than S.G.
As part of his motion in limine to suppress
evidence of uncharged misconduct, the appellant
asserted that the findings of his first court-martial
indicated an acquittal of an issue of ultimate fact.
Based on specific instructions to the members and
their not guilty findings to housebreaking,
kidnapping, and conspiring to commit them, the
appellant asserted that the members must have
concluded that (1) the appellant did not order his
Marines to seize anyone other than suspected
insurgency leader and HVI, S.G.; (2) the appellant
believed that the individual seized was S.G.; and (3)
the appellant was not responsible for his squad

40a
members going to a house and seizing an unknown
Iraqi man (who was not S.G.).8 TDC exhorted the
military judge to examine the findings and exceptions
made by the members at his first trial to confirm that
they resolved this issue in the appellant’s favor. Citing
collateral estoppel, the appellant sought to exclude
evidence that the appellant conspired to kill anyone
other than S.G.
a. Not an issue of ultimate fact in the case before
us
Whom the appellant conspired to kill was
central to the government’s theme and theory at both
trials but was not an issue of ultimate fact at his
second court-martial. The conspiracy specification did
not name the victim the appellant and his coconspirators agreed to murder. Whether the man shot
by the IED crater was the same man the appellant
intended to kill was not critical to a finding of guilty
for murder. As the military judge instructed the
members, in cases of mistake or carelessness, “the
intent to kill or inflict bodily harm is transferred in
the intended victim of [the accused’s] action to the
actual victim.”9 And for the same reasons, the identity
of the appellant’s intended victim was not essential to
the other charges referred to his second court-martial.
With no pending charges dependent upon whom the
appellant agreed to kidnap and kill, there is no issue
of ultimate fact.

8
9

AE XCVIII at 6-7.
Record at 2276.

41a
Without the required issue of ultimate fact at
the pending court-martial,10 we can find no abuse of
discretion in the military judge’s apparent decision
not to explore the findings and record of the first
court-martial for the purported acquittal. The
military judge made no written findings of fact or
conclusions of law in response to the appellant’s
request that he examine the first record of trial but
said “[t]here is no requirement to speculate on the
rationale on the last panel of members. In fact it’s folly
to try to do that.”11
Though there appears to be no requirement to
mine a prior record of trial for acquittal of an issue of
less than ultimate fact, our superior court has not
prohibited it. The analysis and conclusion of acquittal
exemplified in Ashe is a preliminary step that may,
but need not, result in issue preclusion. Even with
issue preclusion off the table, the existence of an
acquittal remains relevant to admission of evidence
under the Military Rules of Evidence and Reynolds.
For that reason, we believe the appellant’s proffered
acquittal deserves our consideration.
b. Findings of the appellant’s first court-martial

See Ashe, 397 U.S. at 443; Dowling, 493 U.S. at 348, discussed
supra.
11 Record at 778.
10

42a
The first panel of members returned mixed, and
to some extent inconsistent,12 findings. Those findings
are summarized below:
Charge I: Conspiracy - Guilty of one
specification of conspiracy to commit larceny, false
official statements, murder, and obstruction of justice;
but not guilty of conspiracy to commit housebreaking
and kidnapping and excepting four of 21 overt acts
effecting the conspiracy.13
Charge II: False Official Statement - Guilty of
one specification of false official statement for a
written statement made on 28 April 2006; but not
guilty of a second false official statement for the 8 May
2006 interview with the NCIS Special Agents.
Charge III: Premeditated Murder - Not guilty
of premeditated murder, but guilty of the lesser
included offense of unpremeditated murder of an
unknown Iraqi man;

As previously stated, the appellant’s acquittal of premeditated
murder and conviction of conspiracy to commit murder are
irreconcilably inconsistent.
13 The four excepted overt acts were: (1) Cpl Magincalda, Cpl
Thomas, LCpl Pennington, and HM3 Bacos walking from S.G.’s
house to the home of an unknown Iraqi and Cpl Magincalda and
Cpl Thomas entering the house; (2) Cpl Magincalda and Cpl
Thomas taking an unknown Iraqi man from his house against
his will; (3) the appellant’s false statements to Staff Sergeant
O.B. on 26 April 2006 regarding the facts and circumstances of
the unknown Iraqi man’s death; and (4) the appellant’s false
statements to Special Agents J.C. and S.L., Naval Criminal
Investigative Service, on 8 May 2006 regarding the facts and
circumstances of the unknown Iraqi man’s death.
12

43a
Charge IV: Larceny - Guilty of one specification
of larceny;
Charges V, VI, and VII - Not guilty of assault
consummated by battery, housebreaking, kidnapping,
and obstruction of justice.14
The appellant contends, “[t]he removal of
housebreaking and kidnapping as predicate offenses
to the conspiracy charge indicate that the members
found, as ultimate facts, that the conspiracy was only
to kill [S.G.], and did not include any plans for
alternate victims.”15
c. Examination of the record of the prior
proceeding
Our review of the record of the appellant’s first
court-martial
aligns
substantially
with
the
appellant’s account and conclusions regarding the
meaning of the appellant’s prior acquittal of
housebreaking and kidnapping.
From their opening statements, trial counsel
(TC) and TDC at the first court-martial presented
conflicting theories of whom the appellant and his
squad members conspired to kill on 25 and 26 April
2006. The government previewed their three-pronged
conspiracy theory—“plan ‘A’, get [S.G.], plan ‘B’, get a
brother, or plan ‘C’, get somebody[.]”16 According to
the government, the evidence would show that the
appellant, Cpls Magincalda and Thomas, and LCpl
First trial record, charge sheet and findings worksheet (AE
CXXIV).
15 Appellant’s Brief at 27.
16 First trial record at 1015.
14

44a
Pennington spent an hour and a half deliberating and
developing a plan for four squad members to walk to
the home of S.G., seize him, bring him about a
kilometer to a crater formed by an IED, disturb the
dirt with a stolen shovel so it appeared S.G. was trying
to plant a new IED, stage a firefight with a stolen AK47, and kill S.G. That was Plan A.
Plan “B” is, Hey, if we can’t get [S.G.],
let’s get one of his brothers, grab
somebody from his house because we
want to send a message. And as they talk
about plan “B”, then they say, What if we
can’t get into the house?
Sergeant Hutchins tells them, Get
someone else. Bring somebody back here
tonight. We need to send a message. So
they move from plan “B” to plan “C” to
get somebody. Get somebody.17
In response to the government’s opening
statement, the appellant’s TDC focused the members
on command pressure to eliminate S.G., a “high value
target,”18 and challenged the existence of a threeprong conspiracy. TDC asserted that the appellant
believed the man he shot at the IED crater was S.G.
Five members of the appellant’s squad testified
at his first court-martial. The refrain of a single plan
repeated throughout their testimony—“To get [S.G.],
bring him down to the IED hole, and shoot and kill
him, sir.”19 According to LCpl Pennington and HM3
Id. at 1014.
Id. at 1031.
19 Id. at 1127.
17
18

45a
Bacos, the only two of the original planners to testify,
they originally discussed storming S.G.’s house and
killing him there, in what would look like a
mujahedeen
attack.
Then
they
considered
commandeering a car and using that to drive S.G.
from his home to the IED crater. But they discarded
these ideas in favor of a four-man “snatch team”
seizing S.G. from his home and bringing him, on foot,
to the IED crater.
Testimony about a substitute for S.G. was not
consistent. When TC asked LCpl Jackson what would
happen if the snatch team could not seize S.G., he
responded, “[t]hey would get a relative of his or any
other male in the house, sir.”20 TC did not pose the
question to PFC Jodka, but in response to a question
from a member, PFC Jodka specifically refuted any
suggestion that the appellant planned to seize one of
S.G.’s family members. PFC Jodka testified, “The plan
was to get [S.G.] personally because he was the
insurgent, and that he was the one that we were going
to put in this IED hole, that it wasn’t just anybody,
sir.”21 On cross-examination, TDC asked LCpl
Shumate if the plan involved killing anyone other
than S.G., and LCpl Shumate replied, “Not that I can
think of, sir.”22
LCpl Pennington and HM3 Bacos testified
differently. According to LCpl Pennington, “[i]f we
were compromised at the [S.G.] house and couldn’t go
Id. at 1125.
Id. at 1203.
22 Id. at 1265.
20
21

46a
inside without everyone knowing we were there, we
would move on to another house where we would get
another military age male.”23 LCpl Pennington
conceded to TDC that “it would have been a significant
departure . . . to grab somebody else” and “[i]t would
have defeated the whole purpose not to grab [S.G.].”24
HM3 Bacos also testified to Plans B and C:
[W]e were tasked out to go retrieve an
AK-47 and shovel from a nearby house,
stash it somewhere, go patrol to [S.G.]’s
house.
If not—if we couldn’t get [S.G.] because
someone saw us in the family, we would
go try getting someone else, anyone, and
then walk that military-aged male—it
was going to be a male—down to the IED
hole with the AK-47 and shovel, disturb
the dirt, make it look like he was digging
and make it look like he is doing a
terrorist act.25
HM3 Bacos remembered hearing the appellant say,
“someone was going to die tonight[.]”26
The appellant did not testify on the merits at
his first court-martial, but the statement he gave to
Naval Criminal Investigative Service (NCIS) on 19
May 2006 went to the members as Prosecution

Id. at 1337.
Id. at 1379.
25 Id. at 1406.
26 Id. at 1410.
23
24

47a
Exhibit (PE) 1.27 In his statement, the appellant
acknowledged a back-up plan to seize and kill one of
S.G.’s brothers if S.G. were not home. Amidst all the
discussion, he remembered Cpl Thomas singing lyrics
from a rap song “Somebody’s gonna die tonight.”
According to the plan, the snatch team would bind
S.G.’s hands with flexible handcuffs, gag him, and
walk him to the IED crater. When Cpl Thomas and
Cpl Magincalda called the appellant on his personal
radio receiver and told him they had “him,” the
appellant thought they were referring to S.G.28 Not
until after the shooting, when he approached the
body, did the appellant realize they had killed another
Iraqi man, not S.G. HM3 Bacos’s testimony
corroborated a radio exchange between the snatch
team and the appellant as the snatch team
approached the IED crater. “I remember Corporal
Thomas saying that Sergeant Hutchins wanted to see
the man, to bring the man to the tree. But Corporal
Magincalda disagreed and said, ‘No, we’re not going to
do that, let’s just stick with the plan.’”29 On crossexamination, TDC confirmed with HM3 Bacos that
the appellant wanted to see the man with them, but
Cpl Magincalda objected.30
In his closing argument, TC acknowledged the
discrepancies in the testimony about plans A, B, and
The CAAF subsequently held that NCIS obtained this
statement from the appellant in violation of his Fifth
Amendment rights against self-incrimination and, accordingly,
set aside his convictions. Hutchins IV, 72 M.J. at 299-300.
28 First trial record, PE 1 at 7.
29 Id. at 1422.
30 Id. at 1449.
27

48a
C but argued that the appellant planned to kidnap
and kill not S.G., but somebody. “They couldn’t get
[S.G.] or one of his brothers, so they got somebody.
They got somebody, because somebody was going to
die tonight.”31 TDC closed by inviting the members’
attention to what HM3 Bacos overheard on the radio
between the appellant and the two corporals to
dispute the government’s assertion that he planned to
kidnap and kill anyone other than S.G. Throughout
the trial, the government and TDC advocated
conflicting positions about whom the appellant
conspired to kill by the IED crater on 26 April 2006.
As the appellant was not a member of the
snatch team, the government relied on both principal
and co-conspirator liability32 to prosecute him for
many
of
the
offenses
charged—larceny,
housebreaking,
kidnapping,
and
assault
consummated by battery actually carried out by the
snatch team members. TC ended his closing argument
with a preview of the legal concept for members. The
military judge instructed the members on principal
liability of those who aid, abet, command, counsel, or
procure an offense, and co-conspirator liability, when
the offense is committed in furtherance of the
conspiracy.
Prompted by evidence presented during the
court-martial, the military judge also instructed the
members about a possible mistake of fact defense with
Id. at 1726.
See MANUAL FOR COURTS-MARTIAL, UNITED STATES (2005 ed.),
Part IV, ¶¶ 77b(2)(b) and 81c(5).
31
32

49a
regard to the appellant’s authority to detain S.G., a
high value target. “If the accused at the time of the
offense was under the mistaken belief that he was
authorized to detain [S.G.] at any time, then he cannot
be found guilty of the offense of housebreaking.”33
“Now, the accused is not guilty of the offense of
kidnapping if: First, he mistakenly believed he had
the authority to detain [S.G.] at any time, and;
Second, if such belief on his part was reasonable.”34
In light of these instructions, the evidence, and
counsel’s arguments, the findings of not guilty of
housebreaking, kidnapping, and conspiracy to commit
them along with the exception of the overt acts of
walking to an unknown Iraqi man’s house, entering
the house, and taking the man from his home against
his will, support the appellant’s proffered acquittal.
We are not persuaded by the government’s argument
that the appellant could have reasonably expected an
Iraqi to open his home to a knock in the middle of the
night and voluntarily accompany American troops.
But for the squad’s legal authority to arrest and
detain high value targets such as S.G., the plan
required housebreaking and kidnapping.35 The
First trial record at 1789.
Id.
35 The elements of housebreaking are: “(1) That the accused
unlawfully entered a certain building or structure of a certain
other person; and (2) That the unlawful entry was made with the
intent to commit a criminal offense therein.” MANUAL FOR
COURTS-MARTIAL, UNITED STATES (2005 ed.), Part IV, ¶ 56.b. The
elements of kidnapping are: (1) That the accused seized,
confined, inveigled, decoyed, or carried away a certain person; (2)
That the accused then held such person against that person’s
33
34

50a
mistake of fact defense regarding the authority to
detain applied only to S.G.; no one else was identified
as a high value target. To borrow language from Ashe,
“the record is utterly devoid of any indication that the
first jury could rationally have found that”
housebreaking and kidnapping of an unknown Iraqi
man “had not occurred, or that” the unknown Iraqi
man “had not been a victim of” housebreaking and
kidnapping. 397 U.S. at 445.
With regard to the appellant’s liability for
committing housebreaking and kidnapping, “[t]he
single rationally conceivable issue in dispute before
the jury was whether” the appellant had conspired to
enter the home of S.G. and seize him or to break into
the home of someone else to kidnap someone other
than S.G. Id. “And the jury by its verdict found” that
the appellant had not conspired to break into the
home of anyone other than S.G. or kidnap anyone
other than S.G. Id. The members demonstrated they
understood both theories of liability by convicting the
appellant of stealing an AK-47 and shovel he never
touched. Their decision to acquit the appellant of
housebreaking and kidnapping demonstrates that the
members believed the mistake of fact defense applied,
and the conspiracy was to get and kill S.G.
Again, we find no abuse of discretion in the
military judge’s failure to conclude that the appellant
was acquitted of conspiring to kill anyone but S.G.,
will; (3) That the accused did so willfully and wrongfully; and (4)
That, under the circumstances, the conduct of the accused was to
the prejudice of good order and discipline in the armed forces or
was of a nature to bring discredit upon the armed forces. Id., Part
IV, ¶ 92.b.

51a
but we will include this among the acquitted acts of
misconduct as we proceed with analysis of the ruling
on admission of evidence.
5. Military judge’s ruling on motion to suppress
evidence
In advance of his second trial, the appellant
moved “to exclude evidence and testimony regarding
conduct that was the subject of the members’ ‘not
guilty’ findings” at his first trial.36 Specifically, the
appellant sought to exclude evidence of premeditated
murder, housebreaking, kidnapping, and a false
official statement to NCIS agents regarding the
placement of a shovel or AK-47 near the deceased.37
The evidence to be suppressed was presented
categorically and not delineated as physical exhibits,
statements, or excerpts of statements. At the time of
the motion, both parties anticipated that the
appellant’s former squad mates might testify to much
of this evidence. Ultimately and unexpectedly, the
government relied on transcripts of the prior courtmartial testimony of four of the squad members, and
the appellant objected to numerous excerpts of that
prior testimony relating to acquitted offenses.
In a ruling from the bench, the military judge
denied the appellant’s motion to suppress evidence.
The motion to suppress is denied. There
is no requirement to speculate on the
rationale of the last panel of members. In
fact, it’s folly to try to do that. The real
36
37

AE XCVIII at 1.
Id. at 5-7.

52a
risk of confusing them is if we try to
parse the facts as proposed by the
defense counsel. Misconduct can violate
more than one article of the UCMJ and
the conduct alleged in Paragraphs (a),
(b), and (c) of the defense motion are not
mutually exclusive to the charges of
which the accused was acquitted.38
This statement of the military judge
issued contemporaneously with his denial of the
appellant’s motion to suppress constitutes the sum
total of the record reflective of the military judge’s
reasoning in support of his ruling. The record
includes no explicit findings of fact or conclusions of
law or any other explanation or justification in
support of the military judge’s ruling. In the context
of the pleadings and argument during the
surrounding Article 39(a), UCMJ, hearing, we can
glean two findings of fact from the military judge’s
ruling and simultaneous comments.
First, the military judge apparently found that
the evidence of which the appellant had been
acquitted applied to other charges pending before the
court. Early in the Article 39(a), UCMJ, session, the
Record at 778. Paragraphs (a), (b), and (c) referred,
respectively, to “Evidence of ‘Premeditation,’” “Evidence of
Kidnapping and Housebreaking,” and “Evidence of False
Statements to NCIS About Underlying Facts.” AE XCVIII at 57. As previously stated, the appellant’s AOE focuses, almost
exclusively, on the evidence in paragraph (b), housebreaking and
kidnapping. We will confine our analysis to housebreaking and
kidnapping and the underlying facts necessarily resolved by
acquittal of those two charges.
38

53a
military judge posed to civilian defense counsel that
conduct “can cut across more than one article of the
UCMJ.”39 And “[w]hy can’t the underlying conduct, if
it applies to other charges, still come in?”40 Neither
the TC nor the military judge specified the pending
charges to which the underlying misconduct applied.
But in their response to the motion to suppress, the
government “opine[d] that these acts demonstrate the
accused’s preparation, intent, lack of mistake or
accident, and plan to execute the offense for which he
is charged and escape culpability and suspicion for the
charged offenses.”41
In his second finding of fact, the military judge
concluded that suppression of evidence of
housebreaking, kidnapping, and the detour to the
home of the unknown Iraqi man would leave the
members confused. TC, in their response to the
defense motion, asserted that, “[c]ourts should decline
any invitation [to] create an artificial gap in the
witness’s narrative that will leave the fact-finder
confused and uninformed.”42 The prospect of confused
members resonated with the military judge, who then
challenged the civilian defense counsel on censoring
from witnesses’ testimony how they transported the
Iraqi man from his home to the IED crater and “how
he got in—allegedly got into the IED hole.”43 TC then
invoked the MIL. R. EVID. 403 balancing test and
Record at 768.
Id.
41 AE XCIX at 10.
42 Id. at 8.
43 Record at 770.
39
40

54a
warned that “to simply omit those facts of the
housebreaking and the kidnapping, to simply omit
those facts, that is what would confuse the
members.”44 From the argument on the record, we can
conclude that the military judge found that excising
uncharged misconduct of which the appellant had
been acquitted from testimony would confuse the
members, and admitting it was necessary to prevent
that confusion.
We presume the military judge knows the law
and correctly applies it, unless the record in this case
suggests otherwise. See United States v. Erickson, 65
M.J. 221, 225 (C.A.A.F. 2007) (holding that “[m]ilitary
judges are presumed to know the law and to follow it
absent clear evidence to the contrary”). However, if
the military judge analyzed the evidence of prior
misconduct in accordance with MIL. R. EVID. 401, 403,
or 404(b) or the three-part Reynolds test,45 he did not
so articulate on the record. Aside from the necessity
for a coherent narrative, TC did not volunteer and the
military judge did not solicit the probative value of the
evidence. The military judge did not acknowledge how
the appellant’s prior acquittal impacted its probative
value, and he was silent as to any potential prejudice.
In his instructions to the members, the military
judge provided the standard MIL. R. EVID. 404(b)
instruction regarding acquitted offenses and added:
I remind you again that the accused was
acquitted at a prior proceeding of the
offenses of kidnapping, housebreaking,
44
45

Id. at 776.
29 M.J. at 109.

55a
assault,
obstruction
of
justice,
premeditated murder, and false official
statement on or about 8 May, as well as
conspiracy to commit kidnapping and
housebreaking. You may therefore
consider evidence that the accused may
have been involved in plans or acts
involving entering the alleged victim’s
home, moving him to another location,
involvement in a shooting, and providing
a statement to NCIS on or about 8 May
for the limited purpose of its tendency, if
any, to prove a plan or design of the
accused to commit the charged acts.46
Given the absence of any substantive findings
or analysis by the military judge, we will conduct our
own Reynolds analysis.
6. Application of the Reynolds test
The appellant moved to suppress evidence of
the offenses of which he had been acquitted:
conspiracy to commit housebreaking and kidnapping,
false official statement for the 8 May 2006 interview
with NCIS, premeditated murder, obstruction of
justice,
assault
consummated
by
battery,
housebreaking, and kidnapping. In addition, we
analyze the admissibility of evidence to conspire to kill
anyone other than S.G.
a. Support of prior crimes, wrongs, or acts
Evidence in the form of direct testimony from
multiple former squad mates reasonably supports
46

Record at 2285-86.

56a
findings that the appellant instigated, advised,
counseled, encouraged, and conspired to commit the
offenses of which he was acquitted, including, as a
contingency, conspiring to kill someone other than
S.G. See Reynolds, 29 M.J. at 109. In particular,
through their testimony at the first court-martial,
snatch team members LCpl Pennington and HM3
Bacos recounted the carefully considered and crafted
plan to enter a home, seize S.G. or a substitute,
transport him to the IED crater, kill him, and stage
the incident to look like a legitimate firefight. They
both testified to the contingency plan to seize one of
S.G.’s relatives or any Iraqi man if they could not get
S.G. LCpl Pennington and HM3 Bacos then provided
consistent, step-by-step accounts of the execution of
that plan, including the actual housebreaking,
kidnapping, and assault consummated by battery.
The other junior squad members corroborated the
plan to obstruct justice with details of the carefully
staged scene. All of this testimony contradicted the
appellant’s initial accounts of discovering and
engaging an insurgent digging a hole in which to bury
an IED and suggests deceit and false official
statement. This first factor inures to the admission of
the evidence.
b. Probability of facts of consequence
Evidence that the appellant instigated,
advised, encouraged, and conspired to commit the
acquitted offenses and that they were committed in
furtherance of that conspiracy makes it more probable
that the death of an unknown Iraqi man in
Hamdaniyah on 26 April 2006 was the result of a
conspiracy the appellant hatched and led. Id. The

57a
granularity of detail evident in the testimony about
conspiring to enter the home of S.G. and seize him—
or someone else, to kill S.G., and to cover it up made
it more probable that the larceny and murder were
also products of the same deliberate and
comprehensive planning process. Evidence of all the
actions taken to carry out the plan made it more
probable that the squad members and the appellant
had committed to the plan’s goal of a killing in an IED
crater. Finally, evidence that the appellant and the
snatch team members considered a contingency such
as S.G.’s absence from his home and the identification
of a substitute victim made it more probable that the
fatal shooting was both intentional and wrongful.
c. Does the danger of unfair prejudice
substantially outweigh the probative value?
First, we consider the probative value of
evidence of the acquitted offenses. Id. As the
government argued, the primary probative value was
narrative cohesion. A cohesive narrative revealed a
well-thought out plan indicating preparation, intent,
and lack of mistake or accident.
As for unfair prejudice that might substantially
outweigh probative value, the appellant submits very
little. Relying on suppression by issue preclusion,
TDC did not address the Reynolds factors or Military
Rules of Evidence in their motion. The parties
discussed the MIL. R. EVID. 403 balancing test only
with regard to evidence of housebreaking and
kidnapping and the confusion of extracting part of the
narrative. To complete our analysis, we consider the

58a
potential prejudice
misconduct.

of

evidence

of

acquitted

Prejudice from evidence of premeditated
murder, obstruction of justice, and the 8 May 2006
false official statement was minimal. The appellant
had been acquitted of committing those offenses but
convicted of conspiring to commit them. Evidence of
the
completed
offenses
was
essentially
indistinguishable from evidence of conspiracy to
commit them and thus presented little, if any, danger
of unfair prejudice.
As for evidence of housebreaking, kidnapping,
and the conspiracy to commit them, their absence
would have likely been conspicuous to members. Some
members may have independently understood the
authority to seize and detain high value targets, but
there might not have been an instruction explaining
the legal distinction. Faced with a logical gap in the
narrative, the members may have assumed details
similar to, or more aggravating than, what the
evidence revealed. Suppressing the evidence may
have done little to reduce prejudice.
More important, the evidence of housebreaking
and kidnapping was embedded in the larger
narrative. The consistent eyewitness testimony of one
co-conspirator after another compounded the evidence
of both conspiracy to commit murder and murder
itself. There was little danger of conviction based on
character evidence stemming from the housebreaking
and kidnapping that preceded the murder. Inclusion
of evidence explaining how the unknown Iraqi civilian

59a
arrived at the IED crater was therefore not unduly
prejudicial.
With regard to the appellant’s agreement to kill
anyone other than S.G., the appellant fell short of
articulating unfair prejudice that might have
outweighed probative value. Evidence of Plans B and
C, conspiracy to commit someone other than S.G., is
undeniably probative of a conspiracy to commit
murder and the ultimate murder of an unknown Iraqi
man. The appellant’s acquittal of these two plans does
diminish their probative value but likely not in an
appreciable way.
Nevertheless, the potential prejudice loomed
large. The counsel prosecuting the appellant’s second
court-martial resurrected and recycled the conspiracy
to kill a random Iraqi as the government’s “theory of
prosecution.”47 Sounding remarkably like his
predecessor seven years earlier, TC in the appellant’s
second trial began his opening statement with:
“Sergeant Hutchins had a perfect plan, a perfect plan
to commit a murder and send a message. Sergeant
Hutchins was the mastermind of the plan, and his
squad executed.”48 The prosecutor quickly referred to
“a plan to drag someone out of their bed in the middle
of the night and kill them.”49 Then he laid out “Plan
A, get [S.G.]. Plan B, get [S.G.’s] brothers . . . Plan C,
you get any Iraqi male . . . you get any Iraqi male
because this town is going to get the message.”50 TC
Appellant’s Brief at 17, 24.
Record at 1255.
49 Id.
50 Id. at 1259.
47
48

60a
then repeated Plan A, Plan B, Plan C. As he wrapped
up his opening statement, the TC again referred to the
appellant’s “perfect plan to send a message.”51 The
three-prong conspiracy theory debunked at the first
trial reappeared as a central theory of the second trial,
and the intent to kill someone and send a message was
its theme. Although the charge sheet was silent as to
a victim of the conspiracy, the members might have
been forgiven for assuming the appellant was charged
with conspiring to kill a random Iraqi man.
Unlike in Hicks, where “the other-acts evidence
was totally separate from the instant offenses in time
and place; was used for a limited evidentiary point;
did not require proof beyond a reasonable doubt; and,
although probative, was unnecessary to support a
conviction of the instant charges[,]” here, although the
other-acts evidence did not require proof beyond a
reasonable doubt and was unnecessary to conviction,
it was part and parcel of the instant offenses and
prominently presented as the theme and theory of the
case. 24 M.J. at 9.
The government’s depiction of the appellant as
someone who conspired to kill an innocent Iraqi
civilian at random was at least arguably aggravating,
but it did not ultimately amount to unfair prejudice in
this case. “[T]he term ‘unfair prejudice’ in the context
of [MIL. R. EVID.] 403 ‘speaks to the capacity of some
concededly relevant evidence to lure the factfinder
into declaring guilty on a ground different from proof
specific to the offense charged.’” United States v.
Collier, 67 M.J. 347, 354 (C.A.A.F. 2009) (quoting Old
51

Id. at 1265.

61a
Chief v. United States, 519 U.S. 172 (1997)). In light
of the substantial and less controverted evidence that
the appellant conspired to kill S.G., the members
would not have needed to rely on evidence of a
conspiracy to kill anyone else to prove the charge
itself. Although Plans B and C were a contingency on
which the snatch team needed to rely, evidence of
Plans B and C was a contingency of proof the
government did not need.
Finally, had the appellant exercised his right to
prove his acquittal of conspiracy to murder anyone
other than S.G.,52 the diversion necessary for doing so
might have tipped the scales of the MIL. R. EVID. 403
balancing test. MIL. R. EVID. 403 (providing for the
exclusion of evidence “if its probative value is
substantially outweighed by the danger of . . .
confusion of the issues, or misleading the members, or
by considerations of undue delay, waste of time, or
needless presentation of cumulative evidence.”) But
this prejudice is purely speculative. The appellant did
not attempt to prove his acquittal to the members of
the second court-martial, and thus this potential
prejudice never became an issue.
Despite the potential for unfair prejudice in the
admission of evidence of a conspiracy to kill anyone
other than S.G., that prejudice was not before the
military judge at the time he admitted the evidence.
The actual prejudice did not substantially outweigh
the evidence’s probative value.
Having progressed through the three factors of
the Reynolds test and finding them all in favor of
52

See Cuellar, 27 M.J. at 56, discussed supra.

62a
admission, we can find no abuse of discretion in the
military judge’s decision to admit the evidence of
acquitted misconduct, including evidence of a
conspiracy to kill anyone other than S.G. The evidence
offered proof of motive, intent, preparation, plan, and
an absence of mistake or accident with regard to the
charges against the appellant, particularly conspiracy
to commit murder and murder. MIL. R. EVID. 404. The
probative value of the evidence was not substantially
outweighed by the danger of unfair prejudice or other
unjustified distraction from the court-martial. MIL. R.
EVID. 403.
7. Prejudice
Even if we had found abuse of discretion on the
military judge’s part in admitting evidence of a
conspiracy to commit Plans B and C, there was no
actual prejudice to the appellant. “We evaluate
prejudice from an erroneous evidentiary ruling by
weighing (1) the strength of the Government’s case,
(2) the strength of the defense case, (3) the materiality
of the evidence in question, and (4) the quality of the
evidence in question.” United States v. Barnett, 63
M.J. 388, 397 (C.A.A.F. 2006) (citations and internal
quotation marks omitted).
Even though the appellant’s second trial
defense team did not concede his plan to kill S.G., the
evidence of a conspiracy to kill him was
overwhelming. The appellant’s primary defense was
that the account of the night’s events was fabricated
and forced upon his squad during coercive
interrogations. The vivid, granular details the coconspirators recounted with calm, confident certainty

63a
ring with credibility. Evidence of a conspiracy to kill
anyone other than S.G. was material to the
government’s case but of inferior quality to the
evidence of an agreement to kill S.G. Despite the
prominence the government gave the evidence of
Plans B and C and the murderous callousness the
government presumably sought to depict in the
appellant, the evidence of Plan A was sufficient to
assuage any concerns that members needed to fall
back on evidence of Plans B and C. With those
concerns assuaged, there is no prejudice.
B. Former testimony of co-conspirators
The appellant challenges the military judge’s
ruling that certain government witnesses were
unavailable and their prior testimony was admissible.
“So long as the military judge understood and
applied the correct law, and the factual findings are
not clearly erroneous, neither the military judge’s
decision to admit evidence, nor his unavailability
ruling, should be overturned.” United States v.
Cabrera-Frattini, 65 M.J. 241, 245 (C.A.A.F. 2007).
An accused’s Sixth Amendment right to
confront witnesses against him normally prevents the
government from admitting a witness’s former
testimony—testimonial evidence—without producing
the witness for cross-examination. See Crawford v.
Washington, 541 U.S. 36, 51 (2004). But if the witness
is unavailable, and has previously been subject to the
accused’s cross-examination, such testimonial
evidence may be admissible. Id. at 59 (concluding that
“[t]estimonial statements of witnesses absent from
trial have been admitted only where the declarant is

64a
unavailable, and only where the defendant has had a
prior opportunity to cross-examine”); see also CabreraFrattini, 65 M.J. at 245.
1. Unavailability of witnesses
“The test for unavailability focuses on ‘whether
the witness is not present in court in spite of goodfaith efforts by the Government to locate and present
the witness.’” Cabrera-Frattini, 65 M.J. at 245
(quoting United States v. Cokeley, 22 M.J. 225, 228
(C.M.A. 1986)). We review a military judge’s
determinations of witness unavailability—and the
government’s good faith efforts to produce the
witness—for an abuse of discretion. Id.
Among the reasons for witness unavailability
enumerated in MIL. R. EVID. 804(a) are “(1)
exempt[ion] from testifying about the subject matter
of the declarant’s statement because the military
judge rules that a privilege applies;” and “(2) refus[al]
to testify about the subject matter despite the military
judge’s order to do so[.]” A witness may refuse to
testify by invoking his privilege against compulsory
self-incrimination
guaranteed
by
the
Fifth
Amendment and, where applicable, Article 31, UCMJ.
U.S. CONST. amend V. To overcome a witness’s
privilege against self-incrimination and compel his
testimony, the government must confer testimonial
immunity, as described in MIL. R. EVID. 301(d)(1):
The minimum grant of immunity
adequate to overcome the privilege is

65a
that which under either R.C.M. 70453 or
other proper authority provides that
neither the testimony of the witness nor
any evidence obtained from that
testimony may be used against the
witness at any subsequent trial other
than in a prosecution for perjury, false
swearing, the making of a false official
statement, or failure to comply with an
order to testify after the military judge
has ruled that the privilege may not be
asserted by reason of immunity.
(emphasis added). Testimonial immunity does
not protect against prosecution for perjury, United
States v. Swan, 45 M.J. 672, 679 (N-M. Ct. Crim. App.
1996); that protection requires transactional
immunity.54 But “[t]he government is not required to
seek transactional immunity to demonstrate a good
faith effort.” United States v. Trank, No. 20130742,
2013 CCA LEXIS 985, at *16 (A. Ct. Crim. App. 2013)
(citing Kastigar v. United States, 406 U.S. 441, 453
(1972)).
In Trank, the alleged victim—a civilian—
testified under oath at an Article 32, UCMJ,
preliminary hearing about sexual abuse and was
subject to cross-examination. Id. at *5-*6. Later, she
indicated through counsel that she intended to recant
RULE FOR COURTS-MARTIAL (R.C.M.) 704, MANUAL FOR
COURTS-MARTIAL, UNITED STATES (2012 ed.) provides for grants
of immunity to witnesses subject to the UCMJ.
54 See R.C.M. 704(a)(1). “A person may be granted transactional
immunity from trial by court-martial for one or more offenses
under the [UCMJ].”
53

66a
her allegation and would invoke her Fifth
Amendment right against self-incrimination rather
than testify at court-martial. Id. at *6. The
government obtained a grant of testimonial immunity
for the alleged victim from an Assistant United States
Attorney and unsuccessfully sought transactional
immunity from the state government, but prosecutors
declined to return to the United States Attorney for a
grant of transactional immunity. Id. at *7. The
military judge found the alleged victim to be
unavailable, and the Army Court of Criminal Appeals
agreed that a grant of transactional immunity was not
required before finding a witness unavailable. Id. at
*16.
In Swan, a witness testified at an Article 39(a),
UCMJ, session that his statement to NCIS
implicating Swan was a fabrication. 45 M.J. at 679.
The government offered the witness testimonial
immunity, but not transactional immunity, and
instead pursued perjury charges against him for his
Article 39(a), UCMJ, testimony. Id. The military
judge questioned the witness about his refusal to
testify, determined that he had invoked his Article
31(b), UCMJ, rights, and declared him unavailable.
Id. at 679-80. This court affirmed the military judge’s
ruling of unavailability, finding that he “made
sufficient inquiries to establish that [the witness]
would exercise his privilege against compelled selfincrimination despite the purported grant of
immunity.” Id. at 680.
In the case before us, the government
subpoenaed the appellant’s former squad mates, all
civilians by the time of trial, to testify for the

67a
prosecution. HM3 Bacos, PFC Jodka, LCpl
Pennington, and LCpl Shumate took the stand in
Article 39(a), UCMJ, sessions. Despite receiving
grants of testimonial immunity,55 they each invoked
their Fifth Amendment privilege against selfincrimination, cited a fear of prosecution for perjury,
and declined to comply with the military judge’s order
to testify. Based on this Article 39(a), UCMJ,
testimony, the military judge found HM3 Bacos, PFC
Jodka, and LCpl Pennington unavailable. LCpl
Shumate’s Article 39(a), UCMJ, session followed the
military judge’s verbal ruling that the three preceding
witnesses were unavailable, and he neglected to
explicitly declare LCpl Shumate unavailable. This
oversight elicited no objection from the appellant, and
the military judge simply dismissed LCpl Shumate
after his Article 39, UCMJ, testimony and proceeded
with the admission of his prior testimony based on his
refusal to testify.
The military judge made no specific findings of
fact, but he elicited from each of the four witnesses
testimony that met the MIL. R. EVID. 804(b)(1) criteria
for unavailability—their intent to invoke their
privilege against self-incrimination to avoid testifying
that they had committed perjury at the first courtmartial and their refusal to testify despite being
AE CXXX, CXXXII-CXXXIV. HM3 Bacos, PFC Jodka, LCpl
Pennington, and LCpl Shumate each received a “Grant of
Testimonial Immunity and Order to Testify” from the CA under
authority from the Justice Department. In return for testifying
truthfully, each had “immunity from the use of [his] testimony or
other information given by [him] . . . except a prosecution for
perjury, giving a false statement, or otherwise failing to comply
with an order to testify in these matters.”
55

68a
ordered to do so. Although the military judge did not
elaborate on the good faith efforts of the government
to produce the witnesses, all witnesses were present
and took the stand to confirm the circumstances that
made them unavailable. The government had
procured the required grants of testimonial immunity.
Despite the appellant’s argument that good faith
required TC’s application for transactional immunity,
our military case law precedent is clear that only
testimonial immunity is necessary. The military
judge’s rulings were in accordance with MIL. R. EVID.
804(b)(1) and Swan, which he cited as authority, as
well as Trank. We find no abuse of discretion with
regard to the unavailability of HM3 Bacos, PFC
Jodka, LCpl Pennington, and LCpl Shumate.
Having found the four witnesses unavailable,
the military judge invited the government to seek
admission of their testimony from the prior courtmartial. To determine if admission of that prior
testimony were an abuse of discretion, we next look at
the appellant’s opportunity to cross-examine the
witnesses.
2. Opportunity
examination

and

similar

motive

for

cross-

If a witness is unavailable, MIL. R. EVID.
804(b)(1) provides an exception to the rules against
hearsay allowing admission of the unavailable
witness’s former testimony. The exception applies to
testimony that “(A) was given by a witness at a trial,
hearing, or lawful deposition, whether given during
the current proceeding or a different one; and (B) is
now offered against a party who had an opportunity

69a
and similar motive to develop it by direct, cross-, or
redirect examination.” MIL. R. EVID. 804(b)(1).
The appellant argues he did not have a similar
motive to cross-examine the four unavailable coconspirators at his first trial.
Whether there was a similar motive to crossexamine a witness at a prior proceeding is a question
of law we review de novo. Trank, 2013 CCA LEXIS
985, at *15. The party seeking to admit prior
testimony as evidence must demonstrate similarity of
motive. United States v. Salerno, 505 U.S. 317, 322
(1992) (finding no exception to MIL. R. EVID.
804(b)(1)’s “similar motive” requirement for admitting
prior testimony). The appellant steers us to United
States v. DiNapoli, 8 F.3d 909 (2nd Cir. 1993), for the
meaning of similar motive to develop testimony. In
DiNapoli, the Second Circuit composed a test for what
constitutes a similar motive at two proceedings:
“whether the party resisting the offered testimony at
a pending proceeding had at a prior proceeding an
interest of substantially similar intensity to prove (or
disprove) the same side of a substantially similar
issue.” 8 F.3d at 914-15. The “relevant though not
conclusive” factors for comparing relative intensity of
interest are “[t]he nature of the two proceedings—
both what is at stake and the applicable burden of
proof—and, to a lesser extent, the cross-examination
at the prior proceeding—both what was undertaken
and what was available but forgone . . . .” Id. at 915.
The context of this analysis in DiNapoli is
revealing. The party resisting admission of the offered
testimony was the government. Id. at 911. The two

70a
proceedings were a grand jury and a trial. Id. A
prosecutor declined to cross-examine a witness at a
grand jury “in order not to reveal the identity of then
undisclosed cooperating witnesses or the existence of
then undisclosed wiretapped conversations that
refuted [the witness’s] denials . . . .” Id. It is logical to
conclude that the lower stakes and burden of proof at
the grand jury prompted the prosecutor to forego that
line of cross-examination. On the other hand, when
the nature of the two proceedings is the same—for
example, testimony on findings at a court-martial—
the prospect of conviction or acquittal is the same, and
the government’s burden of proof is the same. A shift
in cross-examination strategy does little to change the
intensity of the accused’s interest in avoiding
conviction. In fact, the DiNapoli court noted that
“[w]here both proceedings are trials and the same
matter is seriously disputed at both trials, it will
normally be the case that the side opposing the
version of a witness at the first trial had a motive to
develop that witness’s testimony similar to the motive
at the second trial.” Id. at 912.
In this case, the military judge found “that the
exception [MIL. R. EVID.] 804(b)1 [sic] regarding
former testimony would apply, making the former
testimony in this prior trial, not the other cases we’ve
heard about, would become [sic] admissible if so
desired by the government to introduce them.”56 This
ruling immediately followed the military judge’s
declaration that three of the appellant’s squad
members were unavailable as witnesses. TC did not
56

Record at 1528.

71a
file a written motion in limine to admit the prior
testimony, nor did they proffer the appellant’s similar
motives to develop the testimony at the first and
second courts-martial on the record. As the appellant
points out, the military judge made no findings of fact
or conclusions of law regarding similarity of motive,
from the bench or in writing.
But again, we presume the military judge
knows and follows the law unless there is evidence to
the contrary. See Erickson, 65 M.J. at 225 (holding
that “[m]ilitary judges are presumed to know the law
and to follow it absent clear evidence to the contrary”).
And here we find no evidence to the contrary,
particularly in light of our de novo review of the
similarity of motives. The government sought to
introduce the prior testimony of witnesses to prove the
same charges against the same accused in the same
forum—a contested general court-martial. Even the
DiNapoli court would agree that the motive to develop
that testimony would normally be the same. 8 F.3d at
912. The appellant fails to rebut that expectation of
similarity.
On the record, TDC argued that the defense
team at the first trial was ineffective. TDC further
contended that “different charges pending, different
theories of the government and defense, and different
motivations and strategic decisions made by both
counsel” negated the appellant’s prior confrontation of
the witnesses.57 In his brief, the appellant alleged that
his first trial defense counsel team “explicitly
57

Id. at 1642.

72a
conceded nearly all of the charged offenses.”58 But all
of the charges referred to the appellant’s second courtmartial were also referred to his first court-martial.
Housebreaking and kidnapping fell off the charge
sheet,
and
premeditated
murder
became
unpremeditated murder, but the appellant was still
accused of murder and conspiracy to commit murder.
The appellant pleaded not guilty to all charges on both
occasions. TDC offered no evidence that the intensity
of the appellant’s interest in fighting for his life
against murder charges differed from one trial to the
next. “A shift in the theory of the case does not defeat
admissibility when the underlying liability remains
the same, thereby guaranteeing cross-examination
with the same purpose . . . .” 5-804 Weinstein’s Federal
Evidence § 804.04 (2017); see also United States v.
Avants, 367 F.3d 433, 444 (5th Cir. 2004) (finding
that, in a case where the appellant’s “motive was to
discredit a witness . . . whose testimony could, if
believed, convict him,” a change in trial strategy did
not create dissimilarity in motive).
Much of the appellant’s strategy for attacking
his squad mates’ testimony rests on their freshly
sworn
affidavits
renouncing
their
previous
statements to NCIS and earlier testimony as coerced
and false. Nevertheless, the discovery of new evidence
useful to cross-examining a witness does not inject
dissimilarity into the comparison of motives. “The
‘similar motive’ requirement is satisfied if counsel had
the opportunity to cross-examine the witness without
restriction on the scope of the examination even
58

Appellant’s Brief at 46.

73a
if counsel subsequently discovers information which
was not available at the [previous] hearing.” Trank,
2013 CCA LEXIS 985, *13-14 (citation omitted); see
also United States v. Hubbard, 28 M.J. 27, 32 (C.M.A.
1989) (reiterating that “admissibility of former
testimony is not precluded because, after the giving of
that testimony, material information is obtained as to
which the defense had no opportunity to crossexamine the absent witness”). Nothing prevented the
appellant’s first trial defense counsel team from
exploring the circumstances under which the squad
members made their statements to NCIS then
negotiated immunity and favorable pretrial
agreements in return for testifying at other courtsmartial, including the appellant’s.
Comparing his two trial defense teams in
hyperbolic terms, the appellant tries to elevate
difference in strategy to a difference in motive. The
difference in strategy manifested in the zeal with
which the trial defense teams sought to discredit the
squad members’ testimony. But the purported
unreliability of testimonial evidence alone will not
prevent its admission, even under MIL. R. EVID.
804(b)(1). Our superior court has declined to suppress
testimonial evidence based on credibility concerns
alone because “factual reliability does not have to be
established as a prerequisite for admitting hearsay
evidence pursuant to a well-recognized hearsay
exceptions.” See Hubbard, 28 M.J. at 33.
While we have no findings of fact from the
military judge, the appellant does not dispute that his
first defense counsel team had the opportunity to
cross-examine all four witnesses later declared

74a
unavailable. The charges the appellant faced at his
first court-martial and his not guilty pleas are not
subject to debate. The appellant has not introduced
evidence sufficient to overcome those undisputed
facts. The military judge also cited the correct rule,
MIL. R. EVID. 804(b)(1), in admitting the testimonial
evidence, and his ruling does not run afoul of the
appellant’s preferred legal standard in DiNapoli:
“whether the party resisting the offered testimony at
a pending proceeding had at a prior proceeding an
interest of substantially similar intensity to prove (or
disprove) the same side of a substantially similar
issue.” 8 F.3d at 914-15. Finding interests of
substantially similar intensity at both courts-martial
to dispute a substantially similar set of testimony and
disprove a substantially similar set of charges, we find
no abuse of discretion in the military judge’s
admission of the four unavailable squad members’
former testimony.
C. UCI
The appellant alleges that public statements
made by then-Secretary of the Navy (SECNAV) Ray
Mabus constituted UCI on the appellant’s clemency
proceedings, appellate review, and second courtmartial.
We review allegations of UCI de novo. United
States v. Salyer, 72 M.J. 415, 423 (C.A.A.F. 2013).
Article 37(a), UCMJ, prohibits unlawful
influence on the military justice process by someone
in a position of authority:
No authority convening a general,
special, or summary court-martial, nor

75a
any other commanding officer, may
censure, reprimand, or admonish the
court or any member, military judge, or
counsel thereof, with respect to the
findings or sentence adjudged by the
court, or with respect to any other
exercises of its or his functions in the
conduct of the proceedings. No person
subject to this chapter may attempt to
coerce or, by any unauthorized means,
influence the action of a court-martial or
any other military tribunal or any
member thereof, in reaching the findings
or sentence in any case, or the action of
any convening, approving, or reviewing
authority with respect to his judicial
acts.
10 U.S.C. § 837(a) (2012).
Interpreting Article 37, UCMJ, in light of case
law explored infra, we can distill something of a
formula for facts constituting UCI: (1) a government
actor (2) takes action which influences or appears to
influence (3) a decision-maker in the court-martial
process. The affected decision-maker might be a
potential court-martial member, CA, or military
judge. In his analysis of alleged UCI in this very case,
former Chief Judge Baker of the CAAF set out the
following factors in the context of a government actor
making a public statement: the comments’ intended
audience, the intended and larger audience’s
perception of the comments, existence of an intent to
influence a proceeding’s outcome, the implicit or
explicit threat of repercussions for dissent, and

76a
regardless of any intent, an effect of influencing
outcome or actors. Hutchins IV, 72 M.J. at 313 (Baker,
C.J., dissenting). These factors, while admittedly not
binding, are instructive. The potential influence is
unauthorized or unlawful because through “censure,
reprimand, or admonish[ment]”59 or something
similar, a government actor manipulates, interferes
with, or improperly strips the actors in the courtmartial process of their independence.
To show prejudice or compromise of the
military justice process, a complaining party must tie
these facts constituting UCI to some effect. “In cases
involving [UCI], the key to our analysis is effect—not
knowledge or intent” of the government actor. United
States v. Boyce, 76 M.J. 242, 251 (C.A.A.F. 2017). The
effect may be actual prejudice to the complainant or
the appearance of it. The prejudice may be
unforeseen, accidental collateral damage, but it
nevertheless results from—or in the case of apparent
UCI, appears to result from—governmental
interference in the military justice process. See United
States v. Stombaugh, 40 M.J. 208, 211 (C.A.A.F. 1994)
(focusing on “interference with the substantial rights
of the accused” in analyzing allegations of UCI).
1.

Actual UCI

“[A]ctual [UCI] has commonly been recognized
as occurring when there is an improper manipulation
of the criminal justice process which negatively affects
the fair handling and/or disposition of a case.” Boyce,
76 M.J. at 247 (citations omitted). An appellant has
the initial burden of raising UCI by showing: (1) “facts
59

Art. 37(a), UCMJ.

77a
which, if true, constitute [UCI];” (2) “that the
proceedings were unfair;” and (3) “that UCI was the
cause of the unfairness.” United States v. Biagase, 50
M.J. 143, 150 (C.A.A.F. 1999). The evidentiary
standard for raising the issue of UCI is “some
evidence.” United States v. Stoneman, 57 M.J. 35, 41
(C.A.A.F. 2002); United States v. Ayala, 43 M.J. 296,
300 (C.A.A.F. 1995). The appellant’s burden of proof is
low, but it must be more than mere allegations or
speculation. Stoneman, 57 M.J. at 41. The appearance
of evil is not enough to justify action by an appellate
court in a particular case or, said another way, “[p]roof
of command influence in the air” will not suffice.
Stombaugh, 40 M.J. at 213 (internal quotation marks
omitted) (alteration in original).
If the appellant raises some evidence of UCI the
burden shifts to the government to rebut the
allegation by persuading the court, beyond a
reasonable doubt, that: (1) the predicate facts do not
exist; (2) the facts do not constitute UCI; (3) the UCI
did not affect the findings or sentence; or (4) if on
appeal, by persuading the appellate court that the
UCI had no prejudicial impact on the court-martial.
Salyer, 72 M.J. at 423; Biagase, 50 M.J. at 151.
2.

Apparent UCI

“Even if there [is] no actual [UCI], there may be
a question whether the influence of command placed
an ‘intolerable strain on public perception of the
military justice system.’” Stoneman, 57 M.J. at 42-43
(quoting United States v. Wiesen, 56 M.J. 172, 175
(C.A.A.F. 2001)). Unlike actual UCI, which requires
prejudice to the accused, “no such showing is required

78a
for a meritorious claim of an appearance of [UCI].
Rather, the prejudice involved . . . is the damage to the
public’s perception of the fairness of the military
justice system as a whole[.]” Boyce, 76 M.J. at 248. An
appellant raises a claim of apparent UCI by
demonstrating (1) “facts, which if true, constitute
[UCI];” and (2) that “this [UCI] placed an ‘intolerable
strain’ on the public’s perception of the military justice
system because ‘an objective, disinterested observer,
fully informed of all the facts and circumstances,
would harbor a significant doubt about the fairness of
the proceeding.’” Id. at 249 (quoting United States v.
Lewis, 63 M.J. 405, 415 (C.A.A.F. 2006)). As with
actual UCI, the appellant must show “some evidence”
greater than “mere allegation or speculation.”
Biagase, 50 M.J. at 150. Some evidence of UCI will
again shift the burden to the government to disprove
one prong or the other beyond a reasonable doubt.
Boyce, 76 M.J. at 249-250.
With this framework for analyzing UCI in
mind, we turn to the facts of the case before us.
3.

SECNAV’s statements to the media

The appellant identifies SECNAV as the
singular source of the UCI allegedly impacting him. It
appears SECNAV became personally involved in the
appellant’s case two years after his first court-martial.
The appellant approached some of his congressional
representatives and requested they solicit clemency
from SECNAV on his behalf.60 As later reported in the
media, SECNAV reviewed the records of the
Hamdaniyah courts-martial, denied the appellant’s
60

AE LXXXVIII at 78.

79a
request for clemency, and ordered that his four most
junior squad members be administratively separated
from the Marine Corps and Navy and that the squad
lieutenant be ordered to show cause why he should
remain in the Marine Corps.
These were acts outside the court-martial
process
and
within
SECNAV’s
authority.
Administrative separation is not an authorized courtmartial punishment.61 SECNAV was and is the
highest separation authority in the Marine Corps and
the Navy.62 We will discuss SECNAV’s role and
authority in granting clemency below. But it is
SECNAV’s
public
announcement
of
these
administrative actions and his reasons for them that
form the basis of the appellant’s UCI claims.
In November 2009, SECNAV gave interviews
about his recent administrative actions regarding the
appellant and other members of his squad implicated
in the killing at Hamdaniyah. The appellant attached
two of the resulting news articles to his Motion to
Dismiss for UCI: one printed in The Marine Corps
Times and one printed in The North County Times, a
San Diego regional newspaper.63 From the newspaper
articles, we can conclude that SECNAV’s audience
was Marines, the Marine Corps community, and
R.C.M. 1003(b)(8).
See Marine Corps Separation and Retirement Manual at ¶¶
1002.51, 6002.17, 6214.1 (Ch-2, 6 Jun 2007); Naval Military
Personnel Manual, Art. 1910-704 (22 Aug 2002).
63 AE LXXXVIII at 74-78 (Gidget Fuentes, SecNav: No Clemency
in Iraqi murder plot, THE MARINE CORPS TIMES, Nov. 17, 2009;
Mark Walker, Navy Secretary boots 4 Pendleton troops involved
in Iraqi’s killing, THE NORTH COUNTY TIMES, Nov. 17, 2009).
61
62

80a
specifically, the community
Pendleton, California.

surrounding

Camp

One article quoted SECNAV on his reasons for
denying the appellant’s clemency request: “‘I thought
that it was a sentence commensurate with the crime,’”
and “a senior Marine Corps commander’s” reduction
of the appellant sentence from 15 years to 11 years
“‘shows greatly substantial clemency already.’”64 The
reporter later identified that senior Marine Corps
commander as then-Lieutenant General James
Mattis, the CA. The article went on to share
SECNAV’s impression of the case:
Mabus said he was surprised to learn
that the killing was “so completely
premeditated, that it was not in the heat
of battle that not only was the action
planned but the cover-up was planned,
and that they picked somebody at
random, just because he happened to be
in a house that was convenient. He was
murdered.”
“It wasn’t somebody coming apart under
pressure. It wasn’t in the middle of
action, in the middle of battle,” the
[SECNAV] said. “It was completely
planned and completely executed. . . .
That was disconcerting.”65
The remainder of the article addressed
SECNAV’s concurrent decision to order the
64
65

Id. at 74 (Fuentes, SecNav: No Clemency in Iraqi murder plot).
Id. at 75 (Fuentes, SecNav: No Clemency in Iraqi murder plot).

81a
administrative separations of LCpl Jackson, LCpl
Shumate, PFC Jodka, and HM3 Bacos, and his order
that the squad lieutenant show cause why he should
remain in the Marine Corps.
The second article led with SECNAV’s orders
that the four junior squad members be
administratively separated and that the lieutenant
show cause.66 While the second article reported
SECNAV’s decision to deny clemency to the appellant,
it contained no comments from SECNAV about the
appellant’s clemency request. The reporter quoted
SECNAV about the squad members more generally:
“None of their actions lived up to the core
values of the Marine Corps and the Navy
. . . . This was not a ‘fog of war’ case
occurring in the heat of battle. This was
carefully planned and executed, as was
the cover-up. The plan was carried out
exactly as it had been conceived.”67
The second reporter then quoted military law
experts and two of the junior squad members’ defense
counsel on their reaction to the ordered
administrative separations.
SECNAV, a government actor capable of UCI,68
informed the Marine Corps community and the
Id. at 77 (Walker, Navy Secretary boots 4 Pendleton troops
involved in Iraqi’s killing).
67 Id. at 77 (Walker, Navy Secretary boots 4 Pendleton troops
involved in Iraqi’s killing).
68 SECNAV is neither a CA nor a commanding officer, and is not
subject to the UCMJ, thus Article 37, UCMJ, does not appear to
66

82a
general public of administrative actions he had taken
toward Marines and a Sailor implicated in the killing
at Hamdaniyah, all but one of whom had previously
been convicted at court-martial. The question before
this court, then, is whether SECNAV’s public
pronouncements amount to “censure, reprimand,
admonish[ment]” of, or an attempt to threaten, coerce,
or influence, another player in the court-martial
process.69 As this is not the first case in which a senior
official has spoken out about a high visibility issue, we
look at two earlier cases resulting in similar
allegations of UCI.
In 1998, a Marine Corps aircraft struck cables
supporting an alpine gondola near Aviano, Italy; all
20 people in the gondola died. See United States v.
Ashby, 68 M.J. 108, 112 (C.A.A.F. 2009). While a
Marine Corps Command Investigation Board (CIB)
conducted a preliminary investigation, “there was
intense international media coverage of the gondola
incident and unsettled political relations between the
United States and Italy.” Id. at 126. Upon completion
of the preliminary investigation, the general officer
who led the CIB held a press conference announcing
their findings. Id. at 127. The general officer who
ordered the investigation and would later refer
charges against Ashby issued a press release
announcing his agreement with the CIB’s conclusions.
Id. One day after the Article 32, UCMJ, hearing in the
case, the Commandant of the Marine Corps (CMC)
apply to him. The CAAF’s opinion in Boyce, however, clearly
holds that a service secretary can be the source of UCI. 76 M.J.
at 252.
69 Art. 37, UCMJ.

83a
told one of Ashby’s peers that the “mishap crew would
be disciplined if they did anything wrong and that ‘if
someone is guilty, they need to be punished.’” Id.
Behind the scenes, the CMC, CA, the CIB, and other
senior officials exchanged multiple phone calls about
the status of the investigation and its findings. Id. at
126.
Citing pressure on the CIB and multiple public
statements about his case from senior Marine Corps
officials, Ashby raised a claim of UCI. Finding no
actual UCI, the CAAF focused on Ashby’s speculation
vice presentation of actual evidence:
His claims regarding the CIB are
predicated on communications between
the members of the CIB and various
senior military officers. However, he has
failed to show facts which, if true, would
demonstrate that the CIB members were
wrongfully influenced.
....
With regard to Ashby’s claim of [UCI]
arising from the other actions by
senior military officials, including the
Commandant, Ashby has not pointed to
any . . . specific facts that the courtmartial process was tainted by unlawful
command influence. Because of the
highly publicized international nature of
the incident, it is understandable that
many senior military officials became
publicly involved in the aftermath and
investigation of the accident. However,

84a
there is no direct evidence that the
actions of any of those officials
improperly influenced Ashby’s courtmartial.
Id. at 128-29. Nor did the CAAF find some
evidence of apparent UCI in the public statements. Id.
at 129.
While not necessarily an international
incident, the issue of sexual assault was one of the
highest visibility issues in the military in 2012. The
CMC embarked on a four-month tour of Marine Corps
installations, delivering what was coined the
“Heritage Brief” to as many Marine officers and staff
noncommissioned officers as he could reach. United
States v. Howell, 2014 CCA LEXIS 321, at *3 (N-M.
Ct. Crim. App. 22 May 2014). In the brief, the CMC
stressed the legitimacy of 80% of sexual assault claims
and the underreporting of sexual assaults. Id. at *6*7. He expressed his deep disappointment in Marine
Corps court-martial members, among others, for
becoming soft and retaining Marines who commit
misconduct instead of holding them accountable and
getting rid of them. Id. at *7-*8. Howell’s courtmartial for sexual assault was pending at Parris
Island, South Carolina, when the CMC delivered the
Heritage Brief there, id. at *3-*4, and the Heritage
Brief was the subject of national media coverage the
week before the members reported for the trial. Id. at
*11.
On appeal, this court found some evidence of
UCI in the CMC’s remarks about sexual assault in the
Marine Corps and the need to hold those who commit

85a
sexual assault accountable. Id. at *28. Voir dire of the
members revealed that:
eight of the eleven members attended
the Heritage Brief; many had also either
read White Letter 2-1270 or the media
coverage; virtually all acknowledged a
high degree of deference to the CMC,
particularly when he holds a strong
opinion on a topic; they recalled the
Heritage Brief primarily focusing on two
things
–
sexual
assault
and
accountability; almost all remembered
and accepted as true the CMC’s
statement that 80% of sexual assault
allegations are legitimate; and, most
would characterize the CMC as
unhappy, frustrated, or disappointed in
his officers and senior enlisted for their
failure to hold Marines accountable.
Id. at *14. This court concluded that the three
military judges presiding over the case had failed to
cure the appearance of UCI by not excusing more of
the members or rehabilitating them through curative
instruction. Id. at 35-37. A more carefully vetted panel
of members, instructed on their independence as fact
finders, could have tried the case with an objective
outsider’s confidence in the integrity of the process.
But this court did not believe the Heritage Brief in and
In conjunction with the Heritage Brief tour, the CMC issued
White Letter 2-12, addressed to all Marines, announcing a
Marine Corps-wide campaign to address sexual assault and his
expectation that leadership be engaged in addressing it. Howell,
2014 CCA LEXIS 321, at *9.
70

86a
of itself was fatal and necessitated dismissal of the
charges with prejudice. Id. at *37-38; see also id. at
*39 (Ward, S.J. concurring) (agreeing with the
majority that the Heritage Brief does not create an
appearance of UCI per se).
Returning to the case at bar, we look for
evidence of actual influence or some effect that
suggests influence on military justice proceedings. In
this case, SECNAV publicized administrative actions
he had already taken or ordered while the appellant’s
court-martial was still pending appeal before this
court in November 2009. But SECNAV made no
mention of a pending appeal. He cited the findings of
the courts-martial as justification for the
administrative actions he had already taken.
The appellant accuses SECNAV of deliberately
misrepresenting the facts and findings of his case in
the articles. SECNAV described the killing as
premeditated, contrary to the appellant’s acquittal of
premeditated murder. But in light of the appellant’s
concurrent conviction for conspiracy to commit
murder,
we
cannot
impugn
intentional
misrepresentation to his use of the word
“premeditated.” SECNAV also appeared not to have
interpreted the appellant’s acquittal of housebreaking
and kidnapping as an acquittal of a conspiracy to
murder a random Iraqi man. In light of our analysis
of that issue above, we also decline to find SECNAV’s
lack of precision intentionally deceptive.
SECNAV’s words of “censure, reprimand, or
admonish[ment]”71 were reserved for the appellant,
71

Art. 37, UCMJ.

87a
his squad members, and the squad lieutenant. To the
extent SECNAV rebuked earlier decisions to retain
the three junior Marines and the Sailor, he indirectly
criticized
administrative
separation
decisions
separate and distinct from the court-martial process.
But there were no expressions of disappointment or
frustration with CAs, members, or anyone else
referring or adjudicating charges at courts-martial.
Although SECNAV’s comments, excerpted
from the November 2009 articles, have been
repeatedly reproduced in numerous publicly available
print and online articles, the record reveals no new
comments or actions from SECNAV regarding the
appellant since the interviews in November 2009.
Other than a vague reference to requests for
information about the status of the appellant’s second
court-martial from “the Secretariat” in a staff judge
advocate’s routine email correspondence,72 there is no
evidence of SECNAV, or anyone acting on his behalf,
directly contacting anyone, in or out of the
Department of the Navy, about the appellant or this
case. In fact, the appellant alleges that SECNAV’s
subordinates were influenced by nothing more than
their awareness of their superior’s opinions from these
articles. In his brief, the appellant repeatedly alleges
that subordinates bowed to SECNAV’s influence
because they “were aware of Secretary Mabus’
comments.”73
4.

72
73

Decision-makers allegedly influenced

AE LXXXIII.
Appellant’s Brief at 63.

88a
We turn now to government actors and
entities who subsequently made a recommendation, a
decision, a ruling, or took some action related to the
appellant’s first or second court-martial. Assuming
without deciding that the appellant has alleged facts
constituting UCI in SECNAV’s words alone, we
proceed with the Biagase and Boyce tests. To find
actual UCI, we must find “that the proceedings were
unfair” and “that [UCI] was the cause of the
unfairness.” Biagase, 50 M.J. at 150. To find apparent
UCI, we must find that “an objective, disinterested
observer, fully informed of all the facts and
circumstances, would harbor a significant doubt about
the fairness of the proceeding.” Boyce, 76 M.J. at 249
(citation and internal quotation marks omitted).
a. Naval Clemency and Parole Board
(NC&PB)
The appellant cites “denied clemency/parole in
Jan 2010” as the first of the “unfair actions” resulting
from SECNAV’s comments.74
Clemency is available to service members
primarily through three statutory avenues: Article 60,
UCMJ; Article 74, UCMJ; and 10 U.S.C. § 953. Article
60, UCMJ, requires a CA to consider matters an
accused submits in clemency before taking action on
the findings and sentence of a court-martial. At the
time of the appellant’s first court-martial, the CA had
unfettered authority under Article 60, UCMJ, to
“disapprove, commute, or suspend the sentence in

74

Id. at 61.

89a
whole or in part.”75 Under Article 74(a), UCMJ: “The
Secretary concerned and, when designated by him,
any Under Secretary, Assistant Secretary, Judge
Advocate General, or commanding officer may remit
or suspend any part or amount of the unexecuted part
of any sentence, including all uncollected forfeitures
other than a sentence approved by the President.”
Pursuant to 10 U.S.C. § 953, SECNAV maintains the
NC&PB as his system for granting clemency.76
With a few inapplicable exceptions, SECNAV
has delegated his authority to act in matters of
clemency and parole to the Assistant SECNAV for
Manpower and Reserve Affairs (ASN(M&RA)).77 The
NC&PB is composed of a civilian director and four
senior officers representing communities in the
Marine Corps and Navy.78 The board’s mission is to
“act for or provide recommendations or advice to
SECNAV in the issuance of decisions regarding
clemency or parole matters[.]”79 Among the board’s
functions is to “submit to SECNAV, with
recommendation for final action . . .
(a)
Cases in which SECNAV or a
designee has indicated in writing an
official interest. . . .

Art. 60(c)(2), UCMJ. The appellant’s CA reduced his sentence
to confinement from 15 years to 11 years pursuant to his Article
60, UCMJ, authority.
76 Secretary of the Navy Instruction (SECNAVINST) 5815.3J (12
Jun 2003).
77 Id. at ¶ 205 (emphasis omitted).
78 Id. at ¶ 307.
79 Id. at ¶ 306.
75

90a
(d) Any individual whose clemency
may be the subject of controversy or
substantial congressional or press
interest as determined by SECNAV
or a designee . . .
(e) Cases in which the NC&PB
recommends clemency for any
offender
whose
approved
unsuspended, [sic] sentence to
confinement is in excess of 10 years .
. . .”80
Clemency and parole are not rights but
decisions within the NC&PB’s and SECNAV’s
discretion.81 While consideration of clemency is part of
the post-trial process, it is considered an executive,
not a judicial function. See United States v. Healy, 26
M.J. 394, 395-96 (C.M.A. 1988).
Given SECNAV’s statutory authority to grant
or deny clemency, we are skeptical that his influence
over the process, assuming he had any, was
inappropriate, much less unlawful. As Chief Judge
Baker wrote in his dissent in Hutchins IV, “[SECNAV]
would be hard pressed to exercise unlawful command
influence over the NC&PB clemency decision over
which he retains sole discretion with the sort of public
comments attributed to him in this case.” 72 M.J. at
317 (Baker, C.J., dissenting). Judge Ryan, in her
concurring opinion in Hutchins IV, acknowledged that
“SECNAVINST 5815.3J limits the NC&PB’s role in
Appellant’s clemency process to one that merely
80
81

Id. at ¶ 308.a.(6) (emphasis omitted).
Id. at ¶ 308.a and b.

91a
advises the Secretary on a matter committed, by
statute, to his discretion.” Id. at 303 (Ryan, J.
concurring in the result). The appellant accuses
SECNAV of interfering in his own process by
revealing his opinion to his own advisers. If
SECNAV’s public comments are the source of UCI, the
revelation of the opinion, not the manner in which
SECNAV reached it, is the issue. Assuming without
deciding that SECNAV could inappropriately
influence his own advisers by communicating a
decision to them, we evaluate the evidence in light of
the tests in Biagase and Boyce.
The appellant offers no evidence as to why a
decision to deny him clemency or parole was unfair.
He simply includes it in a list of unfavorable actions
and decisions made since November 2009 that he
characterizes as “unfair.”82
Moving to the third Biagase factor, causation,
the appellant alleges that the NC&PB reversed course
and recommended no clemency—when they had
previously recommended a six-year reduction in
confinement—because they were “aware” of
SECNAV’s opinion.83 First, that argument rests on
the unsupported assumption that board membership
was constant from 2009 to 2010. But more important,
the government presented evidence undermining the
purported effect of SECNAV’s statement. TC
presented the acting ASN(M&RA)’s 10 March 2009
memorandum notifying the President of the NC&PB
82
83

Appellant’s Brief at 61.
Id. at 63.

92a
of his disagreement with the board’s recommendation
and denial of any clemency for the appellant.84
In his Motion to Dismiss for UCI, the appellant
detailed his further requests for clemency and the
results. In June 2010, the appellant was released from
confinement following this court’s decision to set aside
his conviction. After being ordered back into
confinement in February 2011, the appellant filed a
special request for clemency with the NC&PB. The
board recommended reducing the appellant’s sentence
by 251 days, and the acting ASN(M&RA) approved. 85
The NC&PB subsequently recommended parole in
June 2011, but the new ASN(M&RA) disapproved. A
year later, the NC&PB recommended against
clemency and parole, but then in 2013, the board
recommended granting parole. ASN(M&RA) rejected
the recommendation.86 This fluctuation further
undermines any reasonable expectation of consistency
in recommendations from year to year.
Looking at the facts presented by both the
appellant and the government, we do not see “some
evidence” that the appellant’s proceedings for
requesting clemency were unfair or that the appellant
was denied additional clemency because of SECNAV’s
public statements. ASN(M&RA) rejected NC&PB’s
recommendation for clemency in March 2009 and
communicated his decision directly to the President of
the NC&PB. The appellant has failed to demonstrate
how SECNAV subsequently interfered with the
AE LXXXIX at 23.
AE LXXXVIII at 8.
86 Id. at 8-9.
84
85

93a
process or inappropriately influenced the NC&PB by
reaching the identical decision eight months later and
indirectly communicating it to the NC&PB via the
media.
Turning to apparent UCI of the NC&PB, we
note that a member of the CAAF previously concluded
that “[n]o member of the public, aware of the remarks
made and the change in clemency recommendation
that occurred, could fail to harbor grave concerns that
the
change
in
the
NC&PB’s
clemency
recommendation was directly related to the
Secretary’s intemperate remarks about Appellant[.]”
Hutchins IV, 72 M.J. at 302-03 (Ryan, J. concurring in
the result). However, it appears Judge Ryan reached
her conclusion without the benefit of ASN(M&RA)’s
March 2009 memorandum, which the government
subsequently submitted during the appellant’s second
court-martial. In light of that evidence, we are
convinced, beyond a reasonable doubt, that the
government has dispelled any notion that “[UCI]
placed an intolerable strain on the public’s perception
of the military justice system because an objective,
disinterested observer, fully informed of all the facts
and circumstances, would harbor a significant doubt
about the fairness of the proceeding.” Boyce, 76 M.J.
at 249.
When the appellant raised the effect of UCI on
the NC&PB before his second court-martial, the
government presented ASN(M&RA)’s 10 March 2009
memorandum to the President of NC&PB. In it, he
declined to approve the board’s recommendation to
reduce the appellant’s confinement by six years and
denied any clemency for the appellant. In the routine

94a
correspondence
documenting
his
decision,
ASN(M&RA) went on to respond to the NC&PB’s
recommendation with the following:
Having thoroughly reviewed Private
Hutchins’ case, specifically including the
evidence presented on his behalf, I found
the adjudged sentence to be appropriate
for the murder of an innocent Iraqi
national and the subsequent attempts to
fraudulently cast the incident as an
attack upon United States forces. These
acts represented a significant departure
from the conduct expected of a Marine,
no matter how dire the situation or
circumstances.87
The decision and the comments supporting it
predated SECNAV’s comments by eight months, and
there is no evidence that SECNAV was aware of the
exchange or in any way influenced ASN(M&RA). In
fact, the record suggests that SECNAV only became
involved in the appellant’s case when congressional
members approached him personally on the
appellant’s behalf. Any consultation between
SECNAV and ASN(M&RA) in advance of
ASN(M&RA)’s decision to deny the clemency
recommendation would have defeated the purpose of
SECNAV’s delegation of authority.
Although apparent UCI does not require
evidence of causation, it is the appearance that
SECNAV abruptly derailed the appellant’s prospects
for clemency with his comments that constitutes the
87

AE LXXXIX at 23.

95a
evidence of apparent UCI in this case. ASN(M&RA)’s
unequivocal denial of the appellant’s clemency in
remarkably similar terms, addressed directly to the
board eight months earlier, negates that appearance.
No observer aware of that March 2009 denial can
believe that, but for SECNAV’s comments, the
appellant would have received the NC&PB’s
recommended clemency. To the extent subsequent
NC&PB board members felt chilled against
recommending clemency for the appellant, a
reasonable observer would be hard pressed to
attribute that chilling effect to SECNAV instead of the
senior official who had already disapproved the
recommendation as a matter of due course.
This evidence undermining the appearance
that NC&PB reversed course in response to
SECNAV’s comments also addresses the first of three
points Judge Ryan found bolstered her concerns about
the fairness of the clemency process:
(1) the NC&PB’s dramatic change
following the Secretary’s comments that
Appellant receive no clemency or parole;
(2) the subordinate status of all NC&PB
members to the Secretary, and (3) the
fact that any NC&PB clemency or parole
recommendation would have to be
approved by the [ASN(M&RA)], who was
presumably aware of the Secretary’s
position on this matter.
Hutchins IV, 72 M.J. at 302 (Ryan, J.
concurring in the result) (internal citations omitted).
We respectfully submit that awareness of

96a
ASN(M&RA)’s
March
2009
memorandum
significantly weakens any apparent causal link
between SECNAV’s comments and NC&PB’s change
in recommendation. Second, members of NC&PB are
also subordinate to ASN(M&RA), and they
understand their role is to submit cases like the
appellant’s with recommendations for final action by
ASN(M&RA) or SECNAV. Third, the memorandum
reveals
that
ASN(M&RA)
communicated
a
disinclination to award the appellant clemency eight
months before he presumably learned of SECNAV’s
position on the matter. Thus, for NC&PB, SECNAV’s
comments were less of an influence than an echo.
Finally, someone aware that NC&PB
membership and recommendations are not consistent
from year to year would not expect consistency in the
board’s recommendations. We are convinced beyond a
reasonable doubt that a reasonable observer,
cognizant of all of the facts and circumstances, would
find SECNAV’s comments far less consequential to
subsequent
NC&PB
recommendations,
if
consequential at all. We find that, at the appellant’s
second court-martial, the government successfully
rebutted the appearance of UCI infecting the
NC&PB’s consideration of the appellant’s clemency
requests.
b. The Judge Advocate General
Next, the appellant claims that, following this
court’s decision in Hutchins I, the Judge Advocate
General (JAG) of the Navy succumbed to UCI and felt
compelled to certify the case to the CAAF for further
review.

97a
Pursuant to Article 67, UCMJ, and RULE FOR
COURTS-MARTIAL (R.C.M.) 1203, MANUAL FOR
COURTS-MARTIAL, UNITED STATES (2012 ed.), the JAG
may “forward the decision of the Court of Criminal
Appeals to the Court of Appeals for the Armed Forces
for review with respect to any matter of law.” R.C.M.
1203(c)(1).
On 22 April 2010, this court set aside the
findings and sentence of the appellant’s first courtmartial, citing an improper severance of the
appellant’s attorney-client relationship with one of his
detailed defense counsel. Hutchins I, 68 M.J. at 631.
The record was returned to the JAG for remand to an
appropriate CA with authority to order a rehearing.
Id. Instead, the JAG exercised his authority to certify
issues related to the severance of counsel to the CAAF.
Hutchins II, 69 M.J. at 283-84. The CAAF found that
severance of the appellant’s relationship with one of
his detailed defense counsel did not materially
prejudice his rights and remanded the case to this
court for a new review under Article 66, UCMJ. Id. at
293.
Citing the JAG’s occupation of his billet in
November 2009—a billet in which he was SECNAV’s
direct subordinate—the appellant assumes the JAG
was aware of SECNAV’s comments. The appellant
also offers media reports that the JAG’s advisors
recommended against certification of the case,
presumably to suggest that the JAG acted in
accordance with something other than sound legal

98a
judgment.88 He alleges that “certification of Hutchins
I to CAAF ultimately led to the reinstatement of
Sergeant Hutchins’ convictions, and led to Sergeant
Hutchins serving an additional 29 months of
confinement.”89
Assuming, arguendo, that the JAG was
familiar with the newspaper articles, the appellant
fails to demonstrate that the decision to certify his
case was prejudicial, much less unfair. Had the JAG
not certified the appellant’s case to CAAF, he would
have remanded it to a CA with the authority to order
a rehearing. Ultimately, that happened, after the
CAAF’s decision to set aside the findings and sentence
in Hutchins IV. Attributing an additional 29 months
of confinement to that delay is baseless, as there is no
way to know how the appellant’s rehearing and
subsequent appeals might have unfolded without the
certification. Instead, the JAG acted within his
authority, and the appellant cannot show some
evidence of an unfair proceeding or prejudice resulting
from the JAG’s decision, much less from UCI.
We agree with Chief Judge Baker’s observation
that “subordination, a divergence in staff advice, and
a certification do not alone amount to some evidence
of [UCI]. Rather they reflect the ordinary process of
review and appeal.” Hutchins IV, 72 M.J. at 315
(Baker, C.J., dissenting). There is no cause for an
“objective, disinterested observer, fully informed of all
Regardless of what advice the JAG might have received, his
judgment was sound. The CAAF overturned this court’s decision
based on one of the issues the JAG certified. Hutchins II, 69 M.J.
at 292-93.
89 Appellant’s Brief at 65.
88

99a
the facts and circumstances,” to “harbor a significant
doubt about the fairness of the proceeding.” Boyce, 76
M.J. at 249.
Accordingly, we find that the appellant has
failed to satisfy his initial burden of providing some
evidence of UCI of the JAG.
c. Navy-Marine Corps Court of Criminal
Appeals (NMCCA)
The appellant speculates that three former
judges of this court “desire[d] to validate the Secretary
of the Navy” when they “failed to diligently review the
record and the pleadings, and were predisposed to
affirm the conviction and find that Secretary Mabus
did not engage in [UCI]” in Hutchins III, 2012 CCA
LEXIS 93.90
When the newspaper articles appeared in
November 2009, the appellant’s case was still pending
its first review before this court. Although not
appearing to address the appellate court, SECNAV
publicly shared that, after reading the record of the
appellant’s court-martial, he was convinced the
appellant led his squad in planning, executing, and
covering up the premeditated murder of an Iraqi
civilian. According to SECNAV, the appellant had
received the sentence he deserved. Five months later,
this court set aside the findings and sentence from the
appellant’s court-martial and remanded the case for
rehearing. The CAAF, comprised entirely of judges
outside the Department of the Navy, reversed and
remanded to this court for a new review. Two of the
90

Id. at 69.

100a
three appellate judges on the panel deciding Hutchins
III had concurred in the en banc decision to set aside
in Hutchins I. Hutchins III, 2012 CCA LEXIS 93, at
*1 (opinion by Perlak, S.J. with Carberry, S.J. and
Modzelewski, J. concurring); Hutchins I, 68 M.J. at
631 (Carberry, S.J. and Perlak, J., concurring in the
majority opinion). In Hutchins III, this court affirmed
the findings and sentence, finding no merit in an
allegation of UCI or other AOEs. 2012 CCA LEXIS 93,
at *11, *32.
In addition to presenting some evidence of UCI,
the appellant must also overcome the presumption
that appellate judges “know the law and apply it
correctly.” United States v. Clark, 75 M.J. 298, 300
(C.A.A.F. 2016) (citations omitted). “Without such
evidence, courts will not conclude that a military
judge was affected by unlawful command influence.”
Hutchins IV, 72 M.J. at 314 (Baker, C.J., dissenting)
(citing United States v. Rivers, 49 M.J. 434, 443
(C.A.A.F. 1998)).
To rebut “the presumption of regularity that
applies to the acts of the appellate military judges”91
and demonstrate some unfairness in the appellate
review of his case, the appellant focuses on the content
of the opinion. According to the appellant, the
opinion’s author failed to recite the charges,
specifications, or language of which the appellant was
acquitted, he summarized, instead of quoted,
SECNAV’s statements as published in the articles,
and he “falsely claimed to have granted all the defense
91

Clark, 75 M.J. at 300.

101a
motions to attach UCI-related documents to the
record.”92 From this third, readily provable oversight,
the appellant concludes the panel either failed to read
the record of trial or the pleadings, or knowingly made
a false statement.93 Reading the Hutchins III opinion,
and particularly the UCI analysis, we find no merit in
the appellant’s allegations of impropriety, or
unfairness, at the appellate court level.
The appellant also falls short of demonstrating
some evidence of causation. To tie Hutchins III to
SECNAV’s UCI, the appellant characterizes the
opinion as “a complete validation of Secretary Mabus’
actions and an adoption of his view of the case”94
instead of the full or partial dismissal the appellant
requested.95 Striving to explain how Senior Judges
Perlak and Carberry suddenly abdicated their judicial
responsibility under pressure from SECNAV in
Hutchins III, when they had been comfortable
reversing the convictions in Hutchins I, the appellant
speculates that in April 2010 this court was not yet
aware of SECNAV’s comments. The appellant’s
tangled explanation of whom the UCI affected and
when is nothing more than “mere allegation or
speculation.” Stoneman, 57 M.J. at 41; see also
Hutchins, 72 M.J. at 314 (Baker, C.J., dissenting)
(concluding that the “Appellant has not moved beyond
mere allegation or speculation in demonstrating ‘some
evidence’ that the CCA proceedings were unfair or
affected by unlawful command influence.”).
Appellant’s Brief at 68 (citation omitted).
Id. at 69.
94 Appellant’s Reply of 6 Mar 2017 at 44.
95 Appellant’s Brief at 70.
92
93

102a
Finally, the CAAF’s subsequent decision
setting aside the appellant’s findings and sentence
and authorizing a new trial in Hutchins IV nullifies
this court’s holdings in Hutchins III and any negative
effect the appellant might have suffered therefrom.
He received a new trial. The appellant disputes
mootness by insisting this court shirked its Article 66,
UCMJ, duty to dismiss the charges with prejudice for
factual insufficiency. But the evidence against the
appellant simply did not support a finding of factual
insufficiency. Despite the harmless misstatement
regarding motions to attach in Hutchins III, the
appellant has failed to demonstrate some evidence
that his appeal was unfair or that the appellant judges
ceded their judicial independence in an effort to please
SECNAV. For the same reasons, the appellant has
also failed to demonstrate some evidence that an
objective, disinterested observer, fully informed of all
the facts and circumstances, would harbor a
significant doubt about the fairness of the proceeding.
d. CAs and their staff judge advocates
The appellant avers that the two CAs who
referred charges to his second general court-martial
and rejected his requests for administrative
separation in lieu of trial (SILT) and offers to plead
guilty were compromised by UCI. He asserts that UCI
affected the staff judge advocates (SJAs) who advised
them as well.
To demonstrate the impact of UCI on his CAs
in this case, the appellant proffers evidence that the
CAs were aware of SECNAV’s published statement as

103a
they made decisions propelling the appellant toward
court-martial.
The first of the two CAs, Lieutenant General
(LtGen) Robert Neller, USMC, referred the charges to
the appellant’s second court-martial. In his role as CA,
he also received and ultimately denied appellant’s
requests for release from pretrial confinement,
assignment to desired duties, SILT, and acceptance of
a proposed pretrial agreement.
In an affidavit signed 14 August 2014, LtGen
Neller wrote:
I was generally aware of [sic] the
Secretary of the Navy made some
comment to the press and others in 2009
about the case, but do not know any of
the specifics. This had no influence on
my referral decision. I did not receive
any direct or indirect influences from
any senior officer or official regarding
the handling of this case.96
At an Article 39(a), UCMJ, session on 5 March
2015, LtGen Neller testified that SECNAV’s
comments “had no bearing on anything that [he] did
in relation to this case.”97 According to his testimony
and his electronic correspondence, he consulted only
with his legal counsel about this case. LtGen Neller
referred charges based on his personal knowledge of
the charged events, having been in Iraq at the time,
and his review of statements.98 Excerpts of LtGen
AE LIV.
Record at 698.
98 Id. at 701.
96
97

104a
Neller’s electronic correspondence contain no evidence
that SECNAV or anyone else in LtGen Neller’s chain
of command communicated with him regarding his
decisions.
The appellant alleges that UCI tainted advice
the SJA, Colonel (Col) G, gave LtGen Neller. SJAs,
like military judges, enjoy the presumption of
knowledge of and compliance with the law and their
independent duties, absent evidence to the contrary.
See Ashby, 68 M.J. at 130 (C.A.A.F. 2009) (presuming
that “legal officers properly performed their
professional duties which included independent
review of the evidence and preparation of only those
charges for which they determined probable cause
existed.”). Relying on support from Col G’s electronic
correspondence, the appellant proffers that Col G was
cognizant of SECNAV’s comments, the motion to
dismiss for UCI, requests for information “originating
from the ‘Secretariat,’” and LtGen Neller’s desire for
input from the SJA to the CMC following the reversal
of convictions.
The appellant also alleges that the SJA’s office
and the prosecution “were on the same ‘team’” because
Col G addressed his deputy and the trial counsel as
“Team” in an email asking that defense counsel route
their requests for the CA through trial counsel.99 This
does not amount to evidence that Col G assumed a
prosecutorial role. Nor did the email require Col G to
disqualify himself as the SJA. See United States v.
Chessani, 2009 CCA LEXIS 84, *5-6, *21 (N-M. Ct.
Crim. App. 17 Mar 2009) (affirming apparent UCI
99

Appellant’s Brief at 72.

105a
based on the presence of a disqualified SJA—who had
interviewed
Chessani,
elicited
incriminating
statements from him, and was “intimately involved in
drafting findings and conclusions” about him—when
subordinate SJAs briefed the CA about the case). The
appellant has not presented sufficient evidence to
overcome the presumption of Col G’s compliance with
the law or to demonstrate that Col G or any of the
other SJAs acted as an investigator, military judge, or
counsel in this case and thus should be disqualified.
The appellant also alludes to a memorandum to
the Justice Department requesting testimonial
immunity for one of the appellant’s squad members.
It was likely drafted by TC, reviewed by Col G, and
bore LtGen Neller’s signature. Citing concerns about
the armed forces’ image abroad and difficulties in
renewing the Status of Forces Agreement with Iraq,
the memorandum sought assistance “to reinstate
Sergeant Hutchins’ convictions.”100 LtGen Neller
testified that the wrong words were used in that
statement and clarified his intent was to seek retrial,
not reinstatement of convictions.101 Regardless of the
propriety of references to political concerns or Status
of Forces Agreements, the memorandum provides no
evidence of SECNAV’s influence.
LtGen Neller was relieved by LtGen Kenneth
McKenzie, USMC, who then became the appellant’s
CA. As evidence of the impact of UCI on LtGen
McKenzie, the appellant cites his denial of a SILT
request. The appellant’s SILT request “specifically
100
101

AE LXXXVIII at 151.
Record at 704.

106a
highlighted Secretary Mabus’ comments in detail,
along with referencing Air Force cases of political
retaliation against convening authorities, as
justification for the SILT, in order to restore public
confidence in the independence of convening
authorities.”102 LtGen McKenzie also refused to meet
with the appellant’s civilian defense counsel or to
negotiate a pretrial agreement with him.
In an affidavit, LtGen McKenzie wrote, “I do
not recall any prior specific comments made about this
case by any particular individual, including the
Secretary of the Navy, the Honorable Ray Mabus,
General Hagee and General Conway.”103 Based on his
“independent review of this matter post-referral,”
LtGen McKenzie concurred with the SJA’s Article 34,
UCMJ, advice.104 LtGen McKenzie declared his
independence as a CA, denied any attempts to
influence him, and affirmed his presumption of the
appellant’s innocence and right to a fair trial.105
At the Article 39(a), UCMJ, hearing, LtGen
McKenzie testified to having no recollection of
SECNAV’s comments at the time of their publication
and to learning about them only through the
appellant’s motion to dismiss for UCI. When asked for
his “immediate reaction” to SECNAV’s comments,
LtGen McKenzie testified, “I’m dealing in, you know,
2014, 2015 and they don’t seem to have any bearing
on what I’m going to do and what actions I’m going
Appellant’s Brief at 81 (citation omitted).
AE LVIII at 3.
104 Id. at 4.
105 Id.
102
103

107a
[to] take as the [CA] in the case. So, no, they did not
particularly concern me.”106 LtGen McKenzie
confirmed that he had conducted his own independent
review of the appellant’s case upon assuming
command from LtGen Neller and concurred with the
decision to refer charges.107
With regard to LtGen Neller, Col G, and LtGen
McKenzie, the appellant submits that their
unwillingness to grant his requests for a more
favorable disposition, coupled with their full
knowledge of SECNAV’s opinions in 2009, constitutes
at least some evidence of UCI. Their electronic
correspondence reveals no evidence of influence from
SECNAV or a lack of independence in pursuing the
case.108 But for the briefings and publicity
surrounding the appellant’s motion to dismiss for
UCI, it is unclear whether the CAs would have even
known what SECNAV said. Neither LtGen Neller nor
LtGen McKenzie could have testified more
emphatically about the irrelevance of SECNAV’s
comments to their deliberative process or their
independence of judgment. The appellant has again
fallen short of presenting some evidence of either
unfairness or causation.
Finally, there is not some evidence of apparent
UCI. This case has none of the hallmarks of apparent
UCI identified in Boyce. In Boyce, the CA had drawn
considerable public criticism from Congress and the
media for setting aside sexual assault convictions in
Record at 785.
Id. at 790-91.
108 AE LXXXIII.
106
107

108a
the court-martial of a lieutenant colonel and direct but
quiet criticism from the JAG of the Air Force for
declining to refer charges of sexual assault against an
airman. 76 M.J. at 244-45. The newly confirmed
Secretary of the Air Force directed the Air Force Chief
of Staff to call the CA and present him with two
choices—“voluntarily retire from the Air Force at the
lower grade of major general, or wait for the Secretary
to remove him from his command in the immediate
future.” Id. at 251-52. Within three hours of the call,
the CA decided to retire early. Id. at 252. In formally
requesting retirement, the CA wrote, “[m]y decisions
as a General Court Martial [sic] [CA] . . . have come
under great public scrutiny, and media attention . . .
will likely occur on subsequent sexual assault cases I
deal with.” Id. at 245-46 (internal quotation marks
omitted). The effect on Boyce came ten days later
when the CA referred charges of sexual assault
against him. Id. The CAAF found the appearance of
UCI in the facts preceding the CA’s decision. Id. at
251. They “conclude[d] that members of the public
would understandably question whether the conduct
of the Secretary of the Air Force and/or the Chief of
Staff of the Air Force improperly inhibited [the CA]
from exercising his court-martial convening authority
in a truly independent and impartial manner as is
required to ensure the integrity of the referral
process.” Id. at 252-253; see also United States v.
Gerlich, 45 M.J. 309, 314 (C.A.A.F. 1996) (setting
aside findings and sentence because a general courtmartial CA wrote a letter to his subordinate special
court-martial CA questioning his resolution of a
sexual
assault
allegation
with
nonjudicial

109a
punishment and “request[ing]” that the special courtmartial CA consider further investigation).
In contrast, there is no evidence of implicit or
explicit threats of retaliation, congressional
chastisement, or even a phone call to any of the CAs
in this case at the behest of SECNAV or anyone else.
SECNAV’s disapproval of decisions to retain some of
the appellant’s most junior squad mates, expressed
five years earlier, does not amount to the kind of
“censure, reprimand, or admonish[ment]”109 that
creates an appearance of UCI. Unlike the CA in Boyce,
who was forced to retire for his actions, both LtGen
Neller and LtGen McKenzie affirmed their
unhindered independence and the absence of
SECNAV’s influence from their decisions. Again, the
appellant has offered nothing more than speculation
and allegation. Unfavorable decisions made with
awareness of a five-year-old SECNAV article and
nothing more do not create an appearance of UCI.
e. Military judge
Finally, the appellant alleges that the military
judge, with full awareness of SECNAV’s statements,
made legally unsupported rulings on motions related
to UCI to protect SECNAV and his own postretirement employment in the Department of
Defense.
Absent evidence to
judges enjoy a presumption
their decisions. Rivers, 49
Stombaugh, 40 M.J. at 213
109

Art. 37, UCMJ.

the contrary, military
of resistance to UCI in
M.J. at 443; see also
(holding that the court

110a
would “not presume that a military judge has been
influenced simply by the proximity of events which
give the appearance of command influence in the
absence of a connection to the result of a particular
trial.” (citations omitted)).
It is worth examining a case of unlawful
influence of a military judge for perspective. In Salyer,
prosecutors and a supervisory circuit judge took
action toward the military judge presiding over
Salyer’s court-martial. “Perplexed” by one of the
military judge’s rulings on a pretrial motion, trial
counsel accessed the military judge’s personnel record
looking for evidence of a potential personal bias.
Salyer, 72 M.J. at 420. Trial counsel then questioned
the military judge about personal information from
his file in voir dire and challenged him for actual and
implied bias. Id. Eager to warn the military judge’s
supervisory judge about this unusual turn of events,
one of the senior prosecutors shared the discovered
personal information and plans for voir dire with the
supervisory judge as a courtesy. Id. In a subsequent
conversation between the two judges, the supervisory
judge mentioned the phone call from the prosecutor,
the perplexing ruling, the reaction to it, and the
government’s intent to seek the military judge’s
recusal. Id. at 421. Recusing himself from the case, the
military judge cited “an inappropriate method for
addressing a disagreement with [his] ruling” as cause
for a reasonable person to question his impartiality on
future decisions in the case. Id. at 421-422. The CAAF
agreed with the military judge, finding that “[a]n
objective, disinterested observer, fully informed of
these facts and circumstances, might well be left with

111a
the impression that the prosecution in a military trial
has the power to manipulate which military judge
presides in a given case . . . .” Id. at 427; see also Lewis,
63 M.J. at 414, 416 (finding actual UCI in the
command’s “unlawful effort to unseat an otherwise
properly detailed and qualified military judge” and
ordering dismissal with prejudice because the
government could not render its error harmless). In
Salyer’s case, the government successfully replaced
the military judge.
The appellant offers no evidence of
prosecutorial skullduggery, government efforts to
embarrass, manipulate, or replace the military judge
in this case, or criticism or questions from anyone in
the military judge’s chain of command. Instead, the
appellant attempts to demonstrate unlawful influence
with the military judge’s subordinate position to
SECNAV, his knowledge of SECNAV’s statements
five years earlier, and the rulings he made. Once
again, the appellant’s differing interpretation of the
law and the facts is not evidence of an unfair
proceeding. SECNAV’s position at the top of the
military judge’s chain of command and the theoretical
prospect of downward pressure alone are not evidence
of causation. The appellant implies that the military
judge’s post-retirement employment aspirations with
the Department of Defense and possibly the
Department of the Navy are evidence of UCI. Without
evidence that SECNAV retaliated against—or
rewarded—anyone for their actions resolving the
Hamdaniyah cases, such an implication is bare
allegation and speculation.

112a
While this court does not condone senior
officials making public comments about courtsmartial pending appeal, the appellant has, with one
exception, failed to present some evidence of actual or
apparent UCI on his court-martial proceedings. In the
case of apparent UCI affecting the NC&PB, the
government rebutted the appearance of UCI, and we
are convinced, beyond a reasonable doubt, that an
objective observer, cognizant of all the facts and
circumstances, would not harbor a significant doubt
about the fairness of the clemency process.
D. Apparent UCI from the search of defense
counsel’s office
The appellant argues that apparent UCI
arising from a government search of one of his
detailed defense counsel’s office necessitates setting
aside his findings and sentence and ordering the
government to pay reasonable attorney fees for his
civilian defense counsel.
“‘Where the issue of unlawful command
influence is litigated on the record, the military
judge’s findings of fact are reviewed under a clearlyerroneous standard, but the question of command
influence flowing from those facts is a question of law
that this Court reviews de novo.’” United States v.
Reed, 65 M.J. 487, 488 (C.A.A.F 2008) (quoting United
States v. Wallace, 39 M.J. 284, 286 (C.M.A. 1994)).
The command authorized search at issue arose
and was litigated in a separate case this court has
reviewed and affirmed. United States v. Betancourt,
No. 201500400, 2017 CCA LEXIS 386, unpublished
op. (N-M. Ct. Crim. App. 6 Jun 2017), rev. denied, __

113a
M.J. __, 2017 CAAF LEXIS 1118 (C.A.A.F. Dec. 4,
2017). On 2 May 2014, Criminal Investigative
Division (CID) agents executed a command search
authorization and searched multiple defense counsel
offices within Legal Support Services Section (LSSS)
–West spaces aboard Marine Corps Base Camp
Pendleton, California. Agents suspected a cell phone
belonging to Sergeant Betancourt was in the office of
one of his defense attorneys. Id. at *9-*10. With the
cooperation of the senior trial counsel, three CID
agents searched defense counsel offices, and a fourth
agent recorded video of the search. Id. at *11. “The
agents were professional but extremely thorough,
searching through desk drawers, file cabinets, lockers,
garbage cans, and ceiling tiles. The agents opened
case files, but quickly flipped through the files without
pausing to read documents within the files.” Id. at
*12.
This court found some evidence of apparent
UCI in Betancourt but was “convinced beyond
reasonable doubt that an objective, disinterested
observer, fully informed of all the facts and
circumstances, would not harbor a significant doubt
as to the fairness of [Betancourt’s] court-martial[.]” Id.
at *27. “[T]he government took significant corrective
action after the search to limit disclosure of any
information obtained by CID agents during the
search. This included removing the [senior trial
counsel], the trial counsel, and the investigators from
further involvement with the investigation or courtmartial. . . . The video recording of the search was
secured by order until a special investigating officer
was appointed to review it for potential leakage of

114a
privileged information. Subsequently, the recording
was sealed by the military judge who reviewed it in
camera.” Id. at *27-*28.
Unbeknownst to prosecutors, the command
search authorization was not limited to Sergeant
Betancourt’s counsels’ offices, and the search
extended to the offices of five other defense counsel
not associated with Sergeant Betancourt’s case. Id. at
*11-*12. One of the offices searched belonged to
Captain (Capt) S.L., one of the detailed defense
counsel in the case before us. The appellant’s TDC
filed a motion to disqualify members of LSSS-West
and any CID personnel involved in the 2 May 2014
search, and the parties litigated the impact of the
search on the appellant’s case.
In his written ruling on the motion, the military
judge reached findings of fact supported by the record
that are not clearly erroneous. Returning to his office
after it was searched, Capt S.L. “noticed ‘many books
and binders out of place on the bookshelf’ where his
kept his Hutchins case file, [but] he could not say
whether documents therein were searched.”110 The
four CID agents who participated in the search
testified to only flipping through file folders in search
of the cell phone and not reading the files’ contents.
Review of the video recording of the search of Capt
S.L.’s office111 by the military judge and this court
corroborates the agents’ testimony. The video
indicates that the search of Capt S.L.’s office lasted

110
111

AE LIX at 2 (quoting AE XXXI at 33)
AE LVII.

115a
about five minutes. The agents also testified that they
knew nothing about the appellant’s case.
TC who prosecuted the appellant at his
second court-martial were also not involved in the
search authorization or the search. As documented in
an affidavit, Capt P.M. “played no role in the planning
or execution of the Betancourt Command
Authorization for Search and Seizure.”112 Almost six
weeks after the search, he was assigned to the trial
team in the Betancourt case because the original trial
counsel were disqualified. Despite litigating issues
related to the search in multiple courts-martial, Capt
P.M. never viewed video of the search or discussed it
with the senior trial counsel who facilitated the
search, any of the investigators, or the judge advocate
who conducted the taint review.113 Capt P.M. stated
in his affidavit, “I have not heard, reviewed, seen,
learned, read, or gleaned anything related to Sergeant
Hutchins as a result of the search.”114 The other trial
counsel, Major (Maj) A.W., also swore in an affidavit,
“I have not heard, reviewed, seen, learned, read, or
gleaned anything related to Sergeant Hutchins as a
result of the search.”115 Maj A.W. was stationed in
Austin, Texas, on the day of the search.

AE LIX at 15.
Id. at 15-17. Capt P.M. acknowledged receiving a call from one
of the CID agents after the agent received a call from the
appellant’s civilian defense counsel. The agent did not disclose
any information about the search with Capt P.M. during that
call.
114 Id. at 15.
115 Id. at 18.
112
113

116a
The military judge concluded that the
circumstances of the search of defense counsel offices
raised some evidence of apparent UCI in this case. We
do not dispute that finding, particularly in light of our
similar conclusion in Betancourt. While the military
judge found the government could not disprove the
“predicate facts on which the allegation of UCI is
based[,]” he determined the government had proven
beyond a reasonable doubt that a reasonable person
with knowledge of the relevant facts would not
perceive that the deck is unfairly stacked against the
accused.116
Reviewing the military judge’s legal conclusion
de novo, we also find the government has rebutted,
beyond a reasonable doubt, any notion that “an
objective, disinterested observer, fully informed of all
the facts and circumstances, would harbor a
significant doubt about the fairness of the proceeding”
against the appellant. Boyce, 76 M.J. at 249 (citation
and internal quotation marks omitted). Despite the
government’s troubling intrusion into defense counsel
spaces, the testimony and the video recording of the
search of Capt S.L.’s office provide overwhelming
evidence that any exposure to privileged information
about the appellant’s case, if it occurred, was
momentary, at most. The CID agents who executed
the search were wholly uninvolved with the
appellant’s investigation and therefore would not
have recognized the significance of any information
they might have glimpsed. The agents were subject to
a gag order, prohibiting them from discussing what
Id. at 13-14; see United States v. Morrison, 66 M.J. 508, 51011 (N-M. Ct. Crim. App. 2008).
116

117a
they might have seen with anyone. There is no
evidence to suggest any agent violated that gag order
or that any privileged information about the
appellant’s defense reached the prosecution in his
case. The government has also dispelled, beyond a
reasonable doubt, any suspicion that prosecutors
directed, knew, or even anticipated that CID agents
would gain access to privileged files about the
appellant.
Corrective measures we deemed adequate to
prevent apparent UCI in Betancourt are more than
adequate to protect against apparent UCI in this case,
where the appellant was subject to substantially less
exposure. We find no apparent UCI in this case
stemming from the brief search of Capt S.L.’s office.
E. Recusal of the military judge
The appellant avers that the military judge
erred in refusing to recuse himself based upon actual
and/or apparent bias stemming from (1) UCI, (2) a
conflict of interest with supervisory judges in his
chain of command, and (3) his independent
investigation and ex parte communications.
We review a military judge’s decision not to
recuse himself for an abuse of discretion. United
States v. McIlwain, 66 M.J. 312, 314 (C.A.A.F. 2008)
(citing United States v. Butcher, 56 M.J. 87, 90
(C.A.A.F. 2001)).
R.C.M. 902 details the
disqualification of a military judge:

grounds

(a) In general. Except as provided in
subsection (e) of this rule, a military

for

118a
judge shall disqualify himself or herself
in any proceeding in which that military
judge’s impartiality might reasonably be
questioned.
(b) Specific grounds. A military judge
shall also disqualify himself or herself in
the following circumstances:
(1) Where the military judge has a
personal bias or prejudice concerning a
party . . . .
....
(5) Where the military judge . . . :
(B) Is known by the military
judge to have an interest,
financial or otherwise, that could
be substantially affected by the
outcome of the proceeding . . . .
As with UCI, maintaining public confidence in
the independence and impartiality of military judges
requires us to consider both actual bias and the
appearance of bias as possible bases for
disqualification. See United States v. Quintanilla, 56
M.J. 37, 44-45 (C.A.A.F. 2001). “The first step asks
whether disqualification is required under the specific
circumstances listed in [R.C.M.] 902(b). If the answer
to that question is no, the second step asks whether
the
circumstances
nonetheless
warrant
disqualification based upon a reasonable appearance
of bias.” Id. at 45.
“There is a strong presumption that a judge is
impartial, and a party seeking to demonstrate bias

119a
must overcome a high hurdle, particularly when the
alleged bias involves actions taken in conjunction with
judicial proceedings.” Quintanilla, 56 M.J. at 44
(citation omitted). But “‘[a]ny conduct that would lead
a reasonable man knowing all the circumstances to
the conclusion that the judge’s impartiality might
reasonably be questioned is a basis for the judge’s
disqualification.’” Id. at 78 (quoting United States v.
Kincheloe, 14 M.J. 40, 50 (CMA 1982) (additional
citation and internal quotation marks omitted); see
also R.C.M. 902(a).
The appellant filed a pretrial motion seeking
recusal of the military judge and the entire NavyMarine Corps Trial Judiciary.117 The military judge
denied the motion for recusal without making a
written ruling. In the absence of detailed findings of
fact and conclusions of law on the record, we must
accord his ruling less deference. See Flesher, 73 M.J.
at 312. With the exception of one subsequently mooted
basis for judicial recusal, the appellant has raised the
same purported sources of judicial bias on appeal. We
now parse those allegations for reasonable questions
about the military judge’s impartiality.
1.

UCI

The appellant argues that SECNAV’s UCI and
evidence of its effect on members of this court create
and confirm an actual, or at least apparent, bias
against the appellant in the military judge.
Our superior court has recognized that we test
for apparent bias in violation of R.C.M. 902(a) in
117

AE C.

120a
essentially the same way we test for apparent UCI.
See Lewis, 63 M.J. at 415. “We focus upon the
perception of fairness in the military justice system as
viewed through the eyes of a reasonable member of
the public.” Id. Accordingly, the appellant reiterates
his arguments for finding actual and apparent UCI—
SECNAV’s 2009 comments poisoned the military
justice system adjudicating the appellant, whether
that adulteration manifested as UCI or apparent bias.
Only the requested remedies are different. Instead of
arguing for dismissal of the charges, the appellant
challenges the military judge’s decision not to recuse
himself.
In section C of this opinion, we exhaustively
analyzed the appellant’s allegations of actual and
apparent UCI. Having found no actual or apparent
UCI impacting the appellate court or the military
judge, we necessarily conclude that neither the
military judge, nor the former appellate court judges
who participated in Hutchins I or Hutchins III,
labored under an actual or apparent bias born of
SECNAV’s 2009 comments about this case.
2.
Conflict of interest with the judicial
chain of command
The appellant also asserts that the
military judge suffered from a conflict of interest with
supervisory judges in his chain of command.
R.C.M. 902(b)(5) targets a military judge’s
conflicts of interest by demanding disqualification
when he or she “has a personal interest, financial or
otherwise, that could be substantially affected by the
outcome of the proceeding.” In this context, a personal

121a
interest is “extra-judicial” as opposed to judicial.
Quintanilla, 56 M.J. at 43 (citing Liteky v. United
States, 510 U.S. 540, 549 (1994); In re Corrugated
Container Antitrust Litigation, 614 F.2d 958, 964 (5th
Cir. 1980); In re Boston’s Children First, 244 F.3d 164,
168 (1st Cir. 2001)). The UCMJ acknowledges and
mitigates the personal interest that “results from the
well-recognized effect of fitness-report evaluations on
a military lawyer’s service advancement and
security.” United States v. Mabe, 33 M.J. 200, 205
(C.M.A. 1991) (citations omitted). Article 26(c),
UCMJ, prohibits a CA or any member of a CA’s staff
from “prepar[ing] or review[ing] any report
concerning the effectiveness, fitness, or efficiency of
the military judge so detailed, which relates to his
performance of duty as a military judge.” The Navy
Performance Evaluation System Manual specifically
addresses evaluation of the performance of military
justice duties: “[Fitness reports] on military judges
and appellate judges may properly evaluate their
professional and military performance, but may not
include marks, comments, or recommendations based
on their judicial opinions or rulings, or the results
thereof.”118
With safeguards such as these in place, our
superior court has held that the administration of
military justice by judges subject to a military chain
of command does not present an inherent conflict of
interest. See United States v. Mitchell, 39 M.J. 131,
142 (C.M.A. 1994) (rejecting Mitchell’s argument that
the naval officer fitness report system creates “a
Bureau of Personnel Instruction 1610.10D, Encl (2) at I-3 (1
May 2015).
118

122a
reasonable possibility of a perceived pecuniary
interest of his judges in deciding his case unfairly” as
“simply too speculative and remote to violate the
Constitutional norm” against an appearance of
unfairness). See also United States v. Graf, 35 M.J.
450, 466 (C.M.A. 1992) (affirming the effectiveness of
the UCMJ and Court of Military Appeals in protecting
military judges from conflicts with their own “security
of tenure” and “financial security” in the context of the
military chain of command and performance
evaluation system). Nor does the military justice
system, per se, foster an apparent conflict of interest
in violation of R.C.M. 902(a). See United States v.
Norfleet, 53 M.J. 262, 269 (C.A.A.F. 2000) (holding
“that preparation of fitness reports for appellate
military judges by senior judge advocates does not
create a circumstance in which the impartiality of a
judge might reasonably be questioned under [R.C.M.]
902(a)” (citation omitted)).
An actual or apparent conflict of interest
between a military judge’s rulings and his or her
personal interest in protecting career prospects arises
only in extraordinary circumstances. An example is
when a supervisory judge deviates from the UCMJ,
regulations, and case precedent and affirmatively
questions a subordinate judge’s ruling. See Mabe, 33
M.J. at 205-06 (referring to a memorandum from a
Chief of the Trial Judiciary to a military judge about
the subordinate judge’s sentences as a “military
justice taboo” and concurring that removal of the
offending chief trial judge from the military judge’s
chain of command restored the appellant’s right to a
fair trial and the integrity of the military justice

123a
system). The appellant offers no evidence of
supervisory intrusion on subordinate discretion in
this case.
a. Conflict regarding SECNAV’s alleged UCI and
former appellate judges in the chain of
command
In support of their motion to recuse the military
judge, the appellant conducted voir dire. First, TDC
asked the military judge to detail his chain of
command within the trial judiciary. The military
judge identified Col M.R., the Circuit Judge of the
Western Judicial District, as his immediate superior
and confirmed Col M.R. would sign his next fitness
report. Col M.R. reported directly to the Chief Trial
Judge, who in turn reported to the Chief Judge of the
Department of the Navy. All of the military judges, as
members of the Department of the Navy, were
subordinate to SECNAV.
In response to the basis for the challenge—
SECNAV’s 2009 comments about this case—the
military judge disavowed any memory of them prior
to reading the appellant’s pleadings regarding UCI.
Then he stated:
I profoundly and deeply don’t care what
the Secretary of the Navy thinks as far
as this case goes. . . .
As how it effects [sic] my career, a postcommand senior O-6 who is retiring next
summer, don’t care. Deeply, profoundly
don’t care. Deeply, profoundly don’t care
what [the Chief Trial Judge] or [the

124a
Chief Judge of the Department of the
Navy] would think about it as well.
They are professional colleagues and I
think they would be profoundly
disappointed in me . . . if I took any
action, whatsoever, of speculating about
what they might think. That would be
abdicating my role as a military judge, as
an officer of the Navy, and a member of
the Judge Advocate General [sic] Corps,
and certainly of the California Bar.
. . . I just want to make it clear on the
record that, something that Secretary
Mabus may have said in 2009 has
beyond no bearing on anything that I
might do or might not do in this case.119
To overcome the presumption against a conflict
of interest in the military justice system and the
military judge’s emphatic denial of any personal
interest susceptible to his rulings in this case, the
appellant asserts that the military judge had a
personal interest in not embarrassing his supervisory
judges with adverse findings about them. According to
the appellant, the prospective damage to these senior
judges’ reputations necessitated the military judge’s
recusal. See Norfleet, 53 M.J. at 271 (acknowledging
“[t]here may be cases in which the ruling by a military
judge on an issue would have such a significant and
lasting adverse direct impact on the professional

119

Record at 96.

125a
reputation of a superior for competence and integrity
that recusal should be considered.”).
Motions filed on behalf of the appellant
solicited the military judge to make findings about his
chain of command. The Chief Trial Judge and the
Chief Judge of the Department of the Navy were both
former members of this court and concurred in the
majority opinions in Hutchins III and Hutchins I,
respectively. In his motion to dismiss for UCI, the
appellant asked the military judge “to make
potentially adverse findings against the [Chief Judge
of the Department of the Navy] and [the Chief Trial
Judge] [.]”120 Specifically, the military judge might
have to determine that they “were unlawfully
influenced by Secretary Mabus, and/or had
made/adopted materially false statements.”121 As
previously discussed infra in section C, we do not
impute mendacity to the Chief Judge of the
Department of the Navy and the Chief Trial Judge
from immaterial discrepancies in prior appellate
opinions. Nor do we fault the military judge for failing
to do so.
b. Conflicts involving the military judge’s
immediate supervisor
Col M.R., the military judge’s immediate
supervisor, was the original military judge in this case
before recusing himself during pretrial motions. He
had a personal relationship with another senior
Marine judge advocate likely to testify as a witness in
120
121

Appellant’s Brief at 120.
Id.

126a
litigation of a motion. Nonetheless, the appellant
argued that Col M.R. remained a witness to contested
facts in this case.122 First, in his position as the circuit
judge, Col M.R. possessed investigative materials and
notes relevant to the CID search of defense counsel
spaces in Betancourt, discussed, supra, in section D.
Second, the appellant alleged that Col M.R., after
learning of the appellant’s continued instructor role at
the Marksmanship Training Unit (MTU) aboard
Camp Pendleton, notified the senior Marine judge
advocate with whom he had a personal relationship.
Shortly thereafter, that senior Marine judge advocate
advised his commander to remove the appellant from
the MTU—a transfer the appellant asserts violated
Article 13, UCMJ.
According to the appellant’s motion for recusal,
these allegations necessitate the military judge’s
recusal because (1) a trial judge’s interference in the
duty assignment of an accused appearing before him
“would cause significant damage to the public
perception of the integrity of the military justice
system”123 and must be fully vetted “through witness
testimony at open hearing.”124 But (2) that trial judge,
Col M.R., could not testify if he must appear before his
subordinate military judge. So the subordinate
military judge must recuse himself. Like the military
judge, we decline the appellant’s invitation to resolve
these allegations. Once Col M.R. recused himself from
this court-martial, his own possible bias against the
appellant became irrelevant. The court could and did
AE C at 16.
Id. at 17.
124 Id.
122
123

127a
adjudicate the CID search of defense counsel spaces
and the appellant’s Article 13, UCMJ, motion without
further inquiring into Col M.R.’s possible
involvement. Our review of these two issues,
submitted to us as AOEs, confirms they were
susceptible to resolution without the need to call Col
M.R. to the stand.
A subordinate military judge should disqualify
him or herself from ruling on a credible allegation of
impropriety by a supervisory judge. The desire to
spare a superior such an ordeal does create an
apparent, if not an actual, conflict of interest. But a
party cannot incite a conflict by raising unsupported
and/or irrelevant allegations of judicial misconduct.
In this case, the appellant has not presented
evidence of a credible extrajudicial threat to the
military judge that overcomes the presumption that
his supervisors will follow the law. The prospect of a
conflict of interest in presiding over this case remains
far too speculative and remote to constitute an actual
or apparent conflict of interest necessitating recusal.
3.
Independent investigation / ex parte
communications
The appellant accuses the military judge of
violating the judicial canon prohibiting ex parte
communications and submits this violation as
evidence of bias against the appellant necessitating
his recusal.
In pursuit of the military judge’s recusal, the
appellant levies a serious charge against the military
judge and at least three other current and former

128a
Navy judge advocates. Pursuant to instruction,125 the
military judge’s conduct was governed by the
American Bar Association (ABA) Model Code of
Judicial Conduct. Canon 2.9 of the ABA Model Code
governs ex parte communications:
(A) A judge shall not initiate, permit, or
consider ex parte communications, or
consider other communications made to
the judge outside the presence of the
parties or their lawyers, concerning a
pending or impending matter, except as
follows:
(1) When circumstances require it, ex
parte communication for scheduling,
administrative,
or
emergency
purposes, which does not address
substantive matters, is permitted,
provided:
(a) the judge reasonably believes
that no party will gain a
procedural,
substantive,
or
tactical advantage as a result of
the ex parte communication; and
(b) the judge makes provision
promptly to notify all other parties
of the substance of the ex parte
communication, and gives the
parties an opportunity to respond.

Judge Advocate General’s Instruction 5803.1D at ¶ 7 (1 May
2012).
125

129a
ABA, Model Code of Judicial Conduct, Canon
2.9: Ex Parte Communications (2011 ed.) (internal
asterisks omitted). While the facts of the military
judge’s alleged breach of this canon are necessary to
our analysis of this AOE, we need not determine
whether he actually breached it. “[A]ctivity
inconsistent with standards of judicial conduct does
not mandate recusal unless it rises to the level of a
violation of applicable disqualification standards.”
Butcher, 56 M.J. at 92 (citing R.C.M. 902). Thus we
need only focus on whether the military judge’s ex
parte communications required his disqualification
and recusal.
When an allegation of ex parte communication
forms part of a motion for recusal,
[a] decision on disqualification will
“depend on [1] the nature of the
communication; [2] the circumstances
under which it was made; [3] what the
judge did as a result of the ex parte
communication; [4] whether it adversely
affected a party who has standing to
complain; [5] whether the complaining
party may have consented to the
communication being made ex parte,
and, if so, [6] whether the judge solicited
such consent; [7] whether the party who
claims to have been adversely affected by
the ex parte communication objected in a
timely manner; and [8] whether the
party seeking disqualification properly
preserved its objection.”

130a
Quintanilla, 56 M.J. at 44 (quoting RICHARD E.
FLAMM, JUDICIAL DISQUALIFICATION § 14.3.1 at 411-12
(1996) (footnotes omitted)). Our analysis will focus
primarily on the first four of the eight factors above,
as the last four all inure to the appellant. For clarity,
we will begin with factor 2, the circumstances under
which the communication was made, and then
proceed to the nature of the communication, factor 1.
a. Circumstances under which communications
were made
On 24 September 2014, the appellant’s trial
defense counsel requested the CA approve and
provide logistical support for a site visit to Iraq.126
Upon denial of this request, the appellant filed a
motion to compel a site visit.127 Both the appellant and
the government acknowledged that the appellant’s
previous trial defense team traveled to Iraq and
briefly visited the alleged crime scene in January
2007. In his written ruling denying the motion to
compel a site visit, the military judge noted that “the
current Defense team has access to the files from the
former team which visited the situs—and may consult
with former counsel Lt.Col. [J.S.] who has been made
available by his supervisor.”128
Lieutenant Colonel (LtCol) J.S. was one of the
appellant’s detailed defense counsel at his first courtmartial, and he traveled to Iraq with the appellant’s
original civilian defense counsel in January 2007. By
the time of the second court-martial and the motion to
AE LXIX at 4, 12.
AE LXIX.
128 AE CXXV at 6.
126
127

131a
compel, LtCol J.S. had transitioned from active duty
to the Marine Corps Reserve. He was an Assistant
U.S. Attorney in his civilian capacity and a Reserve
appellate military judge on this court. LtCol J.S. was
the subject of the ex parte communication.
The appellant’s current civilian defense counsel
asked the military judge about LtCol J.S.’s
availability in a telephonic R.C.M. 802 conference on
25 November 2014.129 The military judge explained
that he contacted the Chief Trial Judge to inquire of
this court whether LtCol J.S. could be made available
“to assist the defense based on his prior
representation of Sergeant Hutchins.”130 He went on
to confirm that he and the Chief Trial Judge “agreed
to make sure LtCol [J.S.] is available to assist the
defense.”131
b. Nature of the communications
Proceeding to the nature of the communication,
it was a single telephone call from the military judge
to the Chief Trial Judge. On the record, the military
judge explained that he “contacted [the Chief Trial
Judge] to ensure [the NMCCA] would be sure to wall
[LtCol J.S.] off from any Hutchins matters should the
defense desire to consult with him on their own, (a);
and (b), should the case reach that venue again.”132
LtCol J.S. later testified at an Article 39, UCMJ,
AE C at 40. Details of that R.C.M. 802 conference come from
an affidavit by one of the appellant’s detailed defense counsel,
who was also on the conference call. The appellant submitted the
affidavit in support of his motion for the military judge’s recusal.
130 Id.
131 Id. at 41.
132 Record at 655.
129

132a
session about his knowledge of the ex parte
communications. The then-Chief Judge of this
appellate court called him “and indicated that there
would be an order coming out on this case and that
the trial counsel had reached out to the Chief Judge of
the [Department of the] Navy . . . to confirm that
[LtCol J.S.] could—the level of [LtCol J.S.’s]
participation, and they had some sort of
conversation.”133 LtCol J.S. understood that he was
authorized to “provide information from [his] previous
representation” of the appellant.134 He summarized
the scope of this authority as follows: “So basically I
can sort of dump every single bit of information that I
have regarding the site visit . . . it’s a one-way flow of
communication.” LtCol J.S. understood that the Chief
Judge of the Department of the Navy was the source
of this authority, and the then-Chief Judge of this
appellate court conveyed it to LtCol J.S.
c. What the judge did as a result of the ex parte
communication
Next we consider what the military judge did as
a result of this ex parte communication. From his
written ruling on the appellant’s motion to compel a
site visit, it appears the military judge communicated
to the appellant’s counsel that they could consult with
LtCol J.S. regarding his 2007 site visit. In his
Findings of Fact, the military judge concluded that
the appellant’s “previous Defense counsel were
afforded a site visit to [Hamdaniyah] to survey the
scene, conduct interviews, and investigate the
133
134

Id. at 728.
Id.

133a
circumstances surrounding the event.”135 In a footnote
to this finding, the military judge noted that the
appellant’s former civilian defense counsel was
unavailable for consultation due to the
filing of an ineffective assistance of
counsel (IAC) claim after the first trial.
However, Lt.Col. [J.S.], a reserve judge
at N.M.C.C.A., has been advised by his
supervisors that he may discuss the case
with the Defense and assist them in
interpreting any of the information in
the file.136
The military judge also allowed LtCol J.S. to
testify for the defense in support of their efforts to
compel a subsequent site visit.
In his motion for recusal of the military judge
and again on appeal, the appellant averred that the
military judge’s ex parte communication resulted in
him reaching three “opinions”:
(1) the ineffective assistance of counsel
claim against LtCol [J.S.] and the other
members of the original trial defense
team does not give rise to a conflict of
interest;
(2) the site visit conducted by LtCol [J.S.]
was sufficient for the defense to recover
any desired evidence or witness
testimony; and

135
136

AE CXXV at 3 (footnote omitted).
Id., n.5.

134a
(3) LtCol [J.S.] was concurrently an
appellate judge and, without need to
consult Sergeant Hutchins, a participant
in the defense team; [sic] LtCol [J.S.]
could actively assist the defense
interpretation of evidence and strategy
discussions under the protection of
attorney-client privilege.137
We address these alleged opinions in turn.
First, the appellant alleges that the military judge
relied on the ex parte communication to resolve a
conflict of interest that arguably prevented LtCol J.S.
from assisting with the appellant’s defense team.
During an Article 39(a), UCMJ, session to litigate the
appellant’s motion to compel a site visit, the appellant
identified two conflicts of interest affecting LtCol J.S.:
his position as a Reserve judge on this court and the
ineffective assistance of counsel claim that
extinguished his attorney-client relationship with the
appellant.138 When asked about that ineffective
assistance claim, LtCol [J.S.] disputed suffering a
conflict of interest that prevented him from assisting
the appellant’s new defense counsel. He was able to
“provide the information in a narrative sense” because
the appellate issues for which attorney-client
relationship was waived were irrelevant to the site
visit.139 The military judge did not explicitly address
LtCol J.S.’s purported conflict of interest on the
record, so we do not know the extent to which he
considered the issue, if at all. We find no merit in the
Appellant’s Brief at 123. See also AE C at 18.
Record at 498.
139 Id. at 742.
137
138

135a
appellant’s claim that LtCol J.S. suffered from a
conflict of interest and thus find nothing to resolve.
When our superior court set aside the findings of the
appellant’s first court-martial, his detailed defense
counsel’s effectiveness or lack thereof became moot.
As LtCol J.S. commented in his testimony, his waiver
of his attorney-client privilege in the course of
litigation about his effectiveness did not conflict with
his ability to relay his site visit experience to counsel.
The military judge’s ex parte communications could
not impact a claim with no merit on its face.
Secondly, the appellant alleges that the
military judge’s ex parte procurement of LtCol J.S.’s
assistance allowed him to conclude that the 2007 site
visit was “sufficient for the defense to recover any
desired evidence or witness testimony[.]”140 As will be
discussed below, in section H, the security situation
on the ground in and around Hamdaniyah made a site
visit essentially impossible for any counsel in 2014
and 2015. Instead the military judge faced a more
academic question about counsels’ equality of
opportunity to obtain witnesses and other evidence in
compliance with Article 46, UCMJ. LtCol J.S.’s
availability to the appellant’s defense team was a
factor in evaluating the appellant’s opportunity and
access to evidence. But the appellant was never
entitled to “recover[y of] any desired evidence or
witness testimony,” nor did the military judge ever
reach that conclusion.
Third and finally, the appellant alleges that he
was excluded from the decision to include LtCol J.S.
140

Appellant’s Brief at 123.

136a
in his defense team’s “interpretation of evidence and
strategy discussions under the protection of attorneyclient privilege.”141 Such a characterization overstates
LtCol J.S.’s authorized role in the appellant’s second
defense. Once the appellant’s first court-martial was
forwarded for appellate review, LtCol J.S.’s attorneyclient relationship with the appellant ended.142 LtCol
J.S. testified to clear guidance from the then-Chief
Judge of this court that he “cannot get involved in
tactical decisions, strategic decisions, in giving [the
appellant’s defense team] theories of defense . . . .”143
His disclosures to the new defense team were a “oneway street” in which both he and the new counsel were
obligated to protect attorney-work product from their
respective representations of the appellant.144
Thus we decline to find that the military judge’s
ex parte communications spawned any of these
“opinions.”
d. Whether the communications adversely
affected a party who has standing to complain
Turning to the fourth Quintanilla factor, we
consider any adverse effect of the ex parte
communication on the appellant. Beyond the three
purported opinions, the appellant alleges that the
“‘availability’ of LtCol [J.S.] was a key basis for the
military judge’s denial of the defense request for a site
visit.”145 Allegedly, this amounted to apparent bias
Id.
Record at 742.
143 Id.
144 Id. at 729-30, 742.
145 Appellant’s Brief at 124 (citation omitted).
141
142

137a
against the appellant in that “as a matter of public
perception, the appearance is that the military judge’s
independent
investigation
and
ex
parte
communications were made for the express purpose of
gathering evidence to support a denial of the defense
motion.”146
But the facts again rebut the appellant’s
characterization. “[A] reasonable man knowing all the
circumstances” would not reasonably question the
judge’s impartiality. Quintanilla, 56 M.J. at 78. As
will be explained in greater detail below in section H.,
the security situation in and around Hamdaniyah, not
LtCol J.S.’s availability, precluded a site visit. Even if
the military judge had ordered a site visit, witness
testimony cast significant doubt on its enforceability.
The military judge’s ex parte communication served no
other purpose than to facilitate the trial defense
team’s access to a Marine judge advocate who traveled
to Hamdaniyah on the appellant’s behalf in 2007 and
was still within the court’s jurisdiction. But by
procuring LtCol J.S.’s assistance, the military judge
helped restore the balance required by Article 46,
UCMJ, and thus mitigated concerns raised by the
appellant’s subsequent Motion to Dismiss for Denial
of Site Visit, or Alternatively, to Abate Proceedings
Until Such Time As a Site Visit Can be Conducted,
which depended on a violation of Article 46, UCMJ.147
Analyzing the eight Quintanilla factors— (1)
the nature of the military judge’s ex parte
communication, (2) the circumstances surrounding it,
146
147

Id.
AE XCVI.

138a
(3) its consequences, (4) the adverse effect on the
appellant, and (5-8) the appellant’s timely objection
and preservation of the issue at trial—we detect not a
bias against the appellant but an effort to remove
obstacles to his access to evidence.
A reasonable person aware of the military
judge’s ex parte communications, their effect, the
appellant’s
rationale
for
challenging
those
communications, and the subsequent production of
LtCol J.S. would find no cause to question the military
judge’s impartiality. Thus there is no need for
disqualification.
Even in light of the military judge’s brief and
entirely verbal bases for his decisions not to recuse
himself from this case, and the resulting diminution
of our deference to his judgment, we still find no abuse
of discretion.
F. Abatement for severance of attorneyclient relationship
The appellant claims the military judge erred when he
refused to abate the proceedings until the appellant’s
attorney-client relationship with his appellate defense
attorney, Maj S.B.K., was restored. The military judge also
declined to order Maj S.B.K’s appointment as the appellant’s
individual military counsel (IMC).
“A military judge’s failure to abate proceedings
is reviewed for an abuse of discretion.” United States
v. Simmermacher, 74 M.J. 196, 199 (C.A.A.F. 2015)
(citing United States v. Ivey, 55 M.J. 251, 256
(C.A.A.F. 2001)).

139a
An accused’s right to IMC is not absolute but
subject to the discretion of the CA and a
determination of the availability of the requested
counsel. See United States v. Eason, 45 C.M.R. 109,
111 (C.M.A. 1972). “The ruling of a military judge on
an IMC request, including the question whether such
a ruling severed an attorney-client relationship, is a
mixed question of fact and law. Legal conclusions are
subject to de novo review, and findings of fact are
reviewed under a clearly erroneous standard.” United
States v. Spriggs, 52 M.J. 235, 244 (C.A.A.F. 2000)
(citing United States v. White, 48 M.J. 251, 257
(C.A.A.F. 1998); S. CHILDRESS & M. DAVIS, 2 FEDERAL
STANDARDS OF REVIEW § 7.05 at 7-26 to 36 (2d ed.
1992)).
1.
IMC
Pursuant to Article 38(b), UCMJ, an accused
has the right to be represented at court-martial “by
military counsel of his own selection if that counsel is
reasonably available[.]” Art. 38(b)(3)(B), UCMJ. If
reasonably available, that military counsel may be
appointed to the accused’s trial defense team as an
IMC. Reasonable availability is defined by the service
secretary but excludes persons serving, inter alia, as
trial counsel or appellate defense counsel. Art.
38(b)(7), UCMJ; R.C.M. 506(b)(1)(C)-(D). The Manual
of the Judge Advocate General of the Navy, or
JAGMAN, implements Article 38(b)(3)(B), UCMJ, and
R.C.M. 506 with regard to counsel in the Navy and
Marine Corps.148 First, counsel must be on active duty
Judge Advocate General Instruction 5800.7F (JAGMAN) §
0131 (26 Jun 2012).
148

140a
to be reasonably available.149 Then a list of
disqualifying criteria significantly limits the pool of
available counsel.150 Those disqualifying criteria
include, inter alia, performance of duties as trial
counsel or appellate defense counsel and permanent
assignment to a command outside the Trial Judicial
Circuit where the court-martial will be held or beyond
500 miles from the site of the court-martial.151
The military judge found—and the record
supports—that Maj S.B.K. was detailed as the
appellant’s appellate defense counsel, pursuant to
Article 70, UCMJ, in May 2008.152 In preparation for
his second court-martial, the appellant filed his IMC
request for Maj S.B.K. on 8 August 2014.153 By then,
Maj S.B.K. was assigned to a trial counsel billet more
than 500 miles from Camp Pendleton, the site of the
appellant’s court-martial. For these reasons, Maj
S.B.K.’s chain of command denied the request on 11
September 2014. The appellant appealed, but his
appeal was denied on 24 September 2014. Maj S.B.K.
had left active duty the previous day and transferred
to the Individual Ready Reserve.
Citing R.C.M. 506(b) and the list of
assignments that disqualify counsel from serving as
IMC per se, the military judge concluded that Maj
Id. at § 0131b.(4).
Id.
151 Id. at § 0131b.(4)(b), (d)(1).
152 Appellee’s Response to Court’s Order to Produce of 16 Nov
2017, Ruling on Defense Motion re: IMC Request for Maj S.B.K.
of 5 May 2015 at 2; AE CXI at 2.
153 AE CXI at 8.
149
150

141a
S.B.K.
was
“per se not reasonably available while serving as a
trial counsel and then again when he left active duty
shortly thereafter.”154
2.
Existing attorney-client relationship
Despite Maj S.B.K.’s nonavailability, the
appellant asserted his attorney-client relationship
with Maj S.B.K. and argued denial of the IMC request
would sever that preexisting relationship. R.C.M. 506
provides for exceptions to availability requirements
“when merited by the existence of an attorney-client
relationship regarding matters relating to a charge in
question.” R.C.M. 506(b)(1). But the exceptions do not
apply “if the attorney-client relationship arose solely
because the counsel represented the accused on
review under Article 70[.]” R.C.M. 506(b)(1).
Article 70, UCMJ, governs the detail of
appellate counsel. Specifically, the JAG shall appoint
“[a]ppellate defense counsel [who] shall represent the
accused before the Court of Criminal Appeals, the
Court of Appeals for the Armed Forces, or the
Supreme Court[.]” Art. 70(c), UCMJ. The authority
governing detail of appellate counsel is separate and
distinct from Article 27, UCMJ,155 which mandates
the detail of trial counsel and defense counsel “for
Appellee’s Response to Court’s Order to Produce of 16 Nov
2017, Ruling on Defense Motion re: IMC Request for Maj S.B.K.
of 5 May 2015 at 8.
155 Article 70, UCMJ, does require that appellate counsel be
qualified under Article 27(b)(1), UCMJ. Qualifications detailed
at Article 27(b)(1), UCMJ, include being a judge advocate,
graduation from an accredited law school, membership in a
federal or state bar, and certification as competent to perform
duties as trial or defense counsel by the Judge Advocate General.
154

142a
each general and special court-martial.” Art. 27(a)(1),
UCMJ.
The distinction between representation at
courts-martial arising under Article 27, UCMJ, and
representation on appeal arising under Article 70,
UCMJ, appears in the JAGMAN’s relevant definition
of an attorney-client relationship. “For purposes of
this section [0131 Standards for Determining
Availability of Requested Individual Military
Counsel], an attorney-client relationship exists
between the accused and requested counsel when
counsel and the accused have had a privileged
conversation relating to a charge pending before the
proceeding, and counsel has engaged in active pretrial
preparation and strategy with regard to that
charge.”156 Among the “[a]ctions that, in and of
themselves, will not be deemed to constitute ‘active
pretrial preparation and strategy’” is “representing
JAGMAN § 0131b(3) (emphasis added). The JAGMAN
definition of attorney-client relationship continues:
Actions by counsel deemed to constitute active
pretrial preparation and strategy which
materially limit the range of options available to
the accused include but are not limited to:
advising the accused to waive or assert a legal
right . . .; representing the accused at a pretrial
investigation under Article 32, UCMJ . . . ;
submitting evidence for testing or analysis; . . .
offering a pretrial agreement on behalf of the
accused; submitting a request for an
administrative discharge in lieu of trial on behalf
of the accused; or interviewing witnesses relative
to any charge pending before the proceeding.
Id. at § 0131b.(3)(a).
156

143a
the accused in appellate review proceedings under
Article 70, UCMJ[.]”157 Finally, the JAGMAN
references the JAGINST 5803.1 series158 “prohibiting
a counsel from establishing an attorney-client
relationship until properly detailed, assigned, or
otherwise authorized.” Id. at § 0131b.(3).
The military judge concluded that the appellant
“provided no evidence to suggest that Maj. [S.B.K.]
engaged in active pretrial preparation and strategy
with regard to the charges now before the trial court—
or that he was authorized to do so under JAGINST
5803.1E.”159 In detailed Findings of Fact, the military
judge described Maj S.B.K.’s representation of the
appellant:
zealous advocacy through the
overturn of the accused’s conviction by
CAAF on 26 June 2013 including
representation at NMCCA, CAAF, a
2009 Dubay [sic] hearing, a 2010 IRO
hearing, and at the Naval Clemency and
Parole Board, among other actions. [Maj
S.B.K.] continued to provide appellate
advocacy
for
Sergeant
Hutchins
subsequent to the re-referral of charges
Id. at § 0131b.(3)(b) (emphasis added).
JAGINST 5803.1 series governs “Professional Conduct of
Attorneys Practicing Under the Cognizance and Supervision of
the Judge Advocate General” including Marine Corps judge
advocates, active duty and Reserve.
159 Appellee’s Response to Court’s Order to Produce of 16 Nov
2017, Ruling on Defense Motion re: IMC Request for Maj S.B.K.
of 5 May 2015 at 8.
157
158

144a
on 6 January 2014, co-signing a Writ of
Mandamus on behalf of Sergeant.
Hutchins in May 2014.160
While the record does not explicitly corroborate
each of these acts on behalf of the appellant, there is
also no indication they are clearly erroneous. It is also
unclear the circumstances under which Maj S.B.K.
represented the appellant at the 2009 DuBay hearing
or the 2010 Initial Review Officer (IRO) hearing and
whether he was formally detailed to do so. TDC, not
appellate counsel, typically provide representation at
those types of hearings. But those hearings are not
typically associated with active pretrial preparation
and strategy. Finally, Article 70, UCMJ, was the
authority for Maj S.B.K.’s representation of the
appellant, and the scope of that representation was
appellate review and other post-trial matters arising
after the release of the appellant’s original trial
defense counsel.
The military judge relied on the
distinctions between trial and appellate advocacy in
ruling that the appellant had not demonstrated the
kind of attorney-client relationship with Maj S.B.K.
that required restoration at the trial level. The
military judge cited United States v. Kelker, 4 M.J.
323, 325 (C.M.A. 1978), in support of the “separability
of the trial and appellate functions.” As in the case
before us, Private Kelker requested assignment of his
appellate defense counsel to his trial defense team for
his second court-martial. Id. at 323-24. Our superior
court held that attorney-client relationships formed
160

Id. at 2.

145a
pursuant to Article 70, UCMJ, for appellate
representation do not extend to the trial level, even for
a rehearing of the same case. Id. at 325.
Citing Spriggs, supra, extensively, the
military judge focused on what triggers the kind of
attorney-client relationship that cannot be severed
and thus compels appointment as an IMC.
Establishing
such
a
relationship
requires
demonstrating “‘both a bilateral understanding as to
the nature of future representation and active
engagement by the attorney in the preparation and
pretrial strategy of the case.’”161 Although absent from
the military judge’s ruling, the JAGMAN explicitly
precludes IMC approval authorities from considering
appellate representation as pretrial preparation and
strategy.162
The appellant cites United States v.
Morgan, 62 M.J. 631, 635 (N-M. Ct. Crim. App. 2006),
for the proposition that the attorney-client
relationship with appellate defense counsel continues
“through remands and retrials, unless properly
excused by the client or other competent authority.”163
For that reason, we disagree with the military judge’s
implication that Maj S.B.K’s representation of the
appellant was complete. In fact, Maj S.B.K. continues
to represent the appellant before this court. But that
Id. at 6 (quoting Spriggs, 52 M.J.at 241).
JAGMAN at § 0131b.(3)(b).
163 Appellant’s Brief at 130 (citing Morgan, 62 M.J. at 635 (noting
that “appellate counsel . . . join the appellant’s growing defense
team. Each attorney remains on that team until such time as he
or she is released by the appellant or a court having jurisdiction,
or is excused by competent authority for good cause shown.”)
161
162

146a
relationship, formed under the authority of Article 70,
UCMJ, is still limited to representation before
appellate
authorities.
Despite
Maj
S.B.K.’s
representation of the appellant at a DuBay hearing
and an IRO hearing—representation normally
provided by trial defense counsel—there is no
evidence
the
statutory
authority
for
the
representation changed. Nor did the military judge
clearly err in finding no evidence that Maj. S.B.K. was
engaged in active pretrial preparation and strategy.
Finding no clearly erroneous findings of
fact and no error in the military judge’s legal
conclusion that the appellant and Maj S.B.K. did not
share the kind of attorney-client relationship that
demands assignment as an IMC, we affirm the
military judge’s decision not to order Maj S.B.K.’s
assignment to the trial defense team. We also find no
abuse of discretion in the military judge’s denial of the
appellant’s request to abate the proceedings.
G. Pretrial punishment in violation of Article
13, UCMJ
The appellant contends that the government
violated the Article 13, UCMJ, prohibition against
unlawful pretrial punishment when it subjected him
to unduly harsh pretrial confinement in Iraq and at
Camp Pendleton, reassigned him from a MTU to an
administrative billet, and withheld a Navy-Marine
Corps Achievement Medal (NAM) from him.
“The burden is on appellant to establish
entitlement to additional sentence credit because of a
violation of Article 13[, UCMJ].” United States v.
Mosby, 56 M.J. 309, 310 (C.A.A.F. 2002) (citing R.C.M.

147a
905(c)(2)). Whether an appellant is entitled to relief
for a violation of Article 13, UCMJ, is a mixed question
of law and fact. Id. (citing United States v. Smith, 53
M.J. 168, 170 (C.A.A.F. 2000); United States v.
McCarthy, 47 M.J. 162, 165 (C.A.A.F. 1997)). “We will
not overturn a military judge’s findings of fact,
including a finding of no intent to punish, unless they
are clearly erroneous. We will review de novo the
ultimate question whether an appellant is entitled to
credit for a violation of Article 13.” Id. (citing Smith,
53 M.J. at 170).
Article 13, UCMJ, states that “[n]o person,
while being held for trial, may be subjected to
punishment or penalty other than arrest or
confinement upon the charges pending against him,
nor shall the arrest or confinement imposed upon him
be any more rigorous than the circumstances required
to insure his presence[.]” In United States v. Fischer,
the CAAF interpreted Article 13, UCMJ, to prohibit
“(1) the intentional imposition of punishment on an
accused prior to trial, i.e., illegal pretrial punishment;
and (2) pretrial confinement conditions that are more
rigorous than necessary to ensure the accused’s
presence at trial[.]” 61 M.J. 415, 418 (C.A.A.F. 2005)
(citing United States v. Inong, 58 M.J. 460, 463
(C.A.A.F. 2003); McCarthy, 47 M.J. at 165). Illegal
pretrial punishment “‘entails a purpose or intent to
punish an accused before guilt or innocence has been
adjudicated.’” Id. (quoting McCarthy, 47 M.J. at 165).
“We apply this standard by examining the intent of
detention officials or by examining whether the
purposes served by the restriction or condition are
‘reasonably related to a legitimate governmental

148a
objective.’” Id. (quoting United States v. King, 61 M.J.
225, 227 (C.A.A.F. 2005)) (citations omitted).
Similarly, we consider whether a condition or term of
pretrial confinement “‘is imposed for . . . punishment
or whether it is but an incident of some other
legitimate governmental purpose.’” United States v.
James, 28 M.J. 214, 216 (C.M.A. 1989) (quoting Bell
v. Wolfish, 441 U.S. 520, 538 (1979)).
In this case, the appellant filed a motion for
“appropriate legal and injunctive relief for unlawful
pretrial punishment”164 which the military judge
denied.165 We will examine the military judge’s
findings with regard to the four types of alleged
punishment the appellant has challenged again on
appeal. The military judge correctly placed the burden
of demonstrating violation of Article 13, UCMJ, on the
appellant. R.C.M. 905(c)(2); see also Mosby, 56 M.J. at
310.
1. Pretrial restriction in Iraq
From 11 to 23 May 2006, the appellant was
“placed in pretrial restriction and housed in a climatecontrolled Containerized Housing Unit (CHU) with an
escort” in Iraq.166 There has been no dispute that this
restriction was tantamount to confinement, and the
appellant received day-for-day confinement credit for
this restriction.167 The Results of Trial from the first
AE LXV at 1.
AE LXXXVII.
166 Id. at 2.
167 Id. at 6. The military judge attributed the credit to United
States v. Allen, 17 M.J. 126 (C.M.A. 1984). Allen entitles an
accused to day-to-day sentence credit for pretrial confinement,
164
165

149a
court-martial did not indicate clearly how pretrial
confinement credit was calculated, but the record
reflects that the appellant received at least one day of
pretrial confinement credit for each day spent
restricted to the CHU in Iraq.168
This period was also the focus of the CAAF’s
opinion in Hutchins, IV, 72 M.J. 294. The
government’s failure to facilitate the appellant’s
access to an attorney, despite his request for counsel
upon his initial Article 31(b) rights notification,
contributed significantly to the CAAF’s suppression of
his statements to NCIS, reversal of his initial
convictions, and his new trial. Id. at 296-300.
At his second court-martial, the appellant
moved for additional remedies for the command’s
failure to comply with R.C.M. 305 and his “unduly
harsh pre-trial confinement conditions”169 in Iraq.
R.C.M. 305 prescribes requirements and rules
to ensure pretrial confinement is not unduly rigorous
or otherwise in breach of Article 13, UCMJ.170 R.C.M.
but, with one exception, the military judge referred to the period
for which the appellant received the credit as “pre-trial restraint”
and “restriction.” Id.
168 AE LXVI at 120; Record at 629.
169 AE LXV at 1.
170 Pretrial confinement requires probable cause, meaning “a
reasonable belief that: (1) [a]n offense triable by court-martial
has been committed; (2)[t]he person confined committed it; and
(3) [c]onfinement is required by the circumstances.” R.C.M.
305(d). Continued confinement requires a documented probable
cause determination made by the commander not more than 72
hours after learning a member is in confinement. R.C.M.
305(h)(2)(A). A neutral and detached officer shall review the

150a
305(j)(2)
directs
military
judges
to
order
administrative credit under R.C.M. 305(k) “for any
pretrial confinement served as a result of an abuse of
discretion or failure to comply with” the provisions
affording members command documentation of
probable cause for confinement, independent review
of probable cause, and access to military counsel.
R.C.M. 305(k) credit ordered for noncompliance “is to
be applied in addition to any other credit the accused
may be entitled as a result of pretrial confinement
served.” R.C.M. 305(k). But the military judge
declined to award R.C.M. 305(k) or Article 13, UCMJ,
credit for the appellant’s restriction in Iraq because
“the law does not twice rebuke the Government for an
after-the-fact reclassification of restraint absent
evidence of other unusually harsh circumstances not
present here.”171
Our superior court has held that “R.C.M. 305
applies to restriction tantamount to confinement only
when the conditions and constraints of that restriction
constitute
physical
restraint,
the
essential
characteristics of confinement.” United States v.
Rendon, 58 M.J. 221, 224 (C.A.A.F. 2003). While
restriction tantamount to confinement may entitle an
accused to day-for-day confinement credit under
Allen, supra, or United States v. Mason, 19 M.J. 274
(C.M.A. 1985), the accused is not entitled to double
probable cause determination within seven days of the
imposition of confinement and memorialize his or her factual
findings and conclusions. R.C.M. 305(i)(2). At the request of the
prisoner, military counsel shall be provided before the 72-hour
probable cause determination or the seven-day review,
whichever occurs first. R.C.M. 305(f).
171 AE LXXXVII at 7.

151a
that confinement credit under R.C.M. 305(k). Rendon,
58 M.J. at 224. We see no evidence in the record
leading us to disturb the military judge’s implicit
finding that the appellant’s period of restriction did
not include physical restraint and thus did not
amount to confinement. Despite the isolated nature of
the appellant’s restriction, the unique circumstances
of restriction in a war zone, and our superior court’s
characterizations of the period in Hutchins, IV, 72
M.J. at 296-97, the appellant has inexplicably offered
no evidence of physical restraint. Therefore, we affirm
the military judge’s decision not to apply R.C.M.
305(k) credit.
Regarding the punitive nature of the restraint
and violation of Article 13, UCMJ, the military judge
found that the appellant had not provided the
necessary evidence to demonstrate that “this
confinement was either illegal or punitive in
nature.”172 R.C.M. 304(f) prohibits punitive pretrial
restraint such as “punitive duty hours or training, . . .
punitive labor, or . . . special uniforms prescribed only
for post-trial prisoners.” The appellant alleged none of
these but argued only that his solitary confinement in
Iraq deprived him of “the ability to communicate with
anyone else, including his family or friends.”173 The
government countered by asserting there was
contemporaneous probable cause to believe that the
appellant and his squad members conspired to commit
murder—and committed it—and thus it was

172
173

Id.
AE LXV at 5.

152a
necessary to segregate them to prevent further
obstruction of justice.174
The military judge concluded that “[g]iven the
nature of the charged offenses and the proximity of
the command in the midst of a war zone in a foreign
country, solitary restriction to a CHU was not beyond
the pale.”175 Our review of the record does not
contradict this finding as to the nature of the
restriction. The military judge correctly cited Mosby
in support of his legal conclusions. 56 M.J. at 310
(denying additional sentence credit for an Article 13,
UCMJ, violation when “[o]ther than introducing
evidence that appellant was placed in solitary
confinement based on the charge alone, appellant has
not introduced any evidence of an intent to punish.”)
Based on this record, we conclude that the military
judge’s findings are not clearly erroneous and that the
circumstances of the restriction were not punitive. We
affirm the military judge’s decision not to award
additional credit or other remedies pursuant to Article
13, UCMJ.
2. Pretrial confinement at Camp Pendleton
The appellant was redeployed from Iraq to
Camp Pendleton and began a period of pretrial
confinement from 24 May 2006 to 3 August 2007. As
in Iraq, he argues his “extreme confinement
conditions” were punitive.176

AE LXVI at 1.
AE LXXXVII at 7.
176 AE LXV at 7.
174
175

153a
Specifically, the appellant alleges he was held
in “a sound-proof, solitary-confinement cell for ten out
of the fifteen months” of pretrial confinement and
“was shackled every time he left his cell.”177 He argues
the conditions of his pretrial confinement were not
necessary and were intended “to exact punishment,
harassment, and abuse[.]”178
The military judge made the following findings
of fact regarding the appellant’s pretrial confinement
at Camp Pendleton. The appellant’s custody
classification on 24 May 2006 was “‘maximum’” based
on “the nature of the allegations against him and an
assessment of other factors.”179 The command
complied with R.C.M. 305 by providing the appellant
a pretrial confinement advice letter on 25 May 2006
and conducting a status review with an IRO on 26
May 2006. The IRO’s “comments clearly indicate his
view that continued pretrial confinement was
appropriate.”180 About three weeks later, brig officials
cited the appellant’s “‘entirely appropriate’” behavior
in downgrading his custody classification and
increasing his privileges.181 The military judge noted
that the appellant’s claim that he was placed in
Maximum-[Potentially Violent and Dangerous] status
for 150 days was “expressly contradicted by evidence
of brig records revealing a downgrade from MAX

Appellant’s Brief at 136 (citation omitted).
Id. at 137.
179 AE LXXXVII at 2.
180 Id.
181 Id.
177
178

154a
(maximum) to MDI (medium) after 23 days.”182
Because of “the nature of his charges and concerns
about problems in the brig general population” and
ease of access to frequent family and legal visitors, the
appellant remained in Special Quarters housing.183
The military judge noted that on or about 5 October
2006, the appellant complained to the brig officer
about problems he had encountered with other
inmates on the general population mess decks.
Extensive documentation from the Camp Pendleton
Base Brig corroborates the military judge’s findings.
Detailing administrative and safety reasons for
the conditions of the appellant’s custody, the military
judge concluded that the “Defense has not met its
burden to show that the conditions of pretrial
confinement at the Camp Pendleton Base Brig were
more rigorous than necessary to ensure the accused’s
presence at trial.”184 The military judge found that the
high profile of the appellant’s case, the number of
alleged co-conspirators, and concerns about the
appellant’s presence in the general population were
safety concerns that amounted to legitimate
administrative purposes for continued confinement in
Special Quarters housing. He cited Smith, 53 M.J. at
173, in which the CAAF affirmed a military judge’s
determination that (1) “the Government had not
restricted the appellant with an intent to punish prior
to trial” and (2) “that there were legitimate
nonpunitive governmental objectives served by the

Id. at 8, n.14.
Id. at 2-3.
184 Id. at 7.
182
183

155a
restrictions placed on appellant and that, therefore,
Article 13 was not violated[.]” Id. at 169.
Although the Smith court analyzed pretrial
restriction, not confinement, id. at 170, our superior
court has repeatedly applied the same test to pretrial
confinement. In United States v. Crawford, 62 M.J.
411 (C.A.A.F. 2006), the CAAF pledged deference to
prison officials who adopt and execute “‘policies and
practices that in their judgment are needed to
preserve internal order and discipline and to maintain
institutional security.’” Id. at 416 (quoting Bell, 441
U.S. at 547). In light of confinement officials’
responsibility to ensure a detainee’s presence for trial
and the security of the facility, the burden was on
Crawford to demonstrate that the conditions of his
confinement were “unreasonable or arbitrary[.]” Id. at
414. See also McCarthy, 47 M.J. at 167 (holding, in the
context of maximum custody confinement, that “[i]f
the conditions of pretrial restraint are ‘reasonably
related to a legitimate governmental objective, it does
not, without more, amount to punishment.’”) (quoting
James, 28 M.J. at 216) (additional citations omitted).
The military judge implied that solitary
confinement and shackles were “‘discomforting’
administrative measures reasonably related to the
effective management of the confinement facility” and
“‘de minimus’ impositions” and therefore not
punitive.185 However, United States v. Corteguera, 56
M.J. 330 (C.A.A.F. 2002), the source of that language,
addressed a confinement facility orientation process
Id. at 8 (quoting United States v. Corteguera, 56 M.J. 330, 334
(C.A.A.F. 2002)).
185

156a
requiring pretrial detainees to briefly sing and shout.
We do not equate solitary confinement and shackles
with embarrassment. However, we concur with the
military judge that the appellant has failed to provide
evidence his confinement was unduly rigorous. Unlike
in King, 61 M.J. at 225, the appellant has not
demonstrated that any conditions of his confinement
were “an arbitrary response to the physical
limitations” of the facility. Id. at 228. Instead, the
record—especially regular reports from his brig
counselor—reveals considered justifications for his
custody classifications and his segregation from his
squad mates and the general population.
Finding no clear error in the military judge’s
conclusions that the appellant’s confinement
conditions stemmed from legitimate purposes, and,
impliedly, not punitive intent, we concur there was no
Article 13, UCMJ, violation during his pretrial
confinement.
3. Transfer from the MTU
The appellant alleges that his reassignment
from a marksmanship instructor position to an
administrative billet was arbitrary and the result of
punitive intent.
While his first court-martial progressed
through appellate review, the appellant was in and
out of post-trial confinement. After this court set aside
his convictions in Hutchins I, 68 M.J. at 631, the
appellant was released from confinement and
returned to duty at Camp Pendleton in June 2010. He
was assigned as an instructor at the Battalion
Headquarters MTU. In January 2011, the CAAF

157a
reversed Hutchins I and remanded the case for
review. Hutchins II, 69 M.J. at 293. The next month,
the appellant was returned to confinement. In June
2013, the CAAF set aside the appellant’s convictions,
Hutchins IV, 72 M.J. at 300. He was released from
confinement again and returned to Camp Pendleton
the next month. He served again as an MTU
instructor.
At some point after the appellant’s return to
Camp Pendleton in July 2013, his assignment as an
MTU instructor came to the attention of Col M., the
Officer in Charge of the Camp Pendleton LSSS. Col
M. contacted the appellant’s commanding officer, Col
Co., and “relayed his concern about the ‘optics’ of a
Marine working on a rifle range who stood accused of
killing a civilian with a rifle.”186 Sometime thereafter,
Col Co. transferred the appellant from the MTU to the
S4 Logistics Division, which had repeatedly failed
inspections. “Col [Co.] testified that Col [M.]’s call
affected the timing of this move, but given the
[appellant’s] outstanding performance and the
perpetual failings of S4, he ‘probably’ would have
moved Sergeant. Hutchins there at some point to
shore up the division.”187 He did not consider the
reassignment to be punitive and believed the S4 billet
was rated one or two paygrades above the appellant’s
paygrade of E-5.
When Col Co. retired in July 2014, Col Cr.
relieved him as the appellant’s commanding officer. A
month later, the appellant was reassigned to the
186
187

Id. at 4.
Id. at 4, n.9.

158a
MTU. Conflicting evidence was presented as to Col
Cr.’s awareness of the change, and the military judge
refrained from making findings of fact on the matter.
Col M. contacted Col Cr. to express his continuing
concerns about the “‘optics’” of the assignment, and
the appellant was returned to S4.188 “Col [Cr.]
disavowed an ulterior motive for the transfer and
praised Sergeant. Hutchins’ work.”189 He rated the
pay grade of the S4 billet as higher than E-5 and
possibly as high as a junior officer.
Substantial testimony from the colonels and
members of their staff supports these findings of fact
from the military judge.
Again, the military judge found that the
appellant had not met his burden to show that his
reassignment from MTU to S4 was punitive. He
applied the two-part Smith test again. 53 M.J. at 169,
72-73. The military judge found no evidence that
assignment to S4 was considered punitive, and he
held that assignment outside of one’s military
occupational specialty was not, “ipso facto,”
punitive.190 He questioned the propriety of the LSSS
Officer in Charge intervening in the appellant’s duties
but detected “no evidence of either improper motive or
an improper result.”191
We find no reason to question the military
judge’s findings and ultimate conclusion as to the
appellant’s reassignment from MTU to S4. The
Id. at 5.
Id.
190 Id. at 9.
191 Id.
188
189

159a
appellant urges us to infer punitive intent from the
“chief
prosecutor’s”
intervention,
inconclusive
evidence as to why the appellant was briefly returned
to the MTU, and his assertion that there was no
legitimate reason for him to leave the MTU. This is
not evidence of punitive intent, nor does it successfully
rebut the nonpunitive reasons the colonels cited for
their advice and decisions.
4. Withdrawal of nomination for a NAM
Finally, the appellant avers that a prosecutor,
acting with punitive intent, dissuaded the appellant’s
commanding officer from awarding him a proposed
impact award and thus punished him.
The military judge found that the appellant
made an immediate, positive impact at both MTU and
S4 and that praise for his performance was both
universal and effusive. Col Co. remembered reviewing
a recommendation that the appellant receive a NAM
as an impact award for his tenure at MTU. But Col
Co. demurred in favor of a letter of continuity because
the appellant had been on board less than a year. Col
Co. also advocated for the appellant to receive a
Combat Action Ribbon.
The appellant asserts that Col Co. withheld his
NAM because a prosecutor, Maj S., warned it “would
not ‘look good’ given that he was charged with
murder.”192 As support, the appellant cited a
deposition of the Battalion Operations Officer, Maj B.,
who nominated the appellant for the award. Maj B did
not testify before the military judge, but a transcript
192

Appellant’s Brief at 143.

160a
of his deposition was attached to the appellant’s
motion. According to the deposition transcript, Maj B.
remembered being present for a telephone call
between Col Co. and Maj S. during which Maj S.
balked at awarding a NAM to someone charged with
murder because it wouldn’t look good. Col Co. then
decided to leave the appellant’s proposed NAM
citation in the awards system and “‘wait until
everything clears up.’”193 He expected similar
recognition for the appellant from S4 and, according
to Maj B., said, “‘[j]ust hold off to all his recognitions.
He’s not denied but he’s not approved.’”194 Col Co.
testified that he frequently consulted with Maj S. on
other cases but did not remember discussing the
appellant with him.
While there is some disagreement between Col
Co. and Maj B., it does not prompt us to disregard the
military judge’s findings of fact as clearly erroneous.
Maj S.’s concerns about the appearance of awarding a
murder suspect a NAM are consistent with Col M.’s
concerns about the optics of assigning a murder
suspect to train Marines in marksmanship. Col Co.
testified, “I think you should write [the appellant] up
for a letter of continuity because we can’t have a
Marine getting three awards to reach a senior’s ears,
just because we moved him around.”195 This does not
directly contradict Maj B.’s memory of Col Co.
deciding to hold the appellant’s recognitions from
MTU, S4, and others until his court-martial.

AE LXV at 90.
Id.
195 Record at 612.
193
194

161a
The military judge again found that the defense
had not met its burden to show that Col Co.’s decision
not to approve the appellant’s NAM was punitive. He
cited Col Co.’s testimony that a NAM for less than a
year of performance was premature. While he did not
explicitly cite the Smith test in the context of this
alleged punishment, he concluded there was no
evidence of punishment to overcome the evidence that
a legitimate, alternative purpose motivated the
decision not to award the NAM to the appellant.
None of the military judge’s findings as to the
lack of punitive intent and the existence of legitimate,
nonpunitive reasons regarding the appellant’s
restriction in Iraq, pretrial confinement at Camp
Pendleton, reassignment from MTU to S4, or impact
award is clearly erroneous. Thus we affirm his
conclusions that the appellant was not subject to
pretrial punishment in violation of Article 13, UCMJ.
H. Denial of trial defense counsel’s site visit
to Iraq
The appellant alleges that the military judge
erred in denying his TDC’s request for a site visit to
Iraq, depriving him of equal access to evidence, due
process, and effective representation.
We review a military judge’s discovery rulings
for an abuse of discretion. United States v. Stellato, 74
M.J. 473, 480 (C.A.A.F. 2015).
1. Equal access under Article 46, UCMJ
Article 46, UCMJ, affords trial counsel, trial
defense counsel, and the court-martial “equal
opportunity to obtain witnesses and other evidence[.]”

162a
It is implemented in R.C.M. 701 and R.C.M. 703.
R.C.M. 701 ensures “[e]ach party shall have adequate
opportunity to prepare its case and equal opportunity
to interview witnesses and inspect evidence. . . . No
party may unreasonably impede the access of another
party to a witness or evidence.” R.C.M. 701(e). The
government must make evidence in the “possession,
custody, or control of military authorities” available if
it is “material to the preparation of the defense[.]”
R.C.M. 701(a)(2). The standard for production of
evidence not in a military authority’s possession,
custody, or control is higher. Parties to a court-martial
are “entitled to production of evidence that is relevant
and necessary.” R.C.M. 703(f)(1).
When moving “for discovery under R.C.M. 701
or for production of witnesses or evidence[,]” the
burden is on the moving party to prove, by a
preponderance of the evidence, “any factual issue the
resolution of which is necessary to decide a motion[.]”
R.C.M. 905(b)(4), (c).
a. Motion to compel
The appellant filed a motion to compel after the
CA denied his TDC’s request for a site visit to
Hamdaniyah, Iraq.196 He sought government-funded
and facilitated travel and access to Hamdaniyah so
his trial defense counsel could inspect the site of the
alleged offenses and locate and interview prospective
witnesses.
At an Article 39(a), UCMJ, session, the deputy
intelligence officer at Marine Forces Central testified
196

AE LXIX.

163a
about conditions on the ground near Hamdaniyah.
Beginning in June 2014, 80-90% of surrounding Al
Anbar Province had fallen under the control of the
Islamic State of Iraq and the Levant, and nearby Abu
Ghraib was “one of the more contested violent areas
in Al Anbar[.]”197 The intelligence officer opined that
it would be “very, very difficult, if not impossible” to
send a team of investigators or attorneys to the
general area.198 Testimony about the current
condition of the homes of SG and the Iraqi man killed
on 26 April 2006 was inconclusive. Finally, the
intelligence officer understood that the Department of
State, not the Department of Defense, had the final
authority for such travel to Iraq, and he was doubtful
of their approval given the danger and lack of Iraqi
governmental control of Hamdaniyah.199
During argument at the Article 39(a), UCMJ,
session, TDC proposed, as an alternative, a limitation
on the government’s admission of evidence obtained
in Iraq. In rebuttal, TC asserted that his team had
given the appellant’s trial defense team “everything
[they had] . . . that was collected or produced in
Iraq[.]”200 TDC did not dispute the availability of the
government’s evidence but questioned the adequacy of
the NCIS investigation and the evidence it yielded.
Challenging the objectivity of the NCIS investigation,
TDC speculated that the cache of evidence and
exhibits “may have been very different had defense
Record at 489-90.
Id. at 490.
199 Id. at 491-494.
200 Id. at 501.
197
198

164a
counsel been on the ground[.]”201 When the military
judge queried TDC about what evidence he hoped to
find on-site after eight years, TDC responded,
“[i]nterviews.”202 Posed with the inability to compel
production of any Iraqi witnesses, the TDC replied,
“we ask questions and then we open up doors, and we
go down this path or that path, and that’s what—
sometimes you run into some dead ends and
sometimes you run into leads.”203
In his initial written ruling denying the site
visit, the military judge made findings of fact, all
supported by the record and not clearly erroneous.
Conducting a de novo review of his application of the
law, we concur with his application and conclusions.
The military judge held the appellant to the burden of
proving, by a preponderance of the evidence, that
evidence and witnesses beyond government control in
Iraq were relevant and necessary at trial. He
concluded that the appellant offered nothing more
than speculation as to the value of personally
inspecting the site or the ability to locate witnesses to
the events. In a footnote to his written ruling, the
military judge noted that the appellant had failed to
distinguish his request for a site visit from a “pro
forma” request, offering nothing to demonstrate “the
necessity of a site visit in this case.”204 The appellant
failed to prove by a preponderance of the evidence that
a visit to Hamdaniyah, eight and a half war-torn years

Id. at 502.
Id. at 496.
203 Id. at 497.
204 AE CXXV at 6, n.7.
201
202

165a
after the incident, would yield evidence relevant and
necessary to his defense.
Article 46, UCMJ, does not obviate an accused’s
requirement to demonstrate the necessity of evidence
or assistance beyond what is already at hand. See
R.C.M. 703(f)(1) (production of evidence); R.C.M.
703(d) (employment of expert witnesses). Military
courts have rejected the notion that the mere prospect
of finding relevant and necessary evidence satisfies
the requirement for showing relevance and necessity.
See United States v. Washington, 46 M.J. 477, 479
(C.A.A.F. 1997) (finding that the appellant had failed
to demonstrate the necessity of investigative
assistance when, inter alia, “the defense appears to be
on a ‘fishing expedition’ as to defense witnesses who
‘may exist who can refute the charges’ or ‘may be
helpful.’”); United States v. Kinsler, 24 M.J. 855, 856
(A.C.M.R. 1987) (noting that “[a] court need not
provide for investigative services for a mere ‘fishing
expedition’”) (citing United States v. Shultz, 431 F.2d
907, 911 (8th Cir. 1970)).
The military judge also addressed trial defense
counsel’s alternative remedy of suppressing
government evidence collected in Iraq. He found that
“[b]oth sides have equal access to the evidence
available at trial and the Government is not calling
any Iraqi witnesses on the merits.”205 The military
judge initiated arrangements for the appellant’s
former detailed defense counsel, LtCol J.S., then a
Reserve appellate judge on this court, to be made
available for privileged consultation with the
205

Id. at 6.

166a
appellant’s current defense team. LtCol J.S. had made
a brief visit to Hamdaniyah in January 2007 and had
seen the IED crater and interviewed one Iraqi
witness. With the appellant’s access to all of the
evidence and to detailed military counsel from the
first trial, the military judge concluded there was no
violation of Article 46, UCMJ, in this case, in 2007 or
at the time of the motion.
We find no abuse of discretion in the military
judge’s initial two rulings.
b. Motion to dismiss
In a subsequent Motion to Dismiss for Denial of
Site Visit or, Alternatively, to Abate Proceedings
Until Such Time as a Site Visit Can Be Conducted, the
appellant argued that without a new site visit, he
would receive neither due process nor effective
representation. The motion raised the inadequacy of
the appellant’s first trial defense counsel’s site visit to
Iraq in 2007. The military judge issued a second
written ruling, again denying a site visit as well as the
motion to dismiss or abate proceedings.206
We again find no clear error in the military
judge’s findings of fact. The military judge adopted his
statement of law from his previous ruling and ruled
that the appellant had still failed to meet his burden
of demonstrating that a new site visit would “recover
relevant and/or admissible evidence regarding the
offenses allegedly committed there nine years ago.”207
Regarding the appellant’s arguments about the
206
207

AE CXXVIII at 4.
Id. at 3.

167a
insufficiency of his former trial defense counsel’s site
visit in 2007, the military judge found “the Defense
must be considered at least somewhat complicit given
the short notice they provided in the face of the
operational and security constraints in the region.”208
The military judge did not abuse his discretion
in finding no Article 46, UCMJ, violation in original
trial defense counsel’s 2007 site visit. The right of
access to evidence—or sources of evidence—is not
unlimited. There is usually no obligation to arrange
interviews between trial defense counsel and
witnesses, but the government may not hinder them.
United States v. Killebrew, 9 M.J. 154, 160 (C.M.A.
1980). The government may not “unreasonably
impede the access of another party to a witness or
evidence.”
R.C.M.
701(3).
“‘[A]bsent
special
circumstances, the right to a pretrial interview—
guaranteed to [the defense] under the Manual [for
Courts-Martial] and the Code—encompasses the right
to an interview free from insistence by the
Government upon the presence of its representative.’”
Killebrew, 9 M.J. at 159 (quoting United States v.
Enloe, 35 C.M.R. 228, 232 (C.M.A. 1965)) (alterations
in original). A witness cannot be compelled to speak to
TDC, as long as the government did not bring about
the refusal. Id. The court may issue subpoenas to
compel the attendance of civilian witnesses at trial,
but “[f]oreign nationals in a foreign country are not
subject to subpoena.” R.C.M. 703(e)(2) and Discussion.
Subpoenas are available to produce evidence not in
government custody, but “a party is not entitled to the
208

Id. at 3-4.

168a
production of evidence which is destroyed, lost, or
otherwise not subject to compulsory process.” R.C.M.
703(f)(2). See also R.C.M. 703(f)(4)(B).
We agree the appellant did not demonstrate, by
a preponderance of the evidence, that the
government’s handling of the original TDC’s 2007 site
visit to Iraq amounted to a deprivation of equal access
in violation of Article 46. The evidence suggests that
multiple factors conspired to limit the scope and
effectiveness of that site visit—from legitimate
security concerns to TDC’s own tactics. We decline to
find that impediments arising from safety and
security measures taken in 2007 were unreasonable
and thus in violation of R.C.M. 701(e).
We find no abuse of discretion in this second
pair of rulings.
Our superior court has interpreted Article 46,
UCMJ, to be a statement of congressional intent to
prevent the government from marshaling its
resources to gain an unfair advantage over an accused
and thus to ensure “a more even playing field.” United
States v. Warner, 62 M.J. 114, 120 (C.A.A.F. 2005).
But the parity contemplated in Article 46, UCMJ,
does not entitle an accused to a blank check. Id. at 118
(citing United States v. Calhoun, 49 M.J. 485, 487-88
(C.A.A.F. 1998) (noting that an accused is not entitled
to the particular expert consultant or witness
requested).
Assuming, arguendo, a violation of Article 46,
UCMJ, the appellant must demonstrate material
prejudice. See Adens, 56 M.J. at 732 (holding that
“violations of a [service member’s] Article 46, UCMJ,

169a
rights that do not amount to constitutional error
under Brady and its progeny must still be tested
under the material prejudice standard of Article 59(a),
UCMJ.”). Article 59(a), UCMJ, states that “[a] finding
or sentence of a court-martial may not be held
incorrect on the ground of an error of law unless the
error materially prejudices the substantial rights of
the accused.” Without specifying the “substantial
prejudice” to him, the appellant attributes it to
defense counsel being “compelled . . . to rely on the
observations and filtered crime scene investigative
findings of NCIS and other government agents[.]” 209
The appellant, not the NCIS agents, was at the crime
scene on the morning of 26 April 2006. His TDC were
able to exploit the weaknesses in the chain of custody
of the decedent’s body and the appellant’s alleged
weapon. The government’s case rested largely on the
testimony of the appellant’s squad mates—not
evidence collected in Iraq or from Iraqi witnesses. The
appellant has failed to articulate how his lost
opportunity to conduct a site visit contributed to the
members’ findings and thus materially prejudiced
him.
We turn now to whether the appellant’s
inability to conduct a site visit and independent onsite investigation and interviews deprived him of due
process.
2. Due process
The appellant asserts a due process right to
“the opportunity to conduct a meaningful and full
investigation of the underlying conduct, which
209

Appellant’s Brief at 148.

170a
necessarily includes the opportunity to inspect the
scene of the alleged crime.”210 According to the
appellant, “[t]he military judge’s denial [of a site visit]
limited the defense in its ability to inspect for evidence
perhaps missed, overlooked or omitted by the
government and infringed on due process rights.”211
The Supreme Court has “long interpreted” the
Due Process Clause of the Fourteenth Amendment “to
require that criminal defendants be afforded a
meaningful opportunity to present a complete
defense.” Cal. v. Trombetta, 467 U.S. 479, 485
(1984).212 “To safeguard that right, the Court has
developed ‘what might loosely be called the area of
constitutionally guaranteed access to evidence.’” Id.
(quoting United States v. Valenzuela-Bernal, 458 U.S.
858, 867 (1982)). “Less clear from [the Court’s] accessto-evidence cases is the extent to which the Due
Process Clause imposes on the government the
additional responsibility of guaranteeing criminal
defendants access to exculpatory evidence beyond the
government’s possession.” Id. at 486. “Whenever
potentially exculpatory evidence is permanently lost,
courts face the treacherous task of divining the import
Id.
Id.
212 We acknowledge that the Fourteenth Amendment does not
govern accused at courts-martial. But our superior court has
found the same right to present a complete defense in the Fifth
Amendment, applying Trombetta to courts-martial. United
States v. Webb, 66 M.J. 89, 92 (C.A.A.F. 2008); see also United
States v. Bess, 75 M.J. 70, 74 n.3 (C.A.A.F. 2016) (finding no
reason the right to present a complete defense would be any
narrower under the Fifth Amendment than the Fourteenth
Amendment).
210
211

171a
of materials whose contents are unknown and, very
often, disputed.” Id. (citation omitted).
Due process does not demand government
prescience. The Court has distinguished the
government’s obligation to recognize and preserve
exculpatory evidence from an obligation to predict the
exculpatory value of evidence or a source of evidence.
A line of Supreme Court cases addressed the
application of due process to “potentially exculpatory
evidence” the government lost or destroyed, depriving
the accused of the opportunity to extract something
exonerative from independent investigation of that
evidence. See Illinois v. Fisher, 540 U.S. 544, 548-49
(2004) (a plastic bag containing a white powdery
substance forensics tests revealed to be cocaine); Ariz.
v. Youngblood, 488 U.S. 51, 52 (1988) (semen samples
from the victim’s body and clothing); Trombetta, 467
U.S. at 481 (breath sample of a suspected drunken
driver). The Trombetta Court found no due process
violation when the government acted “‘in good faith
and in accord with their normal practice[,]’” and the
loss or destruction of evidence was not attributable to
a “conscious effort to suppress exculpatory evidence.”
Id. at 488 (quoting Killian v. United States, 368 U.S.
231, 242 (1961)). The constitutional duty to preserve
evidence applies to material evidence, which “must
both possess an exculpatory value that was apparent
before the evidence was destroyed, and be of such a
nature that the defendant would be unable to obtain
comparable evidence by other reasonably available
means.” Id. at 489. See also United States v. Garries,
22 M.J. 288, 292 (C.M.A. 1986); United States v. Kern,
22 M.J. 49, 51 (C.M.A. 1996). The Supreme Court

172a
subsequently confirmed that a due process violation
requires evidence of “bad faith” on the part of the
government when “potentially useful evidence”—but
not “material exculpatory evidence”—is lost or
destroyed. Fisher, 540 U.S. at 548-49 (citing
Youngblood, 488 U.S.at 57). An accused cannot claim
a due process right to evidence, or a source of evidence,
with only the potential to yield something
exculpatory, unless the government has lost or
destroyed that evidence in bad faith.
Although the appellant frames this AOE as a
denial of discovery, it is more accurately a denial of
opportunity. He does not accuse the trial counsel or
the government of withholding a piece of material
exculpatory evidence. Instead, the government has
allegedly withheld funding and support for an
independent investigation that might have uncovered
something exculpatory. At best, hypothetical evidence
is potentially useful; therefore, the appellant must
attribute its loss or destruction to bad faith on the part
of the government. Id. Evidence of bad faith is missing
here. We found no abuse of discretion in the military
judge’s decision to deny a site visit to Hamdaniyah.
The appellant failed to demonstrate the required
necessity of the site visit. Nor did we find an abuse of
discretion in the military judge’s conclusion that the
government did not violate discovery obligations
during the original trial defense counsel’s site visit to
Hamdaniyah in January 2007. The appellant’s lost
opportunity, attributable to circumstances beyond the
U.S. government’s control, does not equate to a lack of
due process.

173a
3. Effective representation
Invoking United States v. Strickland, 466 U.S.
668 (1984), the appellant implies that counsel must
conduct a site visit and independent investigation to
be competent.
Legal representation is deemed ineffective
under Strickland when the appellant can
demonstrate that “(1) his counsel’s performance fell
below an objective standard of reasonableness; and (2)
the counsel’s deficient performance gives rise to a
‘reasonable probability’ that the result of the
proceeding would have been different without
counsel’s unprofessional errors.” United States v.
Akbar, 74 M.J. 364, 371 (C.A.A.F. 2015) (quoting
Strickland, 466 U.S. at 688, 694). “Trial defense
counsel have ‘a duty to make reasonable
investigations or to make a reasonable decision that
makes particular investigations unnecessary.’” Id. at
379 (quoting Strickland, 466 U.S. at 691) (emphasis
added). “The Supreme Court has ‘rejected the notion
that the same [type and breadth of] investigation will
be required in every case.’” Id. at 380 (quoting Cullen
v. Pinholster, 563 U.S. 170, 195 (2011) (additional
citation omitted) (alteration in original)).
The appellant overreaches when he claims that
the Army Court of Military Review “intimated” that
“‘failure to visit a crime scene ipso facto contributes to
deficient performance of trial’” in United States v.
Boone, 39 M.J. 541, 544 (A.C.M.R. 1994).213 The court
adopted this concession for sake of argument before
summarily dismissing it in Boone’s case. Id. Although
213

Appellant’s Brief at 146.

174a
Boone alleged his TDC’s “failure to visit the crime
scenes . . . led to a serious factual error in [his] closing
argument[,]” the court found “there [was] no obvious
prejudice to the appellant in [Boone’s] case.” Id. Nor
has this court found “deficiencies in defense counsel’s
performance under the Strickland standards” when
counsel “was denied the ability to view the crime scene
by the Staff Judge Advocate and the military judge”
and “had extreme difficulty in interviewing the
witnesses[.]” United States v. Ryan, 2007 CCA LEXIS
111, *11-*12, unpublished op. (N-M. Ct. Crim. App.
2007), rev’d. as to sentence, 65 M.J. 328 (C.A.A.F.
2007) (summary disposition). In a case similar to the
one before us, civilian defense counsel declined to
pursue a site visit to the scene of an alleged murder in
Afghanistan because “the area became so kinetic that
U.S. forces withdrew from there altogether.” United
States v. Lorance, 2017 CCA LEXIS 429, *19 (A. Ct.
Crim. App. 27 Jun 2017), rev. denied, __ M.J. __, 2017
CAAF LEXIS 1165 (C.A.A.F. 19 Dec 2017). The Army
Court of Criminal Appeals found no merit in Lorance’s
claim of ineffective assistance of counsel in light of the
defense team’s overall performance and the lack of
prejudice in the face of “overwhelming evidence
against [him].” Id. at *18-*19. In the case before us,
conditions on the ground in Hamdaniyah made trial
defense counsel’s request to travel there to investigate
unreasonable.
Not only does the appellant fail to demonstrate
that denial of a site visit robbed him of TDC
performance within an objective standard of
reasonableness, he fails to articulate how a site visit
would have altered the outcome of his court-martial.

175a
His assertion of prejudice is detached from the facts of
his case and is almost circular; instead he claims that
denial of a site visit robbed him of his rights to a fair
trial and due process. As discussed previously, we
disagree.
Instead, we find that the appellant benefited
from zealous, competent representation throughout
his second court-martial. His TDC effectively
challenged the evidence brought from Iraq, and there
were no Iraqi witnesses to impeach. The strength of
the government’s case lay in the testimony of the
Marines and Navy corpsmen present in Hamdaniyah
on the morning of 26 April 2006. Nothing in Iraq could
have better equipped TDC to challenge their
testimony.
The appellant does not point to a piece of
evidence or witness whose testimony would have
altered the outcome of his trial. His assertion of
prejudice is speculative. Not only has he failed to
demonstrate that “his counsel’s performance fell
below an objective standard of reasonableness,” he
has also failed to demonstrate that his “counsel’s
performance gives rise to a ‘reasonable probability’
that the result of the proceeding would have been
different without counsel’s unprofessional errors.”
Akbar, 74 M.J. at 371. Without either, there is no
ineffective assistance of counsel.
I.

Admissibility of identification on autopsy
report
The appellant claims that the military judge
abused his discretion when he admitted an autopsy
report whose relevance depended upon impermissible

176a
testimonial hearsay from Iraqi citizens who identified
the body.
This AOE presents us with hearsay within hearsay—
alleged testimonial hearsay appearing in a routine
professional report prepared by and informing the testimony
of an expert witness. Whether the imbedded evidence was
testimonial hearsay is a question of law we review de novo.
United States v. Katso, 74 M.J. 273, 278 (C.A.A.F. 2015)
(citing United States v. Tearman, 72 M.J. 54, 58 (C.A.A.F.
2013)). We review the military judge’s decision to admit
evidence that contains testimonial hearsay for an abuse of
discretion, “‘considering the evidence in the light most
favorable to the prevailing party.’” Katso, 74 M.J. at 278-79
(quoting United States v. Reister, 44 M.J. 409, 413 (C.A.A.F.
1996)).
1. Testimonial hearsay
First we examine the appellant’s allegation of
testimonial hearsay. “[A]dmission of ‘testimonial
statements of a witness who did not appear at trial’”
violates the Sixth Amendment’s Confrontation Clause
unless the witness is “‘unavailable to testify, and the
[accused] had had a prior opportunity for crossexamination.’” Id. at 278 (quoting Crawford, 541 U.S.
at 53-54); U.S. CONST., amend VI. In Crawford, the
Supreme Court defined testimony as “typically ‘[a]
solemn declaration or affirmation made for the
purpose of establishing or proving some fact.’ . . . An
accuser who makes a formal statement to government
officers bears testimony in a sense that a person who
makes a casual remark to an acquaintance does not.”
541 U.S. at 51 (quoting 2 N. WEBSTER, AN AMERICAN
DICTIONARY OF THE ENGLISH LANGUAGE (1828))
(alteration in original). Our superior court has
characterized a statement as testimonial “‘if made

177a
under circumstances which would lead an objective
witness reasonably to believe that the statement
would be available for use at a later trial.’” Katso, 74
M.J. at 278 (quoting United States v. Sweeney, 70 M.J.
296, 301 (C.A.A.F. 2011) (additional citations
omitted). There are also three factors to guide this
objective, but contextual, analysis, often referred to as
Rankin factors:
(1) the statement was elicited by or made
in response to law enforcement or
prosecutorial inquiry;
(2) the statement involved more than a
routine and objective cataloging of
unambiguous factual matters; and
(3) the primary purpose for making, or
eliciting, the statement was the
production of evidence with an eye
toward trial.
United States v. Squire, 72 M.J. 285, 288 (C.A.A.F.
2013) (citing United States v. Gardinier, 65 M.J. 60,
65 (C.A.A.F. 2007)); United States v. Rankin, 64 M.J.
348, 352 (C.A.A.F. 2007)).
The appellant asserts that the identification of
the body exhumed and autopsied in the course of
investigating this case constitutes testimonial
hearsay. The lead NCIS agent, Special Agent (SA)
J.C., testified about his efforts to exhume the body of
the man shot in the IED crater on 26 April 2006. The
victim’s family led a convoy of military personnel,
including SA J.C., to the burial site, but an IED
detonated under one of the vehicles in the convoy en

178a
route to the site. SA J.C. never reached the burial site
that day. At SA J.C.’s request, the appellant’s
company commander visited the victim’s family and
obtained GPS coordinates for the burial site. The
company commander testified during the second
court-martial but was not asked to confirm that he
collected GPS coordinates of the burial site from the
family at SA J.C.’s request. Following the GPS
coordinates, a second convoy traveled to the site, and
SA J.C. led the exhumation. SA J.C. testified that the
victim’s brother accompanied him to the burial site,
pointed to the grave, “and at one point, he started
digging in the grave site.”214 No Iraqi witness was
subject to cross-examination or made available for
either trial of the appellant.
Applying the Rankin factors to this
information, we find it constitutes testimonial
hearsay. 72 M.J. at 288. First, the victim’s family
revealed the burial site location at the request of
NCIS, a law enforcement entity supporting the Navy
and Marine Corps. Second, the information involved
the recent death of a family member. The family
attributed the death to American service members
and had pressed a complaint with the military
leadership in the area. “[T]he statement involved
more than a routine and objective cataloging of
unambiguous factual matters[.]” Id. Finally, NCIS
requested the information after securing an order to
exhume the Iraqi citizen’s remains with the intent to
transport them to the United States for an autopsy.
During cross-examination, SA J.C. acknowledged the
214

Record at 1515.

179a
difficulty in obtaining the exhumation order. As NCIS
sought the autopsy in furtherance of its investigation
of serious criminal offenses, presentation of the
resulting evidence at court-martial was a possible, if
not likely and intended, outcome.
2. Admissibility of the autopsy report
Having found there was testimonial hearsay in
identification of the body autopsied, we now turn to
whether it rendered the medical examiner’s report
and testimony inadmissible. TDC objected to
admission of the autopsy report based on hearsay and
lack of relevance. With regard to hearsay, the military
judge ruled from the bench that the report satisfied
the hearsay exception for records of regularly
conducted activities under MIL. R. EVID. 803(6). As to
relevance, TDC protested, “[t]hey haven’t even
identified the body yet, sir, if this is even the person
that they should be doing [the] autopsy report on.”215
The military judge acknowledged, “that’s certainly a
link in the chain that the government—they got that
problem.”216 But then the military judge posited that
“wounds consistent to what witnesses have testified to
being inflicted on [the victim]” were circumstantial
evidence of identity and thus relevant and
admissible.217
TDC did not explicitly invoke testimonial
hearsay and the Confrontation Clause in his objection
to the autopsy report. Nevertheless, the references to
links in the chain on the record reveal the parties’
Id. at 1814.
Id.
217 Id.
215
216

180a
cognizance of flaws in the body’s chain of custody.
Testimonial hearsay formed not just a weak link but
the chain’s questionable origin. To determine whether
the testimonial hearsay should have resulted in
exclusion of this report from evidence, we examine the
significance of that testimonial hearsay to the report
and testimony about it.
When testimonial hearsay is presented to the
court through an expert witness, we determine
whether that expert testimony violates the
Confrontation Clause by asking:
First, did the expert’s testimony rely in
some way on out-of-court statements
that were themselves testimonial?
Second, if so, was the expert’s testimony
nonetheless admissible because he
reached his own conclusions based on
knowledge of the underlying data and
facts, such that the expert himself, not
the out-of-court declarant, was the
‘witness against [the appellant]’ under
the Sixth Amendment?
Katso, 74 M.J. at 279 (citing Crawford, 541 U.S.
at 44, 51-52) (additional citations omitted). Put
another way, we ask whether the expert witness “had
sufficient personal knowledge to reach an
independent conclusion as to the object of his
testimony and his expert opinion.” Id. at 280 (citing
United States v. Blazier (Blazier II), 69 M.J. 218, 22425 (C.A.A.F. 2010)).

181a
Navy CAPT S.L., the Deputy Medical Examiner
at the Armed Forces Medical Examiner at Dover Air
Force Base, Delaware, conducted the autopsy,
authored the report, and authenticated it while
testifying at the appellant’s second court-martial.
After the NCIS-directed exhumation of the body
identified as the shooting victim in this case, Masterat-Arms Second Class (MA2) I.D. accepted custody of
the body from “mortuary affairs”218 on 6 June 2006
and escorted it from Camp Fallujah, Iraq, to Dover.
An NCIS agent met MA2 ID when he landed at Dover
and took custody of the body from him. On 8 June
2006, CAPT SL, performed the autopsy.219 His report
of 6 July 2006 includes a “[p]resumptive identification
. . . established by accompanying documentation and
photographs.”220 CAPT S.L. testified that NCIS
typically provided a history on a decedent “[t]o give us
some background information. . . . You have to get
something specific to focus your attention on.”221
Based on the information provided by NCIS, the
decedent was “believed to be” H.I.A., a 52-year-old
Iraqi civilian who died in Hamdaniyah, Iraq on 26
April 2006.222 For the circumstances of death,
“[i]nvestigation reports that United States Military
Personnel detained this Iraqi civilian, bound him with
flexible cuffs, and shot him multiple times at different
ranges of fire.”223

Id. at 1826.
PE 88 at 1, 15.
220 Id. at 1.
221 Record at 1861.
222 PE 88 at 1, Record at 1887.
223 PE 88 at 1.
218
219

182a
The remaining 14 pages of the report detailed
CAPT S.L.’s external and internal examinations of the
body and its injuries, his diagnosis, and his opinion.
Descriptions of the gunshot wounds to the body
comprised the majority of the report and supported
CAPT S.L.’s diagnosis of multiple gunshot wounds as
the cause of death. Responding to the information that
the shooting victim was bound, CAPT S.L. noted that
“[d]issection into the skin and soft tissues of the wrists
and ankles revealed no hemorrhage or other injury,
which might be expected if the individual was
bound.”224 But the use of flexible cuffs and the
advanced state of composition prevented him from
excluding the possibility that he was bound. CAPT
S.L. also commented on findings from which he could
infer that the man “had some degree of difficulty with
ambulation.”225 Nowhere in the report did CAPT S.L.
appear to rely on any information from NCIS to form
his opinion.
Qualified as an expert witness in forensic
pathology, CAPT S.L. authenticated and explained
his report, including the process of performing an
autopsy and his specific findings in this case. TC
asked CAPT S.L. about the trajectory of gunshot
wounds, the existence of stippling and its evidence of
the range of the shot, and his interpretation of metal
fragments recovered from the body. CAPT S.L.’s
testimony relied almost entirely on the application of
his expertise to observations he made during an

224
225

Id. at 15.
Id.

183a
autopsy he performed.226 He relied on the purported
identity of the body, the circumstances surrounding
the death, or anything else flowing from the
testimonial hearsay only for the nexus they created
between the body and this case. Presented with
background details such as the possible use of flexible
handcuffs, the purported victim’s reported limp, and
the location of gunshot wounds, he indicated whether
his autopsy findings were consistent, or inconsistent,
with such facts. Ultimately the relevance of the
report, not the report’s findings themselves, relied on
testimonial hearsay.
With some reliance on the testimonial hearsay,
we proceed to the second Katso factor—whether the
expert’s testimony was nonetheless admissible
because he reached his own conclusions based on
knowledge of the underlying data and facts, and his
opinions, not those of an out-of-court declarant, were
subject to the cross-examination required by the
Confrontation Clause. 74 M.J. at 279. While
testimonial hearsay formed the basis of the relevance
of CAPT S.L.’s report and testimony to this case, the
conclusions in the report and testimony suggest no
reliance on that testimonial hearsay. CAPT S.L.
carefully documented, in writing and on the stand, the
scientific processes he followed and the data he relied
on to support his conclusions. The transparency of the
scientific process supports our conclusion that
testimonial hearsay was incidental, not foundational,
See Bullcoming v. New Mexico, 564 U.S. 647, 661 (2011)
(holding that the Confrontation Clause requires that prosecutors
call the analysts who write the reports to introduce them into
evidence).
226

184a
to CAPT S.L.’s report, testimony, and opinion.
Furthermore, CAPT S.L. acknowledged early in crossexamination that he had not independently identified
the body he autopsied through DNA, dental records,
fingerprints, or other scientific methods. But other
than reporting the background information NCIS
provided, CAPT S.L. did not opine on the identity of
the body in his report or his testimony. We conclude
CAPT S.L. demonstrated sufficient personal
knowledge, education, and expertise to reach the
independent conclusions of his report and testimony.
Id. at 280.
In his closing argument, TC minimized the
significance of the identity of the body in the autopsy
report and asked members “to consider the
circumstantial evidence. Look at the wound
patterns.”227 TC encouraged the members to compare
the wounds CAPT S.L. highlighted on the autopsy
report to the photograph of the man killed in the IED
crater on 26 April 2006. This was circumstantial
evidence from which the members could identify the
body as that of the man killed in the IED crater on 26
April 2006. Even without the direct evidence of a fully
documented chain of custody for the body,
circumstantial evidence in the report tying the body
to the victim in this court-martial was sufficient to
render the report relevant. See United States v. Hurt,
27 C.M.R. 3, 31 (C.M.A. 1958) (citing United States v.
Walker, 6 U.S.C.M.A. 158 (C.M.A. 1955) (holding that
circumstantial evidence can be as dispositive as direct
evidence).
227

Record at 2306.

185a
The problems in the body’s chain of custody and
the reliance on testimonial hearsay to link the body to
this case affected the weight of the autopsy report, not
its admissibility. Testimonial hearsay and identity
were not so imbedded in the expert’s report and
testimony as to violate the appellant’s right of
confrontation and render the report and subsequent
testimony inadmissible. We find no abuse of discretion
in the military judge’s finding that the report and
testimony were admissible.
J. Failure to Grant a Mistrial
The appellant contends that the military judge
abused his discretion when he declined to grant a
mistrial after the lead NCIS agent testified before
members that the appellant “invoked at the
interview.”228
“We will not reverse a military judge’s
determination on a mistrial absent clear evidence of
an abuse of discretion.” Ashby, 68 M.J. at 122 (citing
United States v. Rushatz, 31 M.J. 450, 456 (C.M.A.
1990)).
A military judge “may, as a matter of
discretion, declare a mistrial when such action is
manifestly necessary in the interest of justice because
of circumstances arising during the proceedings which
cast substantial doubt upon the fairness of the
proceedings.” R.C.M. 915(a). But “a mistrial is an
unusual and disfavored remedy. It should be applied
only as a last resort to protect the guarantee for a fair
trial.” United States v. Diaz, 59 M.J. 79, 90 (C.A.A.F.
228

Id. at 1417.

186a
2003). “A curative instruction is the preferred remedy,
and the granting of a mistrial is an extreme remedy
which should only be done when ‘inadmissible matters
so prejudicial that a curative instruction would be
inadequate are brought to the attention of the
members.’” Diaz, 59 M.J. at 92 (quoting R.C.M. 915(a),
Discussion).
Inadmissible matters include mention that an
accused exercised his or her rights under the Fifth
Amendment to the Constitution or Article 31(b),
UCMJ, by remaining silent, refusing to answer a
question, requesting counsel, or requesting to
terminate an interview. MIL. R. EVID. 301(f)(2). The
erroneous presentation of such evidence to members
implicates constitutional rights; therefore, to be
harmless, “‘the court must be able to declare a belief
that it was harmless beyond a reasonable doubt.’”
United States v. Moran, 65 M.J. 178, 187 (C.A.A.F.
2007) (quoting Chapman v. California, 386 U.S. 18, 24
(1967)). The inadmissible evidence must not have
contributed to the verdict. Id. To determine an error
does not contribute to the verdict is “‘to find that error
unimportant in relation to everything else the jury
considered on the issue in question, as revealed in the
record.’” Id. (quoting Yates v. Evatt, 500 U.S. 391, 403
(1991), overruled on other grounds by Estelle v.
McGuire, 502 U.S. 62, 72 n.4 (1991)).
1.
“[H]e invoked”
In this case, the inadmissible evidence of the
appellant’s invocation of his right to remain silent
came from the lead investigator, SA J.C. SA J.C. was
on the stand authenticating physical evidence in the
government’s case. The prosecutor asked him if he

187a
confronted the appellant with the appellant’s afteraction report about the shooting, and SA J.C.
responded:
Well, I don’t remember specifically
showing that to him at that time. But
like I said, eventually after a time into
the interview, it was time to start
playing some of our cards that we had
developed through some of the other
interviews through some of the other
squad members from earlier in the day.
And at which time, he invoked at the
interview.229
TDC objected immediately, requested a
mistrial, and protested, “[h]e’s going into Sergeant
Hutchins’s Constitutional right to remain silent.”230
At a brief Article 39(a), UCMJ, session immediately
following the comments and objection, the military
judge decided to give the members a curative
instruction right away but to postpone litigation of the
motion for a mistrial until the next morning. As soon
as the members reassembled in the courtroom, the
military judge admonished them to disregard any
invocation of rights by the appellant231 and then
confirmed with them as a group that they understood.
Id.
Id.
231 The military judge told the members:
Members, you heard some testimony that
suggesting, perhaps, that the accused in this case
may have invoked some rights when being
questioned by this witness. That’s a completely
229
230

188a
The following day, after hearing arguments
from both parties, the military judge adopted TDC’s
proposed curative instruction232 and agreed to conduct
individual voir dire of the members. We must now
determine whether—in light of the requirement that
the members’ exposure to the inadmissible evidence
be harmless beyond a reasonable doubt—the military
judge abused his discretion in declining to declare a
mistrial. He briefly made findings of fact from the
bench:
[W]hat I found here is that this was a
[sic] isolated reference to a singular
invocation of rights by the witness. It
was extremely brief. There are no details
about the rights invoked or the offense or
offenses to which the rights were
invoked. We immediately called a[n
Article] 39(a) [session]. I immediately
improper discussion point for us here. It’s
irrelevant to your consideration, and it’s never,
ever, to be held against anyone accused of a crime
that they invoked, whether they invoked,
whether they didn’t invoke.
It’s not to be considered by you for any reason
whatsoever. That testimony is stricken, and it’s
to be completely disregard [sic] by you for any
purpose whatsoever. It will not be held against
Sergeant Hutchins in any manner whatsoever. If
you all understand that, could you please
indicate by raising your hand.
That’s an affirmative response from all the
members.
Id. at 1419-20.
232 AE CXLVIII; Record at 1450-51.

189a
gave instructions to disregard. I find that
the inadmissible invocation testimony
didn’t have any direct bearing on the
testimony prior to it. It was toward the
end and was unrelated to the other
issues in any substantive manner.233
The military judge did not articulate the legal
standard he followed, but he referred counsel to two
cases: United States v. Sidwell, 51 M.J. 262 (C.A.A.F
1999) and United States v. Boore, 2014 CCA LEXIS
609, unpublished op. (A.F. Ct. Crim. App. 21 Aug
2014) (per curiam).
2.
Sidwell test
In Sidwell, the CAAF analyzed testimony from
a law enforcement agent who uttered, “[s]ubsequent to
[Sidwell] invoking his rights, he made – ” before being
interrupted by trial defense counsel’s objection. 51
M.J. at 263 (emphasis in original). To assess the
possible prejudice resulting from this erroneous
admission and gauge whether it was, instead,
harmless beyond a reasonable doubt, the CAAF
considered three things: the nature of the comment,
the curative instruction given, and the “effect of the
error on the other prosecution and defense evidence
presented in the case.” Id. at 265 (citing United States
v. Riley, 47 M.J. 276, 279-80 (C.A.A.F. 1997)). The
CAAF concluded that, “viewed in its entirety, [the
error] did not have great potential to prejudice
appellant.” Id. In support of their conclusion, the
CAAF cited the isolated nature of the reference, its
extreme brevity, the immediacy with which the
233

Record at 1435.

190a
military judge called an Article 39(a), UCMJ, session,
the prompt instruction to the members to disregard
the evidence, and trial counsel’s silence about
Sidwell’s invocation in argument. Id.
The military judge’s factual findings mirrored
those on which the CAAF relied, in part, in Sidwell.
The record supports his characterization of SA J.C.’s
comment as isolated and extremely brief. Aside from
the trial counsel’s question about the appellant’s
after-action report and SA J.C.’s reference to the other
squad members’ interviews, this statement was bereft
of context. Trial defense counsel’s objection, the
Article 39(a), UCMJ, session, and the initial curative
instruction came in quick succession. TC then asked
SA J.C. one more brief question about the appellant’s
interview and his after-action report before returning
to the authentication of physical evidence.
The next day, the military judge adopted the
appellant’s proposed curative instruction and read it
to members before TDC began his cross-examination
of SA J.C. While the appellant does not object to the
content of his own curative instruction, we
nevertheless note that it closely hews to the curative
instruction in United States v. Garrett, 24 M.J. 413,
417 (C.M.A. 1987), which the CAAF has endorsed. See
Sidwell, 51 M.J. at 265; United States v. Whitney, 55
M.J. 413, 416 (C.A.A.F. 2001). After reminding the
members that they all enjoyed the “absolute and
moral right to exercise their constitutional privileges,”
the military judge echoed the Garrett instruction in
stating:

191a
The only thing that matters in this case
is that Sergeant Hutchins always has a
constitutional right to exercise his legal
prerogative and no adverse result may
obtain from his exercise of those
constitutional rights. You may not infer
guilt, nor may you infer any other fact
based on Sergeant Hutchins’ proper
exercise of his constitutional rights.234
The military judge then conducted individual
voir dire of the members, confirming their ability to
follow the instruction. “Absent evidence to the
contrary, court members are presumed to comply with
the military judge’s instructions.” United States v.
Thompkins, 58 M.J. 43, 47 (C.A.A.F. 2003) (citations
omitted). There is no evidence the members
disregarded the military judge’s instructions.
Finally, we consider the impact of the error on
the subsequent presentation of evidence. The
appellant does not allege any impact on the rest of the
case. Suppression of the appellant’s statements to
NCIS and the related reversal of his first courtmartial had already transformed the appellant’s
statements to SA J.C. into a third rail for the
government. The prosecution focused some attention
on the appellant’s after-action report, which was the
subject of the only false official statement charge
against the appellant. But the appellant’s interviews
with NCIS were otherwise absent from the
government’s case. Nor did the trial counsel allude to
the appellant’s invocation in his closing argument.
234

Id. at 1451.

192a
Errant mention of the invocation did not affect
the trial defense team’s presentation of evidence
either. Recognizing that the strongest evidence
against the appellant lay in the testimony of his squad
mates, TDC focused on attacking their interrogations
and testimony at the first court-martial. According to
the defense theory, the appellant’s guilt was an NCIS
fabrication imposed on the frightened and coerced
members of the appellant’s squad. SA J.C. had not
confronted the appellant with a truth he could not
refute. SA J.C. had confronted the appellant with a
concocted version of events. The appellant’s decision
to remain silent did not matter.
Instead of pointing to where the error
manifested elsewhere in the trial, the appellant
alleges substantial prejudice by framing SA J.C.’s
brief statement as improper lie detector testimony.
According to the appellant, members were left with
the impression that SA J.C. “determined Sergeant
Hutchins was lying during the initial portion of the
interrogation, so then he confronted Sergeant
Hutchins with the overwhelming evidence of guilt—
the ‘cards’—, and that caused Sergeant Hutchins to
opt for silence because he could not explain it
away.”235
We do not find that argument persuasive. The
members acquitted the appellant of the sole
specification of false official statement for submitting
his after-action report. This acquittal indicates that
their findings of guilty did not rely on their
assessments of the appellant’s credibility. Nor do we
235

Appellant’s Brief at 161.

193a
believe their findings relied on SA J.C.’s assessment
of his credibility. Without the context of the
appellant’s interrogations, SA J.C.’s comment came in
a vacuum and simply did not carry the weight the
defense alleges. SA J.C. was not an expert or other
authoritative witness on whom members might
unduly rely for his insight. Cf Diaz, 59 M.J. at 93
(concluding that a curative instruction was
inadequate to correct the expert witness’s testimony
that Diaz murdered the victim).
Secondly, the appellant argues that the
members would interpret the invocation in
conjunction with their knowledge of a prior trial set
aside for some technicality and assume only someone
guilty would face retrial. This argument requires us
to assume the members disregarded the military
judge’s clear instruction about everything from the
presumption of innocence and the burden of proof to
inferring guilt from the act of invocation. Without any
evidence to support such an assumption, we decline to
do so.
We find no clear error in the military judge’s
finding that the reference to invocation was so brief
and isolated as to be effectively cured by the
instructions he promptly gave. Notably, those
curative instructions were consistent with curative
instructions the CAAF has favorably endorsed under
similar circumstances. See Sidwell, 51 M.J. at 265. We
conclude that the military judge did not abuse his
discretion in denying the appellant’s motion for a
mistrial.

194a
K. Cumulative error
The appellant urges us to set aside the findings
and sentence based on the cumulative effect of the
errors in this case.
“The cumulative effect of all plain errors and
preserved errors is reviewed de novo.” United States
v. Pope, 69 M.J. 328, 335 (C.A.A.F. 2011). When the
accumulation of errors deprived the appellant of a fair
trial, Article 59(a), UCMJ, compels us to reverse it.
United States v. Banks, 36 M.J. 150, 171 (C.M.A.
1992).
Despite the military judge’s failure to consider
the appellant’s proffered acquittal of conspiring to kill
anyone other than S.G., we ultimately found no error
in the admission of the evidence of a conspiracy to
commit Plans B and C.
We found only one error in the course of this
trial—NCIS SA J.C.’s reference to the appellant’s
invocation of his right to remain silent. As previously
discussed in section J., not one but two curative
instructions sufficiently addressed any risk of
prejudice from the members’ brief exposure to
evidence the appellant invoked his right to remain
silent.
These two errors, even in aggregate, did not
deprive the appellant of a fair trial, and Article 59(a),
UCMJ, does not require reversal. Further, we decline
the appellant’s invitation to set aside the findings and
sentence under Article 66(c).236

236

Id. at 163-64.

195a
L. Sentence appropriateness
The appellant argues that his sentence “was
excessive and disproportionate,” particularly in light
of his squad members’ and co-conspirators’ sentences.
Article 66(c), UCMJ, requires us to approve a
court-martial sentence only if we find it “correct in law
and fact and [determine], on the basis of the entire
record, [that it] should be approved.” “The power to
review a case for sentence appropriateness, which
reflects the unique history and attributes of the
military justice system, includes but is not limited to
considerations of uniformity and evenhandedness of
sentencing decisions.” United States v. Sothen, 54 M.J.
294, 296 (C.A.A.F. 2001) (citing United States v. Lacy,
50 M.J. 286, 287-88 (C.A.A.F. 1999)) (additional
citation omitted). Uniformity in sentencing is
typically subsumed in the discretionary assessment of
appropriateness encompassed in our Article 66,
UCMJ,
review
authority.
But
in
certain
circumstances, sentence disparity can rise to a
question of law.
1.
Sentence disparity
Assessing
sentence
appropriateness
by
comparison to other cases has long been disfavored,
except in specific circumstances. See United States v.
Ballard, 20 M.J. 282, 283 (C.M.A. 1985) (“It is well
settled that, except in those rare instances in
which sentence appropriateness can be fairly
determined only by reference to disparate sentences
adjudged in closely related cases, such as those of
accomplices, sentence appropriateness should be
determined without reference to or comparison with
the sentences received by other offenders.” (citation

196a
omitted)). The burden falls on the appellant to
demonstrate those exceptional circumstances: (1) the
cases the appellant cites for comparison are “‘closely
related’ to his or her case” and (2) “the sentences are
‘highly disparate.’” Lacy, 50 M.J. at 288 (internal
citations omitted in original). If the appellant
succeeds on both prongs, then the burden shifts to the
government to “show that there is a rational basis for
the disparity.” Id.; see also United States v. Kelly, 40
M.J. 558, 570 (N.M.C.M.R. 1994) (noting that Article
66, UCMJ, authorizes reduction of “widely disparate
dispositions or sentences” between “closely related”
cases when “unsupported by good and cogent
reasons”).
Cases may be “closely related” by virtue of
“coactors
involved
in
a
common
crime,
servicemembers involved in a common or parallel
scheme, or some other direct nexus between the
servicemembers whose sentences are sought to be
compared[.]” Lacy, 50 M.J. at 288. See also Kelly, 40
M.J. at 570 (defining “closely related” cases as those
that “involve offenses that are similar in both nature
and seriousness or which arise from a common scheme
or design”). The appellant and his seven squad mates
were accused of being party to the same conspiracy.
The charges referred against all of them arose from
the same course of events. We need not belabor our
determination that the appellant’s case is closely
related to his squad mates’ and co-conspirators’ cases.
Thus we turn to whether the outcomes were highly
disparate.
On appeal, the appellant alleges that his
sentence is highly disparate because none of his squad

197a
mates served more than 18 months of confinement,
and only two left the Marine Corps with bad-conduct
discharges.237 To meet his burden, the appellant
submits his squad mates’ “final approved sentences”
and details their convictions, punitive discharges
where applicable, and confinement served.238
However, we gauge disparity among closely related
cases based on adjudged sentences, not approved
sentences. See United States v. Roach, 69 M.J. 17, 21
(C.A.A.F. 2010) (clarifying that Courts of Criminal
Appeals compare the adjudged sentences of closely
related cases because “there are several intervening
and independent factors between trial and appeal—
including discretionary grants of clemency and limits
from pretrial agreements—that might properly create
the disparity in what are otherwise closely related
cases”). Disparity is also relative to the maximum
punishment an accused faces. Lacy, 50 M.J. at 289.
The appellant was found guilty of conspiracy to
commit larceny, false official statements, murder, and
obstruction of justice, unpremeditated murder, and
larceny of a shovel and an AK-47 assault rifle and
faced
a
dishonorable
discharge
and
life
239
imprisonment. He was sentenced to a bad-conduct
discharge and 2,627 days’ confinement, which equated
to time served.240 Military judges awarded all five of
the most junior members of the appellant’s squad
dishonorable
discharges
and
sentences
to
Id. at 166.
Id. at 165-66.
239 AE CXCIII.
240 AE CXCVII.
237
238

198a
confinement ranging from five to 14 years.241 Only
PFC Jodka received a shorter sentence of confinement
than the appellant. With the exception of LCpl
Pennington, the junior squad members pleaded guilty
to less serious charges and faced far less than
confinement for life. Only LCpl Pennington pleaded
guilty to conspiracy to commit murder, and he was
awarded 14 years’ confinement. Pursuant to pretrial
agreements, the CA significantly reduced their terms
of confinement and disapproved their punitive
discharges. Any disparity between the appellant’s
sentence and his junior squad members’ adjudged
sentences lay in the relative leniency he received.
Perhaps for this reason, the appellant asks us to limit
the pool of closely related cases to Cpl Thomas and Cpl
Magincalda. But he cites no authority for his selfserving selection of comparables.
Both Cpl Thomas and Cpl Magincalda pleaded
not guilty to all charges before panels with enlisted
representation but were convicted of conspiracy to
commit murder and other less serious charges.242
Members sentenced Cpl Thomas to a bad-conduct
discharge and reduction to pay grade E-1.243 Cpl
Magincalda was awarded 448 days’ confinement (time
served) and reduction to pay grade E-1.
Assuming, arguendo, we disregard the
sentences military judges handed down and find the
appellant’s sentence to be highly disparate among
members’ sentences, we look at whether the
Staff Judge Advocate’s Recommendation of 18 Sep 2015,
Enclosures (4)–(8).
242 Id., Enclosures (9) and (10).
243 Id., Enclosure (9).
241

199a
government has offered “a rational basis for
disparity.” Lacy, 50 M.J. at 288. The government
argues that the appellant’s position as squad leader
and highest ranking member of the conspiracy is the
rational basis for the disparity. Citing squad member
testimony, the government asserts that the appellant
first raised the topic and hatched
the scheme to commit murder, . . . asked
each junior Marine and Sailor to agree to
engage in the plot, . . . gave the order to
fire, . . . [and] held two meetings with the
squad to encourage them to “stick to the
story.” In short, Appellant was the
mastermind of this plot—from inception,
to firing the fatal shots into the Victim’s
face as he gurgled his last breathes [sic],
to orchestrating the cover-up.244
The record supports the appellant’s leadership
role in the formation and execution of the conspiracy
and lacks any evidence that one of the more combatexperienced corporals superseded him. While we do
not find the appellant’s sentence to be highly
disparate, the presence of a rational basis and good
and cogent reasons for a more severe sentence for the
appellant effectively rebuts the appellant’s claim of a
highly disparate sentence among closely related cases.
See e.g., United States v. Fee, 50 M.J. 290, 291-92
(C.A.A.F. 1999) (upholding this court’s affirmation of
allegedly highly disparate sentences awarded to a

Answer on Behalf of Appellee of 20 Dec 2016 at 150-51
(citations omitted).
244

200a
wife and husband based on the identification of “a
rational basis for the differences in the sentences”).
Thus we are left with the more generalized
assessment of the appropriateness of the appellant’s
sentence.
2.
Sentence appropriateness
Article 66, UCMJ, obliges us to evaluate the
appellant’s
sentence
independently
for
appropriateness. See United States v. Baier, 60 M.J.
382, 384-85 (C.A.A.F. 2005). We review sentence
appropriateness de novo. United States v. Lane, 64
M.J. 1, 2 (C.A.A.F. 2006).
“Sentence appropriateness involves the judicial
function of assuring that justice is done and that the
accused gets the punishment he deserves.” Healy, 26
M.J. at 395. This requires our “‘individualized
consideration’ of the particular accused ‘on the basis
of the nature and seriousness of the offense and the
character of the offender.’” United States v. Snelling,
14 M.J. 267, 268 (C.M.A. 1988) (quoting United States
v. Mamaluy, 27 C.M.R. 176, 180-81 (C.M.A. 1959)). In
making this assessment, we analyze the record as a
whole. Healy, 26 M.J. at 395. Notwithstanding our
significant discretion to determine appropriateness,
we may not engage in acts of clemency, which is the
prerogative of the CA. United States v. Nerad, 69 M.J.
138, 146 (C.A.A.F. 2010).
As the appellant requests, we may consider
approved as well as adjudged sentences in companion
cases when assessing sentence appropriateness. See
Roach, 69 M.J. at 21 (“In contrast, when the CCA
(Courts of Criminal Appeals) is exercising its power

201a
over sentence appropriateness generally, it may
consider both adjudged and approved sentences.”).
The CA in this case negotiated pretrial agreements
with the five junior squad members and granted
clemency to LCpl Pennington, greatly reducing their
sentences. But even Article 66, UCMJ, does not grant
CCAs the same unfettered discretion CAs enjoyed
under Article 60, UCMJ, or command prerogative. See
Nerad, 69 M.J. at 145. “While the CCA clearly has the
authority to disapprove part or all of the sentence and
findings, nothing suggests that Congress intended to
provide the CCAs with unfettered discretion to do so
for any reason, for no reason, or on equitable
grounds[.]” Id. Uniformity of sentence is but one
consideration when evaluating appropriateness,245
and equity is not a proper basis for disapproving a
sentence.
Considering the entire record, there is nothing
excessive or disproportionate about a sentence to a
bad-conduct discharge and less than eight years’
confinement for the murder of the unknown Iraqi man
in this case. The appellant’s widespread reputation as
a charismatic and effective leader of Marines and his
compelling account of his confinement following his
first court-martial earned him significant extenuation
and mitigation and spared him a dishonorable
discharge and a return to confinement. Further
reduction of his sentence would not be an act of justice
See Snelling, 14 M.J. at 268 (“However proper it may be for
the convening authority and [Courts of Criminal Appeals] to
consider sentence comparison as an aspect of sentence
appropriateness, it is only one of many aspects of that
consideration.”) (citations omitted).
245

202a
but of mercy, or perhaps equity, and beyond our
authority under Article 66, UCMJ. See id.
M. Legal and factual sufficiency
Finally, the appellant alleges that the case
against him was legally and factually insufficient.
We review the legal and factual sufficiency of
evidence de novo. Art. 66(c), UCMJ; United States v.
Washington, 57 M.J. 394, 399 (C.A.A.F. 2002). The
test for the legal sufficiency of evidence is “whether,
considering the evidence in the light most favorable to
the prosecution, a reasonable factfinder could have
found all the essential elements beyond a reasonable
doubt.” United States v. Turner, 25 M.J. 324 (C.M.A.
1987) (quoting Jackson v. Virginia, 443 U.S. 307, 319
(1979)). In resolving questions of legal sufficiency, “we
are bound to draw every reasonable inference from the
evidence of record in favor of the prosecution.” United
States v. Barner, 56 M.J. 131, 134 (C.A.A.F. 2001)
(citations omitted).
“For factual sufficiency, the test is whether,
after weighing the evidence in the record of trial and
making allowances for not having personally observed
the witnesses, the members of the [appellate court]
are themselves convinced of the accused’s guilt beyond
a reasonable doubt.” Turner, 25 M.J. at 325. “Such a
review involves a fresh, impartial look at the evidence,
giving no deference to the decision of the trial court on
factual sufficiency beyond the admonition in Article
66(c), UCMJ, to take into account the fact that the
trial court saw and heard the witnesses.” Washington,
57 M.J. at 399. “By ‘reasonable doubt’ is not intended
a fanciful or ingenious doubt or conjecture, but an

203a
honest, conscientious doubt suggested by the material
evidence or lack of it in this case. . . . The proof must
be such as to exclude not every hypothesis or
possibility of innocence, but every fair and rational
hypothesis except that of guilt.” United States v.
Loving, 41 M.J. 213, 281 (C.A.A.F. 1994).
The remarkably detailed and consistent
testimony of the five squad members provided
overwhelming evidence of the appellant’s guilt,
covering all elements of the offenses of which he was
convicted. Although we were unable to personally
observe the squad members testify at the first and
second courts-martial, the minute details that
brought their depictions to life, including specifics
with no real bearing on the offenses, conveyed their
credibility. Details varied depending on the role each
member played—providing security, participating in
the initial planning discussion, stepping off with the
snatch team, or remaining behind. But the squad
members corroborated each other, and their
narratives wove together to form a complete and clear
account of the night’s events.
The appellant challenges his squad mates’
testimony as a fabrication forced upon them during
coercive interrogations. TDC accused Hospitalman
Second Class (HM2) S., the platoon’s other Navy
corpsman and a member of the Quick Reaction Force
that responded to the scene minutes after the
shooting, of framing his close friend and mentor, HM3
Bacos, the appellant and the other members of the
squad for murder. According to the appellant, HM2 S.
is the source of the elaborate conspiracy to kill S.G. or
someone close to him. Although HM2 S. admitted to

204a
later fabricating a threatening note in order to escape
the squad he had implicated and their platoon, no
convincing motive for such a large-scale fiction as this
conspiracy ever came to light. Instead, HM3 Bacos’s
testimony foreshadowed the crisis of conscience that
prompted him to confide in HM2 S., who later
reported those confidences to NCIS.
According to the appellant, multiple NCIS
agents then forced HM3 Bacos to adopt HM2 S.’s
statement and forced the other members of the squad
to adopt HM3 Bacos’s statement. Again, the appellant
offers no plausible motive for an entire team of
investigators to strong-arm him and five other
members of his squad into parroting the statement of
a non-participant. Nor does he credibly explain how a
relatively brief interview between NCIS agents and
HM2 S. evolved into the robust testimony before us.
The conspicuously uniform affidavits from HM3
Bacos, LCpl Pennington, LCpl Shumate, and PFC
Jodka alleging coercive interrogations and resulting
perjury are insufficient to raise reasonable doubt,
even in light of our superior court’s suppression of the
appellant’s confession. The overwhelming weight of
the testimony of the appellant’s co-conspirators also
renders the autopsy, physical evidence collected, and
the testimony of lead SA J.C., who did little more than
authenticate the evidence, inconsequential.
Not only do we find the evidence legally
sufficient, but we also find it factually sufficient.
III. CONCLUSION
The findings and sentence are affirmed.

